APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________
LAURIE EXBY-STOLLEY,
Plaintiff-Appellant,
v.
BOARD OF COUNTY COMMISSIONERS, WELD COUNTY,
COLORADO,
Defendant-Appellee.
UNITED STATES OF AMERICA; COLORADO PLAINTIFF
EMPLOYMENT LAWYERS ASSOCIATION; NATIONAL
DISABILITY RIGHTS NETWORK; NATIONAL
EMPLOYMENT LAWYERS ASSOCIATION,
Amici Curiae.
_________
No. 16-1412
_________
Filed: October 28, 2020
_________
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:13-CV-03195-WYD-NYW)
_________
Jason B. Wesoky, Darling Milligan PC, Denver,
Colorado, for Plaintiff-Appellant.

2a
Alan Epstein (Thomas J. Lyons and Mark S. Ratner,
with him on the brief), Hall & Evans, L.L.C., Denver,
Colorado, for Defendant-Appellee.
Anna Baldwin, Attorney, Appellate Section, Civil
Rights Division, United States Department of Justice,
Washington, D.C. (Eric S. Dreiband, Assistant
Attorney General, Tovah R. Calderon, Attorney,
United States Department of Justice, Washington,
D.C.; James L. Lee, Deputy General Counsel, Jennifer
S. Goldstein, Associate General Counsel, Elizabeth E.
Theran, Assistant General Counsel, and Gail S.
Coleman, Attorney, Equal Employment Opportunity
Commission, Washington, D.C., with her on the brief)
filed an amicus curiae brief for the United States.
J. Bennett Lebsack, Lowrey Parady, LLC, Denver,
Colorado, filed an amicus curiae brief for Colorado
Plaintiff Employment Lawyers Association, National
Disability Rights Network, and National Employment
Lawyers Association.
_________
Before TYMKOVICH, Chief Judge, KELLY,
BRISCOE,
LUCERO,
HARTZ,
HOLMES,
MATHESON,
BACHARACH,
PHILLIPS,
McHUGH, MORITZ, EID, and CARSON, Circuit
Judges.
_________
OPINION ON REHEARING EN BANC
_________
HOLMES, Circuit Judge, joined by BRISCOE,
LUCERO,
MATHESON,
BACHARACH,
PHILLIPS, and MORITZ, Circuit Judge.

3a
_________
In this en banc appeal, we address whether an
adverse employment action is a requisite element of a
failure-to-accommodate claim under Title I of the
Americans with Disabilities Act (the “ADA”), 42
U.S.C. §§ 12111-12117. We conclude that the answer
is “no,” reaching this determination through a
comprehensive analysis, including consideration of
the following: the ADA’s text; our failure-toaccommodate precedent; the failure-to-accommodate
decisions of our sister circuits; the views of the Equal
Employment Opportunity Commission (the “EEOC”),
the federal regulatory agency charged with
administering the ADA; and the ADA’s general
remedial purposes.
The district court in this case had instructed the jury
that, in order to prevail on her ADA failure-toaccommodate claim, Plaintiff-Appellant Laurie ExbyStolley was required to establish that she had suffered
an adverse employment action. Over a dissenting
opinion, a panel of this court agreed and affirmed the
district court’s judgment. See Exby-Stolley v. Bd. of
Cty. Comm’rs, 906 F.3d 900 (10th Cir. 2018)
[hereinafter the Panel Majority].
We granted
rehearing en banc. “In accordance with our local rule,
the judgment was vacated, the mandate stayed, and
the case was restored as a pending appeal.” United
States v. Nacchio, 555 F.3d 1234, 1236 (10th Cir.
2009) (en banc) (citing 10TH CIR. R. 35.6).
On en banc rehearing and following oral argument,
we now hold that the district court erred: viz., an
adverse employment action is not a requisite element
of
an
ADA
failure-to-accommodate
claim.

4a
Accordingly, we reverse the district court’s judgment
and remand for a new trial. Because we remand for
a new trial and the original decision turned on trialrelated issues, we vacate in full the decision (including
the dissent). See, e.g., id. (“vacat[ing] the panel
opinion insofar as it reversed the district court’s
judgment”); The Tool Box v. Ogden City Corp., 355
F.3d 1236, 1243 (10th Cir. 2004) (“[W]e VACATE the
panel decision and AFFIRM the district court’s
judgment.”).
I
This en banc appeal centers on a pure issue of law:
whether an adverse employment action is a requisite
element of an ADA failure-to-accommodate claim.
Therefore, we need not recount at length here the
facts and procedural history. We only discuss the
factual and procedural background insofar as it is
germane to our resolution of this appeal.
In 2013, Ms. Exby-Stolley sued her former employer,
the Board of County Commissioners of Weld County,
Colorado (the “County”).
In particular, and as
relevant here, Ms. Exby-Stolley contended that the
County violated the ADA by failing to accommodate
her disability. See 42 U.S.C. § 12112(a), (b)(5)(A).
More specifically, she claimed that the County had not
reasonably accommodated her even though she had
informed it that her physical limitations resulting
from a workplace injury were preventing her from
adequately completing her work, and even though she
also had proposed to it various reasonable
accommodations. Ms. Exby-Stolley also alleged that,
beyond not being accommodated, she was compelled
to resign, which she in fact did prior to filing this suit.

5a
The County, beyond disputing that it had failed to
make sufficient efforts to reasonably accommodate
Ms. Exby-Stolley, also alleged that her resignation
had been voluntary.
In its post-trial instructions to the jury regarding
Ms. Exby-Stolley’s failure-to-accommodate claim, the
district court stated that
Plaintiff must prove each of the following facts
by a preponderance of the evidence:
1. That Plaintiff had a “disability,” as defined
in these instructions;
2. That Plaintiff was a “qualified individual,”
as defined in these instructions;
3. That Plaintiff was discharged from
employment or suffered another adverse
employment action by Defendant; and
4. That Plaintiff’s disability was a substantial
or motivating factor that prompted
Defendant to take that action.
Aplt.’s App., Vol. II, at 440 (Jury Instrs., filed Oct. 11,
2016) (emphasis added). The instructions specified
that “[a]n adverse employment action constitutes a
significant change in employment status, such a[s]
hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing a significant change in benefits.” Id. at 449.
In answers to special interrogatories, the jury found
that Ms. Exby-Stolley had “proven by a
preponderance of the evidence” both “that she had a
disability, as defined in the instructions, at the time

6a
of the employment actions in question” and “that she
is a qualified individual with a disability, as defined
in the instructions.” Id. at 419 (Verdict Form, filed
Oct. 11, 2016). But the jury nonetheless ruled in the
County’s favor, finding that Ms. Exby-Stolley had not
“proven by a preponderance of the evidence” that she
had been “[discharged from employment] [not
promoted] [or other adverse action] by Defendant.”
Id. (brackets in original).
Ms. Exby-Stolley appealed, arguing in part that the
district court erred in instructing the jury that she
had to prove an adverse employment action as part of
her failure-to-accommodate claim. Over a dissenting
opinion, the Panel Majority affirmed the district
court’s judgment, concluding as relevant here that “an
adverse employment action is an element of a failureto-accommodate claim.” Exby-Stolley, 906 F.3d at
905.
The Panel Majority acknowledged that “the
language ‘adverse employment action’ does not appear
in the ADA” but observed that it was “well established
in judicial opinions” in the Title VII context, where
this language has been used as a “shorthand” for
language that is materially similar to the termsconditions-and-privileges-of-employment language of
§ 12112(a) of the ADA. Id. at 906-07. And the Panel
Majority deemed it “natural to use the same
shorthand—adverse employment action—for this
statutory language in the ADA as is used for like
language in Title VII.” Id. at 908. It “is clear from the
language of § 12112,” reasoned the Panel Majority,
that
“[t]he
terms-and-conditions-of-employment
language”—and, consequently, the shorthand,
adverse-employment-action language—”applies to

7a
failure-to-accommodate claims under the ADA.” Id.
at 907. And, critically, the Panel Majority concluded
that “proof of a failure to accommodate does not
automatically satisfy the terms-and-conditions
language”—in other words, “[e]ven after proof of a
failure to accommodate, there remains the
requirement that the discrimination be ‘in regard to
job application procedures, . . . [or] other terms,
conditions, or privileges of employment.’ That is, the
employee still needs to prove this component of an
ADA discrimination claim based on a failure to
accommodate.” Id. at 908 (second alteration and
omission in original) (quoting 42 U.S.C. § 12112(a)).
And,
because
the
adverse-employment-action
language is simply shorthand for this additional
terms-conditions-and-privileges-of-employment
requirement, “it is evident” said the Panel Majority,
that plaintiffs must establish an adverse employment
action even where their ADA claim is “based on failure
to make reasonable accommodations.” Id. at 911.
This court subsequently agreed to rehear the case en
banc, requesting supplemental briefing specifically as
to whether the district court erred when it instructed
the jury that an adverse employment action is a
requisite element of a failure-to-accommodate claim
under the ADA. We turn now to that question.1
1

In this en banc appeal, with one notable exception—that is,
the undue-hardship issue, which we resolve infra in Part IV—we
do not address the other matters that Ms. Exby-Stolley argued
before the panel, specifically, whether the district court erred in
refusing to either allow her to instruct the jury on a claim of
constructive discharge or to argue constructive discharge in
closing argument. The district court may address those matters
on remand.

8a
II
A
“We review de novo whether, ‘as a whole, the district
court’s jury instructions correctly stated the
governing law and provided the jury with an ample
understanding of the issues and applicable
standards.’ ” Liberty Mut. Fire Ins. Co. v. Woolman,
913 F.3d 977, 992 (10th Cir. 2019) (quoting Martinez
v. Caterpillar, Inc., 572 F.3d 1129, 1132 (10th Cir.
2009)); accord Davoll v. Webb, 194 F.3d 1116, 1131
(10th Cir. 1999). The foundational governing law in
this case is found in the ADA’s text.
42 U.S.C. § 12112(a), entitled “General rule,”
provides the general, employment-discrimination
proscription of Title I of the ADA, stating that
[n]o covered entity shall discriminate against a
qualified individual on the basis of disability in
regard to job application procedures, the hiring,
advancement, or discharge of employees,
employee compensation, job training, and other
terms,
conditions,
and
privileges
of
employment.
42 U.S.C. § 12112(a)2; see PGA Tour, Inc. v. Martin,
532 U.S. 661, 675, 121 S.Ct. 1879, 149 L.Ed.2d 904
(2001) (“To effectuate its sweeping purpose, the ADA
forbids discrimination against disabled individuals in
major areas of public life, among them employment
2

A “qualified individual” is “an individual who, with or without
reasonable accommodation, can perform the essential functions
of the employment position that such individual holds or
desires.” 42 U.S.C. § 12112(8).

9a
(Title I of the Act), public-services (Title II), and public
accommodations (Title III).” (footnotes omitted)).
Subsection 12112(b), entitled “Construction,” is
inextricably intertwined with § 12112(a)’s “General
rule.” Critically, § 12112(b) particularizes and makes
concrete this rule by offering in non-comprehensive
fashion examples of the kinds of disability
discrimination that qualified individuals may be
subjected to “in regard to job application procedures,
the hiring, advancement, or discharge of employees,
employee compensation, job training, and other
terms, conditions, and privileges of employment.” 42
U.S.C. § 12112(a). (We frequently refer to the latter,
quoted language of § 12112(a), in brief, as “the termsconditions-and-privileges-of-employment language.”)
As most relevant here, subsection (b) provides the
following:
As used in subsection (a), the term “discriminate
against a qualified individual on the basis of
disability” includes—
....
(5)(A) not making reasonable accommodations
to the known physical or mental limitations of
an otherwise qualified individual with a
disability who is an applicant or employee,
unless such covered entity can demonstrate
that the accommodation would impose an
undue hardship on the operation of the
business of such covered entity[.]
Id. § 12112(b).

10a
It is undisputed that the language “adverse
employment action” does not expressly appear in the
plain terms of the failure-to-accommodate statutory
provision, § 12112(b)(5)(A), nor in the “General rule”
of § 12112(a) that the failure-to-accommodate
provision particularizes. And, for the reasons that we
discuss at length below, we conclude that the district
court erred when it charged the jury that an adverse
employment action is a requisite element of a failureto-accommodate claim.
We put aside for the moment—but return to later—
the fact that by charging the jury in this fashion, the
district court effectively added language to the ADA’s
plain text (i.e., “adverse employment action”);
ordinarily, as here, this is an impermissible method of
interpreting the governing statutory law. See, e.g.,
Dean v. United States, 556 U.S. 568, 572, 129 S.Ct.
1849, 173 L.Ed.2d 785 (2009) (noting that “we
ordinarily resist reading words or elements into a
statute that do not appear on its face”) (quoting Bates
v. United States, 522 U.S. 23, 29, 118 S.Ct. 285, 139
L.Ed.2d 215 (1997))); Pueblo of San Ildefonso v.
Ridlon, 103 F.3d 936, 939 (10th Cir. 1996) (“Where
statutory language is clear and unambiguous, that
language is controlling and courts should not add to
that language.”). That is because, perhaps most
critically, the incorporation of an adverseemployment-action requirement into an ADA failureto-accommodate claim is squarely at odds with,
among other things, our own precedent; the views of
the EEOC—the agency responsible for administering
the ADA; and the regularly followed practices of all of
our sister circuits. Let us explain.

11a
B
More specifically, the district court’s incorporation
of an adverse-employment-action requirement into an
ADA failure-to-accommodate claim was contrary to (1)
our controlling precedent; (2) the inherent nature of a
failure-to-accommodate claim, as contrasted with a
disparate-treatment claim; (3) the general remedial
purposes of the ADA; (4) the EEOC’s understanding
of the elements of an ADA failure-to-accommodate
claim; and (5) the regularly followed practices of all of
our sister circuits. We address these matters in turn.
1
Our controlling precedents make clear that an
adverse employment action is not a requisite element
of a failure-to-accommodate claim. For starters, our
precedents have repeatedly and invariably presented
the prima facie case for an ADA failure-toaccommodate claim without mentioning an adverseemployment-action requirement.
See Lincoln v.
BNSF Ry. Co., 900 F.3d 1166, 1204 (10th Cir. 2018)
(noting that under the “modified McDonnell Douglas
burden-shifting framework” governing failure-toaccommodate claims, a plaintiff may establish a
prima facie case by demonstrating “that ‘(1) [he] is
disabled; (2) [he] is otherwise qualified; and (3) [he]
requested a plausibly reasonable accommodation’ ”
(alterations in original) (quoting Punt v. Kelly Servs.,
862 F.3d 1040, 1050 (10th Cir. 2017))); see also Bartee
v. Michelin N. Am., Inc., 374 F.3d 906, 912 n.4 (10th
Cir. 2004); Smith v. Midland Brake, Inc., 180 F.3d
1154, 1179 (10th Cir. 1999) (en banc). Moreover, we
have made clear that these articulations of the prima
facie case for a failure-to-accommodate claim

12a
exhaustively enumerate the essential elements of that
claim. See, e.g., Lincoln, 900 F.3d at 1204 (stating,
under the heading “Standard governing claim &
burden of proof framework,” not only the prima facie
case for an ADA failure-to-accommodate claim, but
also the employer’s subsequent proof burden of undue
hardship where the prima facie case has been
satisfied, without even an intimation that such
satisfaction of the prima facie case requires the
plaintiff to demonstrate an adverse employment
action); Punt, 862 F.3d at 1050 (similarly presenting
an ADA failure-to-accommodate claimant’s initial
burden and the employer’s contingent burden, with
complete silence as to an adverse-employment-action
requirement); Smith, 180 F.3d at 1179 (describing the
prima facie case for an ADA failure-to-accommodate
claim—which the court presented without an adverseemployment-action requirement—as what the
plaintiff must show “[t]o survive summary judgment
on an ADA claim of failure to accommodate”); cf.
MacDonald v. Delta Air Lines, Inc., 94 F.3d 1437, 1440
(10th Cir. 1996) (indicating, in an ADA case, that the
establishment of a prima facie case means that a
“reasonable jury could return a verdict in [the
plaintiff’s] favor”).
An appellate court that effectively declares that it is
comprehensively delineating the elements of “a prima
facie failure to accommodate claim,” Bartee, 374 F.3d
at 912 n.4, but instead then excludes an ostensibly
essential element of that claim—that is, an adverseemployment-action requirement—would run a
serious risk of misleading lower courts and the public
about the contours of the law. We are not inclined to
believe that our colleagues—in our previous failure-

13a
to-accommodate cases—would be so careless. Rather,
we are confident that they omitted an adverseemployment-action element from their comprehensive
statements of the prima facie case for an ADA failureto-accommodate claim for a reason: viz., there is no
such element in an ADA failure-to-accommodate
claim.
Moreover, the telling omission of an adverseemployment-action requirement from our prior
articulations of the ADA prima facie case for a failureto-accommodate claim is perhaps especially notable,
given that where an adverse employment action is a
required element of other claims, whether under the
ADA or otherwise, we have not been reticent to
acknowledge that. See, e.g., EEOC v. Abercrombie &
Fitch Stores, Inc., 731 F.3d 1106, 1122 (10th Cir. 2013)
(stating
that
“[i]n
[Title
VII]
religio[us]accommodation cases, . . . . [t]he prima facie case
requires the employee to ‘show that (1) he or she had
a bona fide religious belief that conflicts with an
employment requirement; (2) he or she informed his
or her employer of this belief; and (3) he or she was
fired [or not hired] for failure to comply with the
conflicting employment requirement’ ” (final alteration
in original) (emphasis omitted in second clause, and
emphasis added in third clause) (quoting Thomas v.
Nat’l Ass’n of Letter Carriers, 225 F.3d 1149, 1155
(10th Cir. 2000)), rev’d on other grounds, 575 U.S. 768,
135 S.Ct. 2028, 192 L.Ed.2d 35 (2015))3; EEOC v. C.R.
3

The fact that we have required an adverse employment action
to support Title VII religious-accommodation claims, see
Abercrombie & Fitch Stores, 731 F.3d at 1122; Thomas, 225 F.3d
at 1155, does not militate in favor of including such a
requirement
for
ADA
failure-to-accommodate
claims.

14a
England, Inc., 644 F.3d 1028, 1039 (10th Cir. 2011)
(stating, in the context of describing an ADA
Significantly, whereas under the ADA failure-to-accommodate
claim is a freestanding claim of discrimination based on a failure
to meet an affirmative duty, see 42 U.S.C. § 12112(a), (b)(5)(A),
Title VII does not have such a freestanding claim; any claim
under Title VII must necessarily be brought under the rubric of
a disparate-treatment claim or disparate-impact claim, see
EEOC v. Abercrombie & Fitch Stores, Inc., 575 U.S. 768, 135 S.
Ct. 2028, 2032, 192 L.Ed.2d 35 (2015) (“[T]he ‘disparate
treatment’ . . . provision and the ‘disparate-impact’ provision[ ]
are the only causes of action under Title VII”).
And the Tenth Circuit and Supreme Court Title VII cases
concerning the failure to accommodate an employee’s religion
that mention an adverse-employment-action requirement are
specifically addressing disparate-treatment claims. See, e.g.,
Abercrombie & Fitch Stores, 135 S. Ct. at 2033 (referring to the
claim at issue as a “disparate-treatment claim[ ] based on a
failure to accommodate a religious practice” (emphasis added));
Trans World Airlines, Inc. v. Hardison, 432 U.S. 63, 66, 71, 97
S.Ct. 2264, 53 L.Ed.2d 113 (1977) (citing 42 U.S.C. § 2000e2(a)(1), Title VII’s disparate-treatment provision, in discussing
the claim at issue); Abercrombie & Fitch Stores, 731 F.3d at 1116
(same); Thomas, 225 F.3d at 1154 (same); see also Amina Musa,
‘A Motivating Factor’ – The Impact of EEOC v. Abercrombie &
Fitch Stores, Inc. on Title VII Religious Discrimination Claims,
61 ST. LOUIS U. L.J. 143, 155 n.87 (2016) (noting that “the
[Abercrombie] majority . . . stated that Title VII creates just two
causes of action,” and observing that religious-accommodation
claims are “merged in with the definition of ‘religion’ under Title
VII’s ‘disparate treatment’ provision”). That a disparatetreatment claim—under Title VII or the ADA—would require an
adverse employment action is wholly unremarkable, as we
examine in Part II.B.2 infra. See, e.g., Lincoln, 900 F.3d at 119193; Luster v. Vilsack, 667 F.3d 1089, 1095 (10th Cir. 2011).
However, this fact sheds no light on the entirely separate
question of whether such a requirement exists for failure-toaccommodate claims under the ADA, where a freestanding claim
exists for such unlawful conduct.

15a
disparate-treatment claim under § 12112(b)(1), that,
“as part of their prima facie case . . . , the [plaintiffs]
must demonstrate that [they] suffered from an
‘adverse employment action’ ” (quoting Mathews v.
Denver Post, 263 F.3d 1164, 1167 (10th Cir. 2001)));
Carney v. City & Cty. of Denver, 534 F.3d 1269, 1273
(10th Cir. 2008) (including adverse employment
action as element of prima facie case “[i]n racial
discrimination suits . . . brought under . . . Title VII”
(quoting Baca v. Sklar, 398 F.3d 1210, 1218 n.3 (10th
Cir. 2005))); Orr v. City of Albuquerque, 417 F.3d
1144, 1149 (10th Cir. 2005) (including adverse
employment action as element of prima facie case for
Title VII sex- and pregnancy-discrimination claims);
Anderson v. Coors Brewing Co., 181 F.3d 1171, 1178
(10th Cir. 1999) (“In order to establish a prima facie
case [for an ADA retaliation claim], Plaintiff must
show: . . . 2) she was subjected to adverse employment
action subsequent to or contemporaneous with the
protected activity; . . . .”); Sanchez v. Denver Pub.
Schs., 164 F.3d 527, 531 (10th Cir. 1998) (including
adverse employment action as element of prima facie
case for involuntary-transfer claim under the Age
Discrimination in Employment Act and Title VII);
Den Hartog v. Wasatch Acad., 129 F.3d 1076, 1085
(10th Cir. 1997) (“[I]n order to establish a prima facie
case of ‘association discrimination’ under [the ADA], a
plaintiff must demonstrate the following: . . . (2) the
plaintiff was subjected to adverse employment action;
. . . .” (italics omitted)).
Beyond
repeatedly
omitting
an
adverseemployment-action requirement from comprehensive
articulations of the prima facie case for ADA failureto-accommodate claims, our cases have frequently

16a
made other statements in stark conflict with the
ostensible existence of an adverse-employment-action
requirement for failure-to-accommodate claims. For
instance, in Bartee, we juxtaposed the elements of an
ADA disparate-treatment claim with the elements of
an ADA failure-to-accommodate claim. And, in so
doing, we observed that the element in the former of
an adverse employment action—in that instance, a
termination of employment—was not an element of
the latter. See 374 F.3d at 912 n.4 (“To present a claim
of wrongful termination, [the plaintiff] must show: (1)
he is disabled within the meaning of the ADA; (2) he
can perform, either with or without reasonable
accommodation, the essential functions of the desired
job; and (3) ‘that [the defendant] terminated him
because of his disability.’ To present a prima facie
failure to accommodate claim, the first two elements
remain the same, while the third is met by showing
that ‘an employer [did not] take reasonable steps to
[accommodate the employee].’ ” (third alteration in
original) (emphasis added) (citation omitted) (first
quoting White v. York Int’l Corp., 45 F.3d 357, 360-61
(10th Cir. 1995), and then quoting Albert v. Smith’s
Food & Drug Ctrs., Inc., 356 F.3d 1242, 1252 (10th
Cir. 2004))). Similarly, in C.R. England, we discussed
several claims under the ADA and made clear that
both disparate-treatment and retaliation claims
require an adverse employment action. See 644 F.3d
at 1039, 1050-51. However, we sandwiched between
our discussion of disparate-treatment claims and
retaliation claims a discussion of failure-toaccommodate claims, and there we made no mention

17a
of an adverse-employment-action requirement. See
id. at 1048-50.4
Additionally, we have stated on multiple occasions
that the ADA “establishes a cause of action for
disabled employees whose employers fail to reasonably
accommodate them.” Id. at 1048 (emphasis added)
(quoting Selenke v. Med. Imaging of Colo., 248 F.3d
1249, 1261 (10th Cir. 2001))). This general statement
says nothing about the ostensible need for such
disabled employees to also demonstrate an adverse
employment
action
before
their
failure-toaccommodate claim will be viable.
Similarly, as we have expressly noted, the ADA
imposes on “the employer . . . an affirmative obligation
to make a reasonable accommodation,” Thomas, 225
F.3d at 1155 n.5 (emphasis added), and we have
referred to this duty as an “unvarnished obligation,”
Smith, 180 F.3d at 1169 (emphasis added); accord
4

We observed in C.R. England that “[i]n order to demonstrate
‘discrimination,’ a plaintiff generally must show that he has
suffered an ‘adverse employment action because of the
disability.’” 644 F.3d at 1038 (emphasis added) (footnote
omitted) (quoting Mathews, 263 F.3d at 1167). But we noted that
we were making this statement specifically and exclusively in
connection with a disparate-treatment claim brought under
§ 12112(b)(1). See id. at 1038 n.10 (“The parties acknowledge
that in order to prevail on his ADA discrimination claim, [the
employee] must demonstrate some sort of ‘adverse’ action or
‘adverse’ effect on his employment. . . . Indeed, ADA
§ [12112(b)(1)] –upon which the EEOC’s discrimination claim is
based—only prohibits ‘limiting, segregating, or classifying a[n] .
. . employee in a way that adversely affects the opportunities or
status of such . . . employee because of the disability of such . . .
employee.’” (third alteration in original) (second, third, and
fourth omissions in original) (quoting 42 U.S.C. § 12112(b)(1))).

18a
C.R. England, 644 F.3d at 1049 (referring to the
employer’s “duty” and “obligation” to provide
reasonable accommodations). It is hard to imagine
that a federal statute might place an “affirmative” or
“unvarnished” obligation on an employer, and yet
expose that employer to absolutely no consequences
for breaching the obligation, so long as that employer
does not take some additional action—that is, an
adverse employment action. And, consistent with the
statements in our controlling precedent, we are
disinclined here to read the ADA in such an unnatural
manner.
Finally, in our discussions of the overarching
features of ADA discrimination claims, we also have
made clear that an ADA failure-to-accommodate
claim does not contain an adverse-employment-action
requirement.
As a general matter in an ADA
discrimination claim, we have stated that “an
employee must show: (1) she is disabled within the
meaning of the ADA; (2) she is qualified, with or
without reasonable accommodation, to perform the
essential functions of the job held or desired; and (3)
she was discriminated against because of her
disability.” Osborne v. Baxter Healthcare Corp., 798
F.3d 1260, 1266 (10th Cir. 2015) (quoting Mason v.
Avaya Commc’ns, Inc., 357 F.3d 1114, 1118 (10th Cir.
2004)). Yet, moving down a level of specificity, our
cases have made clear that the third element of this
general test—that the individual was “discriminated
against because of her disability”—is satisfied in a
failure-to-accommodate claim as soon as the
employer, with adequate notice of the disabled
employee’s request for some accommodation, fails to
provide a reasonable accommodation.
See C.R.

19a
England, 644 F.3d at 1048 (“[A]n employer can
unlawfully ‘discriminate’ against an employee by
failing to ‘mak[e] reasonable accommodations to the
known physical or mental limitations of an otherwise
qualified individual with a disability who is an . . .
employee.’” (omission and second alteration in
original) (quoting 42 U.S.C. § 12112(b)(5)(A))); Smith,
180 F.3d at 1169 (“[A]n employer discriminates
against a qualified individual with a disability if the
employer fails to offer a reasonable accommodation.”);
id. at 1178 n.12 (“[A] failure to offer a reasonable
accommodation to an otherwise qualified disabled
employee is unlawful discrimination.”). In other
words, under our precedent, once plaintiffs have
established their employers’ failure to reasonably
accommodate their disability, they need not go further
and establish that they have suffered an adverse
employment action. The district court erroneously
deviated from this settled precedent in its jury
instructions.
2
Any attempt to incorporate an adverse-employmentaction requirement into an ADA failure-toaccommodate claim likely stems from “confusion . . .
[in] failing to clearly differentiate between disparate
treatment and failure to accommodate claims”: the
former require a showing of an adverse employment
action but the latter do not. Megan I. Brennan, Need
I Prove More: Why an Adverse Employment Action
Prong Has No Place in a Failure to Accommodate
Disability Claim, 36 HAMLINE L. REV. 497, 501 (2013);
cf. EEOC v. LHC Grp., Inc., 773 F.3d 688, 703 n.6 (5th
Cir. 2014) (“A failure-to-accommodate claim provides
a mechanism to combat workplace discrimination

20a
even when the employee in question has not suffered
adverse employment action.”).
More concretely, disparate-treatment claims under
the ADA allege that the employer discriminated
against the employee by acting in a discriminatory
manner. See, e.g., 42 U.S.C. § 12112(b)(1) (labeling as
discrimination “limiting, segregating, or classifying a
job applicant or employee in a way that adversely
affects the opportunities or status of such applicant or
employee because of the disability of such applicant or
employee” (emphasis added)); id. § 12112(b)(6)
(labeling as discrimination “using qualification
standards, employment tests or other selection
criteria that screen out or tend to screen out an
individual with a disability” (emphasis added)). It
thus necessarily follows that a plaintiff must establish
an employment action as part of an ADA disparatetreatment claim. See, e.g., C.R. England, 644 F.3d at
1038 (while describing an ADA disparate-treatment
claim, stating that “a plaintiff generally must show
that he has suffered an ‘adverse employment action
because of the disability’” (emphasis added) (quoting
Mathews, 263 F.3d at 1167)).
On the other hand, failure-to-accommodate claims
do not allege that the employer acted, but rather that
the employer failed to act.
See 42 U.S.C.
§ 12112(b)(5)(A) (listing, as the basis of a failure-toaccommodate claim, “not making reasonable
accommodations to the known physical or mental
limitations of an otherwise qualified individual with a
disability” (emphasis added)). That is, failure-toaccommodate claims concern an omission rather than
an action; such claims allege that the employer
discriminated against the employee by not satisfying

21a
an affirmative, ADA-created duty to provide
reasonable accommodations. See US Airways, Inc. v.
Barnett, 535 U.S. 391, 397, 122 S.Ct. 1516, 152
L.Ed.2d 589 (2002) (“[The ADA] requires preferences
in the form of ‘reasonable accommodations’ that are
needed for those with disabilities to obtain the same
workplace opportunities that those without
disabilities automatically enjoy.” (first emphasis
added)); Peebles v. Potter, 354 F.3d 761, 767 (8th Cir.
2004) (“In a reasonable accommodation case, the
‘discrimination’ is framed in terms of the failure to
fulfill an affirmative duty—the failure to reasonably
accommodate the disabled individual’s limitations.
. . . The concern is compelling behavior, not policing
an employer’s actions that, when accompanied by an
invidious discriminatory intent, are unlawful.”
(emphasis added)); Thomas, 225 F.3d at 1155 n.5
(stating that under the ADA, “the employer has an
affirmative obligation to make a reasonable
accommodation” (emphasis added)); Smith, 180 F.3d
at 1169 (describing the ADA’s requirement for
employers to make reasonable accommodations as an
“unvarnished obligation” (emphasis added)); see also
Timmons v. Gen. Motors Corp., 469 F.3d 1122, 1125
(7th Cir. 2006) (“In addition to prohibiting adverse
employment actions against disabled persons because
of their disabilities, the ADA requires employers to
make reasonable accommodations for the disabilities
of qualified individuals.” (emphases added));
Davidson v. Am. Online, Inc., 337 F.3d 1179, 1188-89
(10th Cir. 2003) (distinguishing between “disparate
treatment,” which “means treating ‘a qualified
individual with a disability’ differently because of the
disability,” and “failing to provide a reasonable
accommodation,” which means “not making

22a
reasonable accommodations to the known physical or
mental limitations of an otherwise qualified
individual” (emphases added) (quoting 42 U.S.C.
§ 12112(b)(5)(A))).
And because the ADA’s reasonable-accommodation
mandate focuses on “compelling behavior” rather than
“policing an employer’s actions,” Peebles, 354 F.3d at
767, it would make little sense to require the showing
of an adverse employment action as part of a failureto-accommodate claim. In other words, it would verge
on the illogical to require failure-to-accommodate
plaintiffs to establish that their employer acted
adversely toward them—when the fundamental
nature of the claim is that the employer failed to act.
This distinction between disparate-treatment
claims and failure-to-accommodate claims under the
ADA also explains in part why the question of intent
is treated quite differently as to each. In particular,
since
disparate-treatment
claims
concern
discrimination in the form of an action, it naturally
follows that a plaintiff alleging such a claim of
discrimination must establish, inter alia, that there
was both an employment action and that the action
was undertaken with an intent that made it
discriminatory, or phrased differently, that the action
was taken “because of the disability.” Davidson, 337
F.3d at 1188. On the other hand, because failure-toaccommodate claims concern discrimination in the
form of a failure to meet an affirmative obligation,
there is no action that must be shown to have been
taken with any particular intent. See, e.g., Kevin W.
Williams, The Reasonable Accommodation Difference:
The Effect of Applying the Burden Shifting
Frameworks Developed Under Title VII in Disparate

23a
Treatment Cases to Claims Brought Under Title I of
the Americans with Disabilities Act, 18 BERKELEY J.
EMP. & LAB. L. 98, 152 (1997) (stating that, in contrast
to
disparate-treatment
claims,
failure-toaccommodate claims require no showing of
discriminatory intent; rather, for failure-toaccommodate claims, “the ‘elusive factual question’ to
be determined is whether the employer complied with
its statutory obligation to provide reasonable
accommodation” (emphasis added)).
That is, in the context of a failure-to-accommodate
claim, once an employee “make[s] an adequate
request [for an accommodation], thereby putting the
employer on notice,” C.R. England, 644 F.3d at 1049,
an employer’s “failure to offer a reasonable
accommodation to an otherwise qualified disabled
employee is unlawful discrimination,” Smith, 180
F.3d at 1178 n.12—irrespective of whether the
employer harbored invidious intent (or discriminatory
animus) toward the employee when the employer
failed to act. See Punt, 862 F.3d at 1048 (“There is at
least one type of ADA claim, however, which does not
require any evidence of discriminatory intent,
whether direct or circumstantial: a failure-toaccommodate claim. . . . [T]he employer’s failure to
provide a reasonable accommodation for the disability
establishes the required nexus between the disability
and the alleged discrimination without the need to
delve into the employer’s subjective motivations.”);
Peebles, 354 F.3d at 767 (stating that for ADA failureto-accommodate claims, unlike disparate-treatment
claims, “[t]he concern is compelling behavior, not
policing an employer’s actions that, when
accompanied by an invidious discriminatory intent,

24a
are unlawful. As such, it is not the employer’s
discriminatory intent in taking adverse employment
action against a disabled individual that matters.
Rather, discrimination occurs when the employer fails
to abide by a legally imposed duty” (emphases added)).
It is likely—we must respectfully submit—that the
district court here was mistaken or “confus[ed],”
Brennan, supra, at 501, regarding the foregoing
matter, that is, concerning the important distinctions
between disparate-treatment claims and failure-toaccommodate claims under the ADA, when it
incorporated an adverse-employment-action element,
suitable for the former (i.e., a disparate-treatment
claim), into the jury instruction for the latter (i.e., a
failure-to-accommodate claim).5
3
Moreover, introducing an adverse-employmentaction requirement into an ADA failure-toaccommodate claim would significantly frustrate the
ADA’s remedial purposes. Cf. Hamer v. City of
Trinidad, 924 F.3d 1093, 1100, 1106 (10th Cir. 2019)
(holding that the repeated-violations doctrine, which
“divides what might otherwise represent a single,
time-barred cause of action into several separate
5

A further clue that the district court was likely mistaken or
confused in this manner is found in the fourth element of the
court’s ADA failure-to-accommodate jury instruction, where the
court appears to have required the jury to determine whether the
County acted with invidious intent. See Aplt.’s App., Vol. II at
440 (requiring Ms. Exby-Stolley to establish that her “disability
was a substantial or motivating factor that prompted Defendant
to take action”). As noted, such invidious intent is irrelevant in
an ADA failure-to-accommodate claim. See, e.g., Punt, 862 F.3d
at 1048; Williams, supra, at 152.

25a
claims,” applies to claims under Title II of the ADA in
part because the ADA’s “goal[ ] of full participation” is
“consistent with and suggestive of the repeated
violations doctrine” (emphasis omitted) (quoting Kyle
Graham, The Continuing Violations Doctrine, 43
GONZ. L. REV. 271, 275 (2008))); Am. Fed’n of Gov’t
Emps., Local 1592 v. Fed. Labor Relations Auth., 836
F.3d 1291, 1295 (10th Cir. 2016) (stating that a
“statute’s . . . purpose” is one of the traditional “tools”
of statutory construction (quoting Harbert v.
Healthcare Servs. Grp., Inc., 391 F.3d 1140, 1147
(10th Cir. 2004))); N.Y. State Dep’t of Soc. Servs. v.
Dublino, 413 U.S. 405, 419-20, 93 S.Ct. 2507, 37
L.Ed.2d 688 (1973) (“We cannot interpret federal
statutes to negate their own stated purposes.”).
The ADA’s purposes include “assuring . . . ‘full
participation’ ” in society for individuals with
disabilities, as well as “equality of opportunity,” C.R.
England, 644 F.3d at 1037 (quoting Chaffin v. Kan.
State Fair Bd., 348 F.3d 850, 858 (10th Cir. 2003),
overruled on other grounds as recognized by Muscogee
(Creek) Nation v. Pruitt, 669 F.3d 1159, 1167 n.4 (10th
Cir. 2012)); see 42 U.S.C. § 12101(a)(7), so that
disabled individuals may “compete on an equal basis
and . . . pursue those opportunities for which our free
society is justifiably famous.” 42 U.S.C. § 12101(a)(8).
See Cleveland v. Policy Mgmt. Sys. Corp., 526 U.S.
795, 801, 119 S.Ct. 1597, 143 L.Ed.2d 966 (1999) (“The
ADA seeks to . . . guarantee [disabled] individuals
equal opportunity and to provide the Nation with the
benefit of their consequently increased productivity.”);
Hamer, 924 F.3d at 1106 (mentioning “Congress’s
goal[ ] of full participation” in enacting the ADA).

26a
And these purposes of promoting full participation
and equal opportunity are effectuated in meaningful
part by the “affirmative obligation” that the ADA
places on covered employers “to make a reasonable
accommodation.” Thomas, 225 F.3d at 1155 n.5; see
US Airways, 535 U.S. at 397, 122 S.Ct. 1516 (“[The
ADA] requires preferences in the form of ‘reasonable
accommodations’ that are needed for those with
disabilities to obtain the same workplace
opportunities that those without disabilities
automatically enjoy.”); Peebles, 354 F.3d at 767 (“The
[ADA] compels employers to modify their work
requirements to enable disabled individuals to have
the same opportunities as their non-disabled
counterparts.”); Smith, 180 F.3d at 1168 (“[B]y
defining discrimination [in the ADA] . . . to include the
failure to offer reasonable accommodations, one of
Congress’ objectives was to facilitate economic
independence for otherwise qualified disabled
individuals.”); EEOC Interpretive Guidance on Title I
of the Americans With Disabilities Act, 29 C.F.R. pt.
1630, app. § 1630.9 (“The reasonable accommodation
requirement is best understood as a means by which
barriers to the equal employment opportunity of an
individual with a disability are removed or alleviated.
. . . The reasonable accommodation that is required
. . . should provide the individual with a disability
with an equal employment opportunity.
Equal
employment opportunity means an opportunity to
attain the same level of performance, or to enjoy the
same level of benefits and privileges of employment as
are available to the average similarly situated
employee without a disability.” (emphasis added)).

27a
Those purposes, and the ability of the ADA’s
reasonable-accommodation mandate to promote
them, would be significantly frustrated by including
an adverse employment action as a necessary element
of a failure-to-accommodate claim. Employers would
not be held accountable for failing to reasonably
accommodate their disabled employees so long as
those employers did not also subject their employees
to an adverse employment action. How could the
ADA’s
reasonable-accommodation
mandate
meaningfully help to ensure that qualified individuals
with disabilities who have been denied a reasonable
accommodation can “obtain the same workplace
opportunities that those without disabilities
automatically enjoy,” US Airways, 535 U.S. at 397,
122 S.Ct. 1516, and “enjoy the same level of benefits
and privileges of employment” as their peers without
disabilities, 29 C.F.R. pt. 1630, app. § 1630.9, if the
statute is construed as providing such disabled
individuals a failure-to-accommodate remedy only
when their employers also have subjected them to an
adverse employment action? To ask the question is to
answer it: the ADA could not meaningfully effectuate
its full-participation and equal-opportunity purposes,
if so interpreted. And we thus decline to construe the
statute in this way.
To make the matter more concrete, consider the
following hypothetical. Imagine that a judge of this
court hires a blind law clerk who can, without
accommodation, write two draft judicial opinions per
month.
Also assume that the widely accepted
standard for a successful law clerk is one who can
write three draft judicial opinions per month, and that
the blind law clerk can reach that level with the help

28a
of a reasonable accommodation. Further assume, for
purposes of this hypothetical only, the following: (1)
that a qualified, low-wage personal reader would
constitute such a reasonable accommodation under
the ADA, see 42 U.S.C. § 12111(9)(B) (defining
“reasonable accommodation” to potentially include
“the provision of qualified readers or interpreters”),
and (2) that such a reader undisputedly would not
impose an undue hardship on the office operations of
the blind law clerk’s employer (i.e., the judge), see id.
§ 12112(b)(5)(A) (allowing an employer to avoid
liability for failing to provide a reasonable
accommodation to “an otherwise qualified individual
with a disability” if the employer “can demonstrate
that the accommodation would impose an undue
hardship” on the operation of the employer’s
business). Now imagine that the judge denies the
blind law clerk’s request for this assumed reasonable
accommodation and refuses to discuss any other
possible reasonable accommodation—simply telling
the law clerk that drafting two opinions per month is
minimally sufficient and actually about what the
judge expected, given the law clerk’s blindness, and
that this level of production will be just fine, even
though the judge’s other law clerks regularly reach
the three-opinion, monthly target.
The law clerk in this hypothetical has suffered no
adverse employment action as defined in our
precedent and in the jury instructions at issue in this
case—that is, the law clerk has not been subjected to
“a significant change in employment status, such a[s]
. . . firing, [or a] fail[ure] to promote.” Aplt.’s App., Vol.
II, at 449 (emphasis added); see Hiatt v. Colo.
Seminary, 858 F.3d 1307, 1316 (10th Cir. 2017) (using

29a
the same definition of “adverse employment action”);
Annett v. Univ. of Kan., 371 F.3d 1233, 1237-38 (10th
Cir. 2004) (same). But, by not being reasonably
accommodated, the blind law clerk surely has been
prevented from fully participating in society and,
more specifically, achieving the law clerk’s full
professional potential in the law clerk’s position. Cf.
Hamer, 924 F.3d at 1106 (noting that “[a] qualified
individual is not a full participant or fully included in
a service, program, or activity if she cannot utilize it
in a similar way as persons without disabilities”).
More specifically, this law clerk has been prevented
from “compet[ing] on an equal basis” with her fellow
law clerks who do not have disabilities, 42 U.S.C.
§ 12101(a)(8), and “enjoy[ing] the same level of . . .
privileges of employment” as those law clerks, 29
C.F.R. pt. 1630, app. § 1630.9.6 We are disinclined to
adopt a reading of the ADA’s failure-to-accommodate
proscription that would yield such an outcome.7

6

During the en banc oral argument, we posed a hypothetical
to the County that resembled this one in all material respects,
and the County affirmatively agreed that the blind law clerk
would have been denied an opportunity to fulfill her potential as
a law clerk and that the ADA protects against exactly that
outcome. See Oral Arg. At 55:01-56:32.
7

Without much difficulty, we could envision a similar privatesector scenario—say, a salesperson who suffers from a hearing
disability who works at a telephone call center selling satellitetelevision services. The employee is meeting the employer’s
required sales targets but aspires to be the top salesperson in the
company—for the prestige that comes with such an achievement
and to enhance her resume for future career opportunities—and
believes that this can be accomplished if she receives a
reasonable accommodation. And assume, for purposes of this
hypothetical only, the following: (1) that certain modifications to

30a
Put otherwise, the ADA’s failure-to-accommodate
proscription would not be operating in a manner
consistent with Congress’s purposes of promoting full
participation and equality of opportunity if employees
such as the blind law clerk in our hypothetical could
not invoke the ADA simply because they have not
been subjected to an adverse employment action; in
those circumstances, such employees would be
effectively impeded from operating at full capacity
her company phone allowing her to more easily hear and
converse with customers would constitute such a reasonable
accommodation under the ADA, see 42 U.S.C. § 12111(9)(B)
(defining “reasonable accommodation” to potentially include
“acquisition or modification of equipment or devices”), and (2)
that such a reasonable accommodation unquestionably would
not impose an undue hardship on the employer’s business
operations. However, the employer denies the employee’s
request for this assumed reasonable accommodation—without
even exploring with her other possible reasonable
accommodations—saying
simply
that
the
employee’s
performance is good enough. Though this employee has not been
fired, demoted, or otherwise suffered “a significant change in
employment status,” Aplt.’s App., Vol. II, at 449 (emphasis
added), it is beyond peradventure that the employee has been
denied an opportunity “to compete on an equal basis” with her
fellow salespersons and the chance “to pursue those
opportunities for which our free society is justifiably famous,” 42
U.S.C. § 12101(a)(8). An interpretation of the ADA’s failure-toaccommodate claim that would permit such a result is one to be
avoided. See Hill v. Assocs. for Renewal in Educ., Inc., 897 F.3d
232, 239 (D.C. Cir. 2018) (holding that a reasonable jury could
find that plaintiff, a disabled amputee, satisfied the
requirements of an ADA failure-to-accommodate claim against
his private nonprofit employer and, more specifically, that “[a]
reasonable jury could conclude that forcing [the plaintiff] to work
with pain when that pain could be alleviated by his requested
accommodation violated the ADA”), cert. denied, — U.S. —, 139
S.Ct. 1201, 203 L.Ed.2d 257 (2019).

31a
and “attain[ing] the same level of performance” as
their peers who are not disabled. 29 C.F.R. pt. 1630,
app. § 1630.9; cf. Nawrot v. CPC Int’l, 259 F. Supp. 2d
716, 723-24 (N.D. Ill. 2003) (invoking “the purposes of
the reasonable accommodation requirement” and
recognizing that an employer “cannot escape liability
under the ADA just because its failure to
accommodate did not result in an adverse
employment action” to the employee).8

8

The foregoing analysis should reveal the inherent weakness
of the critique of the Dissent (McHugh, J.) of the blind-law-clerk
hypothetical.
See Dissent (McHugh, J.) at 12-13, 37-43
[hereinafter the Principal Dissent]. First, it is not enough under
the ADA that the judge did not subject the blind law clerk to an
adverse employment action; instead, the judge had an
“unvarnished” obligation,” Smith, 180 F.3d at 1169, to
reasonably accommodate the clerk’s visual limitation so that the
clerk could “compete on an equal basis and . . . pursue those
opportunities for which our free society is justifiably famous,” 42
U.S.C. § 12101(a)(8). More specifically, the judge could not just
“allocate work in chambers with consideration for the clerk’s
limitations,” Principal Dissent at 828 (emphasis added); the
judge was legally obligated to reasonably accommodate the
clerk’s limitation, see, e.g., Peebles, 354 F.3d at 767; Thomas, 225
F.3d at 1155 n.5. And, contrary to the Principal Dissent’s
suggestion, it is pellucid that Congress—in making concrete in
the ADA’s text its full-participation and equal-opportunity
purposes—did not deem the imposition on employers of such an
affirmative accommodation duty to equate to unwarranted
“micromanag[ing of] employment decisions.” Principal Dissent
at 828.
Furthermore, even where the Principal Dissent later eschews
reliance on a purportedly narrow interpretation of adverse
employment action (akin to the one adopted by the district court
and the Panel Majority) and relies instead on its own conception
of the import of the terms-conditions-and-privileges-ofemployment language, the Principal Dissent’s critique of the

32a
blind-law-clerk hypothetical misapprehends the extent of the
accommodation duty that the ADA imposes on covered
employers. The Principal Dissent proposes that the ADA’s
terms-conditions-and-privileges-of-employment language—or,
as the Principal Dissent would have it, the “in-regard-to
clause”—requires a disabled individual to show (at the very
least) that the employer’s failure to accommodate her disability
constructively altered the terms, conditions, or privileges of her
employment and, in that connection, caused her more than de
minimis harm. See Principal Dissent at 840 (noting that “the
plaintiff can make out an ADA discrimination claim either by
showing an express change or disparity in the terms or
conditions of employment, or by showing a constructive change
or disparity in those terms or conditions based on pervasive
hostility or discomfort (emphasis added)); id. (“[W]here the
failure to accommodate results in a constructive alteration in
those terms or conditions [of employment], the employee can
satisfy § 12112(a)’s in-regard-to clause.”); id. at 841 (“In short,
the discrimination must be in regard to the employment-related
aspects covered by § 12112(a) and it must cause more than de
minimis harm.” (emphasis added)). But requiring disabled
individuals to satisfy this showing—even if it could be “easily”
done, id. at 805 would be improper and, more to the point,
incompatible with the ADA’s central purposes, as embodied in
§ 12112(b)(5)(A). As noted, the ADA is concerned with ensuring
that disabled individuals can fully participate in society and
enjoy equal opportunities in the workplace. And Congress has
made the judgment that these purposes are not fully furthered
by merely ensuring that employers cannot inflict non-de-minimis
workplace injuries on disabled individuals; rather, these
employers must provide such individuals with reasonable
accommodations, so that they may “compete on an equal basis
and . . . pursue those opportunities for which our free society is
justifiably famous.” 42 U.S.C. § 12101(a)(8). Stated otherwise,
the ADA is not simply concerned with shielding disabled
individuals from significant workplace harms but also with
reasonably accommodating the limitations of their disabilities so
that they may “provide the Nation with the benefit of their
consequently increased productivity.” Cleveland, 526 U.S. at
801, 119 S.Ct. 1597. To be sure, in the runup to its renewed
critique of the blind-law-clerk hypothetical, the Principal Dissent

33a
Our reasoning here echoes that in Smith, where our
court, sitting en banc, rejected the contention that the
ADA’s reassignment duty merely creates a right for
employees to be considered for reasonable
reassignments rather than creating a right to actually
receive such reassignments. See 180 F.3d at 1164-70.
In particular, we could not countenance a reading of
the ADA that would make “empty” the “promise
within the ADA” created when the statute listed
reassignment as one of the specific “reasonable
accommodations” in § 12111(9)(B). Id. at 1167. After
all, we remarked, if an employer merely had to
consider applications for reasonable reassignments,
“[t]he employer could merely go through the
meaningless process of consideration” for such
applications and simply “refuse it in every instance.”
Id. And we observed that this “hollow promise” would
offer “cold comfort for a disabled employee to know
that his or her application was ‘considered’ but that
he or she was nevertheless still out of a job.” Id.
We likewise cannot accept the proposition that the
ADA—which by its plain terms affirmatively imposes
at 842 (emphasis added). Yet, ultimately, the Principal Dissent
loses its way when it concludes that the blind law clerk cannot
make out a failure-to-accommodate claim under the ADA,
unless—in addition to demonstrating that the judge failed to
provide a reasonable accommodation—she also shows that the
judge “constructively impacted [the] conditions of [her]
employment.” Id. at 804. By requiring the blind law clerk to
make such a showing, the Principal Dissent diminishes the
accommodation duty that the ADA imposes on the employer,
while hindering the blind law clerk from competing on an equal
basis with her fellow, non-visually-impaired clerks—thereby
denying her the full enjoyment of the terms, conditions, and
privileges of her employment.

34a
on employers a reasonable-accommodation obligation,
see 42 U.S.C. § 12112(a), (b)(5)(A)—should be
construed in a manner that does not permit the
statute to effectively ensure that all qualified disabled
employees actually receive such an accommodation,
but instead only such disabled employees that have
also suffered an adverse employment action.
Adopting such a construction of the statute would
have the effect of significantly restricting the scope of
the ADA’s reasonable-accommodation obligation
through the use of language (i.e., “adverse
employment action”) that does not even appear in the
statute’s text. The “promise” of equal opportunity and
full participation that this reasonable-accommodation
obligation provides qualified disabled individuals
would be rendered substantially “hollow.” Smith, 180
F.3d at 1167. We decline to construe the statute in a
manner that would lead to this result.
4
Significantly, the understanding of the requisite
elements of an ADA failure-to-accommodate claim
found in our controlling precedents is consistent with
the pronouncements of the EEOC, the federal agency
charged with administering the statute. See 42 U.S.C.
§ 12116; 29 C.F.R. §§ 1630.1-.16; see also Brennan,
supra, at 505 (“The EEOC’s regulations and
Interpretive Guidance on the ADA also suggest an
adverse employment action is not an element of a
failure to accommodate claim.”).
More
specifically,
the
EEOC
regulations
implementing the ADA’s protections state that “[i]t is
unlawful for a covered entity not to make reasonable
accommodation to the known physical or mental

35a
limitations of an otherwise qualified applicant or
employee with a disability, unless such covered entity
can demonstrate that the accommodation would
impose an undue hardship on the operation of its
business.” 29 C.F.R. § 1630.9(a). This formulation of
the statute’s reasonable-accommodation requirement
not only omits any mention of an adverseemployment-action component, but also implicitly
rejects by this omission the notion that there is such
a component in a failure-to-accommodate claim. See,
e.g., ANTONIN SCALIA & BRYAN A. GARNER, READING
LAW: THE INTERPRETATION OF LEGAL TEXTS § 10, at
107 (2012) (discussing the operation of the “negativeimplication canon”). Indeed, absent undue hardship,
the
regulation explains,
a covered
entity
“unlawful[ly]” violates the ADA by not reasonably
accommodating a disabled employee. 29 C.F.R.
§ 1630.9(a). Full stop. And, as this court has noted,
the EEOC’s “regulations to implement title I of the
ADA . . . . are entitled to a great deal of deference.”
Smith, 180 F.3d at 1165 n.5 (citations omitted); see
also US Airways, 535 U.S. at 401, 403-04, 122 S.Ct.
1516 (relying on EEOC regulations in applying Title
I’s provisions).
Similarly, the EEOC’s interpretive guidance on the
ADA and its enforcement guidance for ADA failure-toaccommodate claims—each of which we have referred
to as “constitut[ing] a body of experience and informed
judgment to which courts and litigants may properly
resort for guidance,” Smith, 180 F.3d at 1165 n.5
(quoting Meritor Sav. Bank, FSB v. Vinson, 477 U.S.
57, 65, 106 S.Ct. 2399, 91 L.Ed.2d 49 (1986))—omit
any mention of an adverse-employment-action
requirement for an ADA failure-to-accommodate

36a
claim.
In particular, the EEOC’s interpretive
guidance on the ADA discusses at length “[t]he
obligation to make reasonable accommodation” and
how that obligation “applies to all services and
programs provided in connection with employment.”
29 C.F.R. pt. 1630, app. § 1630.9 (emphasis added).
Nowhere, however, is there any suggestion in this
interpretive guidance that this obligation is violated—
thus creating liability under the ADA—only if the
denial of a reasonable accommodation is in regard to
some kind of adverse employment action constituting
“a significant change in employment status,” Aplt.’s
App., Vol. II, at 449 (emphasis added), as the district
court ruled, with the blessing of the Panel Majority.
As for the EEOC’s enforcement guidance for failureto-accommodate claims, it similarly notes that “[t]he
duty to provide reasonable accommodation is a
fundamental statutory requirement.” U.S. EQUAL
EMP’T OPPORTUNITY COMM’N, EEOC-CVG-2003-1,
ENFORCEMENT
GUIDANCE
ON
REASONABLE
ACCOMMODATION AND UNDUE HARDSHIP UNDER THE
ADA(2002),
https://www.eeoc.gov/policy/docs/accommodation.htm
l (emphasis added). That document also states, under
the heading of “Burdens of Proof,” that “[o]nce the
plaintiff has shown that the accommodation s/he
needs is ‘reasonable,’ the burden shifts to the
defendant/employer to provide case-specific evidence
proving that reasonable accommodation would cause
an undue hardship in the particular circumstances”;
notably, it makes absolutely no mention of a need for
the affected employee to show an adverse employment
action before the proof burden shifts to the employer.
Id. (citing US Airways, 535 U.S. at 401-02, 122 S.Ct.

37a
1516). Moreover, under the heading of “Instructions
for Investigators,” the enforcement guidance presents
an extensive set of questions that investigators should
inquire into while “assessing whether [an employer]
has violated the ADA by denying a reasonable
accommodation,” id.; see id. (listing eleven primary
bullet points and nineteen subsidiary bullet points
with detailed questions “investigators should
consider,” including questions relating to whether the
employee requested a reasonable accommodation, the
purpose of the requested accommodation, and
whether the employer is claiming undue hardship);
yet, there is a glaring absence of any questions
relating to an adverse employment action.
In sum, though not determinative, it is significant
that the views of the EEOC—that is, the federal
agency charged with administering the ADA—
concerning the requisite elements of an ADA failureto-accommodate claim, are in sync with our own, as
found in our controlling case law. That is to say, the
EEOC agrees with our precedential view that an
adverse employment action is not a requisite element
of a failure-to-accommodate claim.
5
If all of the foregoing were not enough, none of our
sister circuits has regularly incorporated an adverseemployment-action requirement into an ADA failureto-accommodate claim. Cf. 3C KEVIN D. O’MALLEY ET
AL., FEDERAL JURY PRACTICE & INSTRUCTIONS
§ 172:21, Westlaw (database updated Aug. 2020)
(leading source of pattern jury instructions used by
federal courts nationwide omitting an adverse
employment action from the elements of an ADA

38a
failure-to-accommodate claim and providing that a
plaintiff must establish that “Defendant failed to
provide [specify accommodations in dispute] or any
other reasonable accommodation” (brackets and
italics in original)).
More specifically, the
overwhelming majority of the other circuits either
have consistently declined to incorporate an adverseemployment-action requirement into an ADA failureto-accommodate claim or have only incorporated such
a requirement in name only because they have
considered an employer’s failure to accommodate to be
a form of adverse employment action. Cf. Brennan,
supra, at 507 (stating, while discussing the relevant
approaches of both federal district and circuit courts,
that “[w]hen courts have been faced with the issue of
whether an adverse employment action is needed to
establish a prima facie failure to accommodate claim,”
“the majority” has concluded that it is “not” needed).
Though the decisions in the remaining circuits are not
entirely uniform—that is, the decisions within these
circuits (i.e., intra-circuit) do not all point in the same
direction—the predominant view of these decisions
does not support the incorporation of an adverseemployment-action requirement into an ADA failureto-accommodate claim. The critical point, however,
bears restating: our research has not revealed even
one circuit that has regularly incorporated an
adverse-employment-action requirement into an ADA
failure-to-accommodate claim. Thus, if we were to do
so, we would be standing alone.
To be more concrete, no less than six circuits—the
First, Fourth, Fifth, Sixth, Eleventh, and the D.C.
Circuit—either state, or strongly suggest, that there
is no adverse-employment-action requirement in ADA

39a
failure-to-accommodate claims. See Carroll v. Xerox
Corp., 294 F.3d 231, 237 (1st Cir. 2002) (“With respect
to his disparate treatment claim, . . . . [the plaintiff]
must show (1) that he suffers from a disability or
handicap, as defined by the ADA . . ., that (2) he was
nevertheless able to perform the essential functions of
his job, either with or without reasonable
accommodation, and finally that (3) [the employer]
took an adverse employment action against him
because of, in whole or in part, his protected disability.
As to his reasonable accommodation claim, [the
plaintiff] needs to show, in addition to the first two
prongs set forth above, that [the employer], despite
knowing of his alleged disability, did not reasonably
accommodate it.” (citation and footnote omitted)
(emphases added))9; Rhoads v. FDIC, 257 F.3d 373,
9

In Colón-Fontánez v. Municipality of San Juan, 660 F.3d 17
(1st Cir. 2011), the First Circuit concluded that the plaintiff’s
ADA failure-to-accommodate claim could not succeed because
she had not established that she was a “qualified individual”
under the ADA. Id. at 32. Immediately prior to announcing this
conclusion, the Colón-Fontánez court stated that
[t]o establish a claim under the ADA, a plaintiff must
prove three factors by a preponderance of the evidence:
(1) she was disabled within the meaning of the ADA; (2)
she was qualified to perform the essential functions of
the job, either with or without reasonable
accommodation; and (3) the employer took an adverse
employment action against her because of the alleged
disability.
Id. (emphasis added). As to whether an ADA failure-toaccommodate claim has an adverse-employment-action
requirement, we read Colón-Fontánez’s articulation of the prima
facie case for an ADA discrimination claim to be dictum and not
in meaningful conflict with the First Circuit’s decision in Carroll.
Cf. BRYAN A. GARNER ET AL., THE LAW OF JUDICIAL PRECEDENT

40a
387 n.11 (4th Cir. 2001) (juxtaposing a wrongfuldischarge claim with a failure-to-accommodate claim,
which contains no adverse-employment-action
element, but instead requires a plaintiff to
demonstrate “that the [employer] refused to make
such [reasonable] accommodations” (first alteration in
original) (quoting Mitchell v. Washingtonville Cent.
Sch. Dist., 190 F.3d 1, 6 (2d Cir. 1999))); Dillard v.
City of Austin, 837 F.3d 557, 562 (5th Cir. 2016)
(“Apart from any claim that an adverse employment
action was motivated by the employee’s disability, an
employer’s failure to reasonably accommodate a
§ 36, at 300 (2016) (noting that “[a] court considering [ostensibly]
discordant decisions must first determine whether the perceived
conflict between them is real” (emphasis added)).
Nothing in Colón-Fontánez turned on the contents of the third
element of its articulated prima facie case; the court simply
concluded that the plaintiff did not satisfy the second element
because she was not a qualified individual with a disability. See
id. at 32 (stating, immediately following its general articulation
of the prima facie case for an ADA discrimination claim, that the
plaintiff “failed to establish the second element of an ADA claim,
i.e., show that she was a qualified individual under the ADA” and
adding that the court “limit[ed] [its] analysis to this factor”).
When the First Circuit was called upon to focus on the elements
of an ADA failure-to-accommodate claim in Carroll, it offered in
express and no uncertain terms its view that, for failure-toaccommodate
claims,
the
adverse-employment-action
requirement that is applicable in disparate-treatment cases is
swapped out for the requirement that the employer “despite
knowing of [the plaintiff’s] alleged disability, did not reasonably
accommodate it.” 294 F.3d at 237. Moreover, Colón-Fontánez’s
sole direct citation for the general prima facie case it articulates
is Carroll, which strongly suggests that Colón-Fontánez had no
intention of staking out a position concerning the elements of an
ADA failure-to-accommodate claim that was at odds with
Carroll.

41a
disabled employee may constitute a distinct violation
of the [ADA].” (emphasis added)) 10 ; LHC Grp., 773
F.3d at 703 n.6 (Fifth Circuit stating that “[a] failureto-accommodate claim provides a mechanism to
combat workplace discrimination even when the
employee in question has not suffered adverse
employment action”); Kleiber v. Honda of Am. Mfg.,
Inc., 485 F.3d 862, 868 & n.2 (6th Cir. 2007)
(distinguishing between “claims premised upon an
employer’s
failure
to
offer
a
reasonable
accommodation” and “claims premised upon an
adverse employment decision”); Smith v. Ameritech,
129 F.3d 857, 866 (6th Cir. 1997) (stating that, in
order for an ADA discrimination claim “to succeed,
plaintiff must prove . . . that defendants either refused
to make a reasonable accommodation for his disability
or made an adverse employment decision regarding
him solely because of his disability” (emphases
added)); Lucas v. W.W. Grainger, Inc., 257 F.3d 1249,
1255 (11th Cir. 2001) (“An employer unlawfully
discriminates against a qualified individual with a
disability when the employer fails to provide
‘reasonable accommodations’ for the disability—
unless doing so would impose undue hardship on the
employer.” (emphases added) (quoting 42 U.S.C.
§ 12112(b)(5)(A))) 11 ; Hill v. Assocs. for Renewal in
10

See PATTERN JURY INSTRUCTIONS (CIVIL CASES) FOR THE
FIFTH CIRCUIT § 11.10, at 200-01, 207 (PATTERN JURY
INSTRUCTION COMM. (CIVIL) OF THE FIFTH CIRCUIT DIST. JUDGES
ASS’N, 2020) (lacking, as an element in the pattern jury
instructions for an ADA failure-to-accommodate claim, an
adverse employment action.)
11

Accord ELEVENTH CIRCUIT PATTERN JURY INSTRUCTIONS
(CIVIL CASES) § 4.12, at 1 (COMM. ON PATTERN JURY

42a
Educ., Inc., 897 F.3d 232, 237 (D.C. Cir. 2018)
(omitting an adverse-employment-action requirement
from the prima facie case for a failure-toaccommodate claim under the ADA).12

INSTRUCTIONS OF THE ELEVENTH CIRCUIT JUDICIAL COUNCIL,
revised 2020) (omitting an adverse-employment-action element
from the pattern jury instruction for a failure-to-accommodate
claim under the ADA).
12
A prior case from the D.C. Circuit, Marshall v. Federal
Express Corp., 130 F.3d 1095 (D.C. Cir. 1997), stated that “[a]s
the language of § 12112(a) makes clear, for discrimination
(including denial of reasonable accommodation) to be actionable,
it must occur in regard to some adverse personnel decision or
other term or condition of employment.” Id. at 1099. We do not
read this language as suggesting, however, that an adverse
employment action—as the district court here understood it, that
is, one involving “a significant change in employment status,”
Aplt.’s App., Vol. II, at 449 (emphasis added)—is a requisite
element of a failure-to-accommodate claim. Indeed, Marshall
itself left little room for doubt on the matter: the panel there

assume[d] without deciding that if working conditions
inflict pain or hardship on a disabled employee, the
employer fails to modify the condition upon the
employee’s demand, and the employee simply bears the
conditions, this could amount to a denial of a reasonable
accommodation, despite there being no job loss, pay loss,
transfer, demotion, denial of advancement, or other
adverse personnel action.
130 F.3d at 1099 (emphasis added). The Marshall panel would
not have been able to make this assumption if—in stating that
an ADA failure-to-accommodate claim must be “in regard to come
adverse personnel decision or other term or condition of
employment,” id.—it was in fact expressing the view that the
viability of such claims is conditioned on the presence of an
adverse employment action, as the district court here understood
it (i.e., a significant change in employment status.)

43a
Two other circuits—the Third and the Eighth—
typically have purported to incorporate an adverseemployment-action requirement into their ADA
failure-to-accommodate claims. See, e.g., Dick v.
Dickinson State Univ., 826 F.3d 1054, 1060 (8th Cir.
2016); Colwell v. Rite Aid Corp., 602 F.3d 495, 504 (3d
Cir. 2010). But they do so in name only—that is, in a
manner that is essentially form, rather than
substance. That is so because these circuits classify a
failure to accommodate as an adverse “action.”
Colwell, 602 F.3d at 504 (“Adverse employment
decisions in [the ADA discrimination] context include
refusing to make reasonable accommodations for a
plaintiff’s disabilities.” (emphasis added) (quoting
Williams v. Phila. Hous. Auth. Police Dep’t, 380 F.3d
751, 761 (3d Cir. 2004), abrogated in part by statute as
recognized in Robinson v. First State Cmty. Action
Agency, 920 F.3d 182, 188 n.30 (3d Cir. 2019))); see
Dick, 826 F.3d at 1060 (“An employer is . . . liable for
committing an adverse employment action if the
employee in need of assistance actually requested but
was denied a reasonable accommodation.”); see also
MODEL CIVIL JURY INSTRUCTIONS FOR THE DIST.
COURTS OF THE THIRD CIRCUIT § 9.1.3, at 18 (COMM. ON
MODEL CIVIL JURY INSTRUCTIONS WITHIN THE THIRD
CIRCUIT, revised 2019) (omitting from the list of
elements for an ADA failure-to-accommodate claim an
“adverse employment action” or language of a similar
sort and describing the employer’s conduct triggering
liability as a failure “to provide [specify the
accommodation(s) in dispute in the case] or any other
reasonable accommodation”); MANUAL OF MODEL
CIVIL JURY INSTRUCTIONS FOR THE DIST. COURTS OF
THE EIGHTH CIRCUIT § 9.42, at 9-28 (COMM. ON MODEL
JURY INSTRUCTIONS FOR THE DIST. COURTS OF THE

44a
EIGHTH CIRCUIT 2020) (omitting express language
referring to an adverse employment action and
describing the event triggering liability for a failureto-accommodate claim as “the defendant failed to
provide (specify accommodation(s) identified by the
plaintiff) and failed to provide any other reasonable
accommodation”); cf. Brennan, supra, at 511 (though
recognizing that courts like the Third Circuit do not
require plaintiffs to establish an adverse employment
action apart from an employer’s failure to provide a
reasonable accommodation, expressing disapproval of
this approach because it imports the disparatetreatment concept of an adverse employment action
into the realm of a failure-to-accommodate claim,
which “is like trying to fit a square peg into a round
hole”). 13

13

A panel of the Eighth Circuit has strayed from the path
marked by other Eighth Circuit panels addressing ADA failureto-accommodate claims. See Fenney v. Dakota, Minn. & E. R.R.
Co., 327 F.3d 707 (8th Cir. 2003). There, the panel stated that,
in pursuing a failure-to-accommodate claim, a plaintiff must
demonstrate, inter alia, that she ‘‘suffered an adverse
employment action as a result of the disability.” Id. at 711
(quoting Duty v. Norton-Alcoa Proppants, 293 F.3d 481, 490 (8th
Cir. 2002)). And it relied on the Seventh Circuit’s decision in
Foster v. Arthur Andersen, LLP, 168 F.3d 1029 (7th Cir. 1999),
in support of this proposition. See Fenney, 327 F.3d at 716 &
n.18. Fenney is unrepresentative of Eighth Circuit failure-toaccommodate cases, and it would be a problematic guide for us
for at least two reasons. First, the Duty case from which Fenney
quoted the elements of a prima facie case is not even a failure-toaccommodate case; instead, as classically befits a disparatetreatment claim, the plaintiff there alleged that his employer
“terminated his employment, based on disability.” Duty, 293
F.3d at 488. Further, as we explicate in this same subpart infra,

45a
Thus, though the Third Circuit and the Eighth
Circuit typically have purported to include an
adverse-employment-action requirement in their
failure-to-accommodate claims, an employer’s liability
actually stems from no more than the employer’s
failure to make a reasonable accommodation, which is
deemed an adverse employment action. In sum, in
these two circuits, there is no need for plaintiffs to
demonstrate, in addition to the employer’s failure to
provide a reasonable accommodation, that they also
suffered “a significant change in employment status.”
Aplt.’s App., Vol. II, at 449 (emphasis added).
Accordingly, focusing on the substance and not the
form, we find that these two circuits are virtually
indistinguishable from those that do not have an
adverse-employment-action requirement at all in
their failure-to-accommodate claims. 14
Foster is at best dubious authority and seems to be an outlier in
the Seventh Circuit.
14

In fact, a recent decision may suggest that the Eighth Circuit
is effacing completely whatever nominal, thin line has typically
separated its precedent from those circuits that have
straightforwardly declined to incorporate an adverseemployment-action requirement into an ADA failure-toaccommodate claim. See Garrison v. Dolgencorp, LLC, 939 F.3d
937 (8th Cir. 2019). In Garrison, the Eighth Circuit panel elided
any mention of an adverse-employment-action element in expressly setting forth the plaintiff’s prima face case in a failureto-accommodate claim; it required the plaintiff to show, as most
relevant here, only that the employer “failed to engage in a
‘flexible’ and ‘informal[ ] interactive process’ with her about
possible accommodations” and that “her disability could have
been reasonably accommodated had the interactive process
taken place.” Id. at 941 (alteration in original) (quoting
Fjellestad v. Pizza Hut of Am., Inc., 188 F.3d 944, 951–52 (8th
Cir. 1999)). That, moreover, was not the end of the story.

46a
And while the decisions in the Seventh, Second, and
Ninth Circuits are not entirely uniform, the
predominant view of the decisions in these circuits
does not support the incorporation of an adverseemployment-action requirement into an ADA failureto-accommodate claim. More specifically, the Seventh
Circuit has explicitly stated that “[n]o adverse
employment action is required to prove a failure to
accommodate.” EEOC v. AutoZone, Inc., 630 F.3d 635,
638 n.1 (7th Cir. 2010); see Timmons, 469 F.3d at 1125
(“In addition to prohibiting adverse employment
actions against disabled persons because of their
disabilities, the ADA requires employers to make
reasonable accommodations for the disabilities of
qualified individuals.” (emphasis added)); see also
Curtis v. Costco Wholesale Corp., 807 F.3d 215, 224
(7th Cir. 2015) (presenting the prima facie case for an
ADA failure-to-accommodate claim without mention
of an adverse-employment-action requirement);
accord FED. CIVIL JURY INSTRUCTIONS OF THE SEVENTH
CIRCUIT § 4.03, at 89 (COMM. ON PATTERN CIVIL JURY
Garrison also expressly distinguished the plaintiff’s ADA failureto-accommodate claim from her other claims, including a statelaw failure-to-accommodate claim, that required her to show that
“she suffered an ‘adverse employment action.’” Id. at 942 n.1
(quoting Markham v. Wertin, 861 F.3d 748, 756 (8th Cir. 2017));
see id. at 942 (distinguishing plaintiff’s failure-to-accommodate
claim from her others where a plaintiff “would need to prove that
[the employer] took an adverse employment action against her”).
Therefore, if Garrison is a bellwether of the Eighth Circuit’s
developing jurisprudence in the ADA failure-to-accommodate
context, that circuit may be erasing the thin line that typically
has separated its precedent—albeit only nominally—from those
circuits that have straightforwardly declined to incorporate an
adverse-employment-action requirement into an ADA failure-toaccommodate claim.

47a
INSTRUCTIONS OF THE SEVENTH CIRCUIT, revised 2017)
(omitting an adverse-employment-action element
from pattern jury instructions for a failure-toaccommodate claim under the ADA).
To be sure, in one decision from the late 1990s, the
Seventh Circuit remarked that “to state a prima facie
case of disability discrimination for failure to
accommodate the disability, a plaintiff must
demonstrate . . . that she was discharged because of
her disability.” Foster v. Arthur Andersen, LLP, 168
F.3d 1029, 1033 (7th Cir. 1999), abrogation on other
grounds recognized by Serwatka v. Rockwell
Automation, Inc., 591 F.3d 957, 962–63 (7th Cir.
2010). However, there is some reason to doubt
whether Foster was actually articulating a prima facie
case that is generally applicable in all ADA failure-toaccommodate cases, as opposed to just ones like Foster
where the employee did suffer an adverse
employment action. See id. at 1032 (noting that Ms.
Foster “filed a charge of discrimination with the
Illinois Department of Human Rights and the EEOC,
alleging that she was suspended and discharged
because of her disability”). In that regard, when
initially describing the ADA failure-to-accommodate
prima face case, Foster noted that the “prima facie
case mirrors the statutory elements,” quoting for
support only the language of § 12112(b)(5)(A), id.,
which does not include the term “adverse employment
action.” And, when Foster first stated the failure-toaccommodate prima face case, it tellingly described
the showing that must be made by “a plaintiff who has
suffered an adverse employment action.” Id. In any
event, even if we were willing to put these serious
questions aside, and view Foster as supporting the

48a
general incorporation of an adverse-employmentaction requirement into an ADA failure-toaccommodate claim, it would be a thin reed indeed
upon which to rest an argument for such a
requirement: Foster cites no authority to support the
purported incorporation of this element and, given the
substantial body of Seventh Circuit authority to the
contrary, Foster is seemingly an outlier.15
In a similar vein, what appears to be the
predominant view of the Second Circuit is expressed
in cases like McMillan v. City of New York, 711 F.3d
120 (2d Cir. 2013), where the court stated that, in
addition to those ADA discrimination claims alleging
that the employee “suffered adverse employment
action because of his disability,” id. at 125 (quoting
Sista v. CDC Ixis N. Am., Inc., 445 F.3d 161, 169 (2d
Cir. 2006)), “[a]n employer may also violate the ADA
by failing to provide a reasonable accommodation,” id.
(emphasis added); see id. at 126 (repeating the
distinction between “discrimination claims based . . .
on adverse employment actions” and those based “on
failures to accommodate”); see also Graves v. Finch
Pruyn & Co., 457 F.3d 181, 184 (2d Cir. 2006) (“In socalled reasonable-accommodation cases, such as this
one, the plaintiff’s burden ‘requires a showing that (1)
plaintiff is a person with a disability under the
meaning of the ADA; (2) an employer covered by the
statute had notice of his disability; (3) with reasonable
15

Indeed, as Ms. Exby-Stolley pointed out in oral argument,
see Oral Arg. at 19:16–19:51, the author of Foster joined—as a
panel member—over ten years later, the AutoZone decision,
which expressly and clearly held that “[n]o adverse employment
action is required to prove a failure to accommodate,” Auto-Zone,
630 F.3d at 638 n.1.

49a
accommodation, plaintiff could perform the essential
functions of the job at issue; and (4) the employer has
refused to make such accommodations.’” (quoting
Rodal v. Anesthesia Grp. of Onondaga, P.C., 369 F.3d
113, 118 (2d Cir. 2004))). But the Second Circuit’s
decisions admittedly are not entirely uniform.
Notably, in Parker v. Sony Pictures Entertainment,
Inc., 260 F.3d 100 (2d Cir. 2001), the court suggested
that ADA failure-to-accommodate claims require an
adverse employment action. See id. at 107–08. Yet,
the Parker panel cited solely the Seventh Circuit’s
Foster decision for this proposition, see id. at 108, and
we have shown that Foster provides a questionable
and weak foundation for it.
And, lastly, the story in the Ninth Circuit is similar.
The predominant view gleaned from the cases there
may be stated succinctly: an adverse employment
action is not a requisite element of an ADA failure-toaccommodate claim. See, e.g., Snapp v. United
Transp. Union, 889 F.3d 1088, 1095 (9th Cir. 2018)
(“The ADA treats the failure to provide a reasonable
accommodation as an act of discrimination if the
employee is a ‘qualified individual,’ the employer
receives adequate notice, and a reasonable
accommodation is available that would not place an
undue hardship on the operation of the employer’s
business.” (quoting 42 U.S.C. § 12112(b)(5)(A)));
Dunlap v. Liberty Nat. Prods., Inc., 878 F.3d 794, 798
(9th Cir. 2017) (“recogniz[ing] that a failure-toaccommodate claim ‘is analytically distinct from a
claim of disparate treatment or impact under the
ADA,’” and noting that where “[the employer] was
aware of or had reason to be aware of [the employee’s]
desire for a reasonable accommodation,” “[s]uch

50a
awareness triggered [the employer’s] duty to engage
in the interactive process” with the aim of reaching a
reasonable accommodation (citation omitted) (quoting
Johnson v. Bd. of Trs. of Boundary Cty. Sch. Dist., 666
F.3d 561, 567 (9th Cir. 2011))); see also MANUAL OF
MODEL CIVIL JURY INSTRUCTIONS FOR THE DIST.
COURTS OF THE NINTH CIRCUIT § 12.7, at 293 (NINTH
CIRCUIT JURY INSTRUCTIONS COMM., revised 2020)
(omitting an adverse employment action from the
enumerated elements of an ADA failure-toaccommodate claim).
To be sure, the County relies on one Ninth Circuit
decision that stands against this significant weight of
intra-circuit authority. See Samper v. Providence St.
Vincent Med. Ctr., 675 F.3d 1233, 1237 (9th Cir. 2012)
(“To establish a prima facie case for failure to
accommodate under the ADA, Samper must show that
‘(1) [s]he is disabled within the meaning of the ADA;
(2) [s]he is a qualified individual able to perform the
essential functions of the job with reasonable
accommodation; and (3) [s]he suffered an adverse
employment action because of [her] disability.’”
(alterations in original) (quoting Allen v. Pac. Bell, 348
F.3d 1113, 1114 (9th Cir. 2003) (per curiam))). But,
as with the Seventh Circuit’s Foster decision, Samper
appears to be an outlier and certainly is not
representative of the Ninth Circuit’s predominant
view on the incorporation vel non of an adverseemployment-action element into a failure-toaccommodate claim. Under that predominant view,
this element is not incorporated.
In sum, from this survey of the decisions of our sister
circuits, the critical takeaway is this: none of our
sister circuits has regularly incorporated an adverse-

51a
employment-action requirement into an ADA failureto-accommodate claim. And, consequently, if we were
to do so, we would be standing alone. Of course, we
are free to do so, but we are reluctant to effectively
create a circuit split (or at the very least something
very closely akin to it), especially where so many
circuits would be lined up against us. See United
States v. Thomas, 939 F.3d 1121, 1130–31 (10th Cir.
2019) (noting that “[w]e should not create a circuit
split merely because we think the contrary arguments
are marginally better,” and that “the greater the
number of circuits that are aligned together, the more
an appropriate judicial modesty should make us
reluctant to reject that uniform judgment. Although
Defendant’s argument is hardly frivolous, we do not
think it sufficiently persuasive to overcome that
reluctance”).
C
Despite this virtual mountain of contrary legal
authority and practice—in this and other circuits—
the district court nevertheless instructed the jury here
that an adverse employment action was a requisite
element of an ADA failure-to-accommodate claim. In
so doing, the court effectively read the relevant
statutory text as including language that it
undisputedly does not—that is, the term “adverse
employment action.” As we noted early on, see Part
II.A supra, this mode of statutory interpretation—
which effectively adds words to the statute—is
generally impermissible, and it is so here, see, e.g.,
Dean, 556 U.S. at 572, 129 S.Ct. 1849; Pueblo of San
Ildefonso, 103 F.3d at 939. What we explain now is
that, insofar as the district court, like the Panel
Majority, believed that it was obligated to adopt such

52a
a reading of the statute in order to take into account
the portion of the statute that provides that prohibited
disability discrimination must be “in regard to job
application procedures, the hiring, advancement, or
discharge of employees, employee compensation, job
training, and other terms, conditions, and privileges
of employment,” 42 U.S.C. § 12112(a),16 the court was
mistaken for at least two reasons.
First, the express incorporation of § 12112(a)’s
terms-conditions-and-privileges-of-employment
language into an ADA failure-to-accommodate claim
is unnecessary because that claim necessarily
implicates and provides particularized, concrete
expression to that terms-conditions-and-privileges-ofemployment language.
In other words, to be
actionable under Title I of the ADA, an employer’s
failure to “mak[e] reasonable accommodations to the
known physical or mental limitations of an otherwise
qualified individual with a disability,” id.
§ 12112(b)(5)(A), necessarily—indeed, as a matter of
logic and common sense—must involve (i.e., be “in
regard to”) that qualified person’s “terms, conditions,
and privileges of employment,” as specified in
§ 12112(a). Therefore, it is unnecessary for a court to
expressly incorporate § 12112(a)’s terms-conditionsand-privileges-of-employment language into an ADA
failure-to-accommodate claim to ensure that this
language, in substance, is taken into account. And,
second, the term “adverse employment action”—as
used by the district court in its instructions and as
16

As we noted supra, see Part II.A, we frequently refer to the
latter-quoted language, in short, as “the terms-conditions-andprivileges-of-employment language.”

53a
understood in our precedent—is not synonymous with
the statutory language “terms, conditions, and
privileges of employment.” Therefore, even if a court
desired (without any obligation to do so) to expressly
take into account the terms-conditions-andprivileges-of-employment language of § 12112(a) in an
ADA failure-to-accommodate claim, it would be
misguided and legally improper for it to use—in lieu
of this language—the term “adverse employment
action.”
1
To explain why the express incorporation of
§
12112(a)’s
terms-conditions-and-privileges-ofemployment language into an ADA failure-toaccommodate claim based on § 12112(b)(5)(A) is
unnecessary, we must spend a few moments shedding
light on the structure and operation of the relevant
statutory provisions. Cf. Hamer, 924 F.3d at 1103–04
(noting, while interpreting portions of Title II of the
ADA, that “the text and structure . . . guide our
decision”: “[o]ur starting point is the plain language of
Title II,” and, because “the meaning of statutory
language, plain or not, depends on context,” “we may
also look to the ‘specific context in which that
language is used’ and ‘the broader context of the
statute as a whole’” (first quoting First Nat’l Bank of
Durango v. Woods (In re Woods), 743 F.3d 689, 694
(10th Cir. 2014), and then quoting Salazar v.
Butterball, LLC, 644 F.3d 1130, 1137 (10th Cir.
2011))).
Recall that § 12112(a), entitled “General rule,”
provides the general, employment discrimination

54a
proscription of Title I of the ADA, stating the
following:
No covered entity shall [1] discriminate against
a qualified individual on the basis of disability
[2] in regard to job application procedures, the
hiring, advancement, or discharge of
employees, employee compensation, job
training, and other terms, conditions, and
privileges of employment.
42 U.S.C. § 12112(a). As the inserted brackets evince,
there are two salient components to § 12112(a). 17
First, the statute defines in general terms the nature
of its protection: that is, the statute protects “a
qualified individual” from being “discriminate[d]
against . . . on the basis of a disability.” Id. Second,
the statute specifies what this protection is “in regard
to”: it protects “qualified” persons from disability
discrimination “in regard to” employment-related
matters, particularly all matters relating to “terms,
conditions, and privileges of employment.” Id. Stated
otherwise, boiled down to its essence, § 12112(a)’s
language defines, first, who is being protected from
disability discrimination (i.e., “a qualified individual”)
and, second, what kind of disability discrimination the
protected individual is being protected from (i.e.,
disability discrimination “in regard to . . . terms,
conditions, and privileges of employment”). The

17

Though drawing the wrong conclusion from this point, the
Panel Majority seemed to recognize as much, too, because it
reproduced the statutory text with the two brackets inserted in
the same places. See 906 F.3d at 907.

55a
“General rule” of § 12112(a) thus evinces these two
salient components.
Subsection 12112(b), entitled “Construction,” is
inextricably intertwined with § 12112(a)’s “General
rule.” Critically, it particularizes and makes concrete
the second component of this rule by offering in noncomprehensive fashion examples of the kinds of
disability discrimination that are “in regard to . . .
terms, conditions, and privileges of employment.” Id.
§ 12112(a). Specifically, subsection (b) provides in
pertinent part, the following:
As used in subsection (a), the term
“discriminate against a qualified individual on
the basis of disability” includes-(1) limiting, segregating, or classifying a job
applicant or employee in a way that adversely
affects the opportunities or status of such
applicant or employee because of the
disability of such applicant or employee;
(2) participating in a contractual or other
arrangement or relationship that has the
effect of subjecting a covered entity’s qualified
applicant or employee with a disability to the
discrimination prohibited by this subchapter
(such relationship includes a relationship
with an employment or referral agency, labor
union, an organization providing fringe
benefits to an employee of the covered entity,
or an organization providing training and
apprenticeship programs);
(3)
utilizing standards,
methods of administration--

criteria,

or

56a
(A) that have the effect of discrimination on
the basis of disability; or
(B) that perpetuate the discrimination of
others who are subject to common
administrative control;
(4) excluding or otherwise denying equal jobs
or benefits to a qualified individual because of
the known disability of an individual with
whom the qualified individual is known to
have a relationship or association;
(5)(A)
not
making
reasonable
accommodations to the known physical or
mental limitations of an otherwise qualified
individual with a disability who is an
applicant or employee, unless such covered
entity
can
demonstrate
that
the
accommodation would impose an undue
hardship on the operation of the business of
such covered entity; or
(B) denying employment opportunities to a
job applicant or employee who is an otherwise
qualified individual with a disability, if such
denial is based on the need of such covered
entity to make reasonable accommodation to
the physical or mental impairments of the
employee or applicant;
(6)
using
qualification
standards,
employment tests or other selection criteria
that screen out or tend to screen out an
individual with a disability or a class of
individuals with disabilities unless the
standard, test or other selection criteria, as

57a
used by the covered entity, is shown to be jobrelated for the position in question and is
consistent with business necessity; and
(7) failing to select and administer tests
concerning employment in the most effective
manner to ensure that, when such test is
administered to a job applicant or employee
who has a disability that impairs sensory,
manual, or speaking skills, such test results
accurately reflect the skills, aptitude, or
whatever other factor of such applicant or
employee that such test purports to measure,
rather than reflecting the impaired sensory,
manual, or speaking skills of such employee
or applicant (except where such skills are the
factors that the test purports to measure).
Id. § 12112(b) (emphasis added). In other words,
subsection (b) is inextricably intertwined with
subsection (a)’s “General rule” because it underscores
that a covered employer may not “discriminate
against a qualified individual on the basis of
disability,” while at the same time particularizing and
making concrete the second component of the
“General rule” through examples of what prohibited
disability discrimination in the employment context
looks like—that is, what it means to discriminate
against qualified individuals “in regard to . . . terms,
conditions, and privileges of employment.”
Id.
§ 12112(a).
As to the second component, subsection (b)’s
introductory clause, “As used in subsection (a),”
clarifies that what follows in subsection (b) is not just
some random list of ways that a covered employer may

58a
“discriminate against a qualified individual on the
basis of disability.” 18
Rather, subsection (b)’s
enumerated examples particularize and give concrete
expression to areas of discriminatory conduct against
qualified individuals that are expressly referenced in
subsection (a).
Consequently, these examples
necessarily implicate—i.e., are “in regard to”—those
individuals’ “terms, conditions, and privileges of
employment”; they are examples of discrimination
“[a]s used in subsection (a).” Id. § 12112(b).
The upshot of all of this is that § 12112(b) is
inextricably intertwined with the “General rule” of
§ 12112(a)—and, more specifically, the second
component of that rule—and all of the examples of
subsection (b) necessarily implicate the termsconditions-and-privileges-of-employment language of
subsection (a).
For instance, one form of
discrimination listed in § 12112(b) is “limiting,
segregating, or classifying a job applicant or employee
in a way that adversely affects the opportunities or
status of such applicant or employee because of the
disability of such applicant or employee.”
Id.
§ 12112(b)(1) (emphasis added). This category of
discrimination necessarily implicates § 12112(a)’s
terms-conditions-and-privileges-of-employment
18

The Panel Majority mistakenly viewed the examples in
subsection (b) as in some sense distinct from the areas of
discrimination specified in the second component of the ‘‘General
rule.” See 906 F.3d at 907 (‘‘What subparagraph (b)(5)(A) and
the other provisions in subsection (b) do is to provide disabled
persons with a cause of action even when they have not shown
that the employer ‘discriminate[d] against a qualified individual
on the basis of disability,’ as otherwise required by § 12112(a).”
(alteration in original) (emphasis added)).

59a
language—that is, it necessarily is “in regard to . . .
terms, conditions, and privileges of employment,” and,
more specifically, may relate to “job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, [or] job training.”
Id. § 12112(a). And another form of discrimination
specified in subsection (b) is “using qualification
standards, employment tests or other selection criteria
that screen out or tend to screen out an individual with
a disability or a class of individuals with disabilities,”
unless doing so is necessary for the specific job
position at issue. Id. § 12112(b)(6) (emphasis added).
This form of discrimination, too, is patently “in regard
to . . . terms, conditions, and privileges of
employment.” Id. § 12112(a).
Importantly, a materially similar assessment can be
made as to the form of discrimination at issue here—
a failure to accommodate—which is embodied in
§ 12112(b)(5)(A). Though the effect may not be as
obvious as where an employer affirmatively acts to
limit or classify qualified disabled individuals “in a
way that adversely affects the[ir] opportunities or
status . . . because of the[ir] disability,” id.
§ 12112(b)(1), an employer’s failure to “mak[e]
reasonable accommodations to the known physical or
mental limitations of an otherwise qualified
individual with a disability,” id. § 12112(b)(5)(A),
where there is no “undue hardship” to the employer
from doing so, is a form of disability discrimination
that necessarily implicates the second component of
§ 12112(a)’s “General rule.”
That is to say, it is a form of disability discrimination
that necessarily is “in regard to . . . terms, conditions,
and privileges of employment.” Id. § 12112(a); see id.

60a
§ 12111(9) (“The term ‘reasonable accommodation’
may include . . . (A) making existing facilities used by
employees readily accessible to and usable by
individuals
with
disabilities;
and
(B)
job
restructuring, part-time or modified work schedules,
reassignment to a vacant position, acquisition or
modification of equipment or devices, appropriate
adjustment or modifications of examinations, training
materials or policies, . . . and other similar
accommodations for individuals with disabilities.”
(bolded text omitted)); see also Lincoln, 900 F.3d at
1205 (“[T]he term ‘reasonable accommodation’ refers
to those accommodations which presently, or in the
near future, enable the employee to perform the
essential functions of his job.” (alteration in original)
(emphasis added) (quoting Punt, 862 F.3d at 1051));
29 C.F.R § 1630.2(o) (defining “reasonable
accommodation” as “[m]odifications or adjustments”
concerning various terms, conditions, and privileges
of employment, including those relating to the “job
application process” and “the work environment”).
With this statutory analysis in mind, it should be
clear that a failure-to-accommodate claim predicated
on § 12112(b)(5)(A) need not expressly incorporate the
terms-conditions-and-privileges-of-employment
language of § 12112(a)’s “General rule” (i.e., the
second component of that rule) in order for the failureto-accommodate claim to adequately account in
substance for that language. Put another way, even
without expressly incorporating it as an element,
§
12112(a)’s
terms-conditions-and-privileges-ofemployment language is, in substance, part and

61a
parcel of an ADA failure-to-accommodate claim. 19
Therefore, expressly incorporating that language into
a failure-to-accommodate claim is unnecessary. 20
Accordingly, insofar as the district court’s belief was
to the contrary, it was mistaken.

19

Thus, it should be patent from the foregoing analysis that, in
predicating its position on the belief that we have somehow
ignored the terms-conditions-and-privileges-of-employment
language—what the Principal Dissent calls the ‘‘in-regard-to
clause”—or rendered this language irrelevant to an ADA failureto-accommodate claim, the Principal Dissent is fundamentally
mistaken. See, e.g., Principal Dissent at 822–24, 843–44. Suffice
it to say that, properly understood, the statutory language that
forms the basis for an ADA failure-to-accommodate claim,
§ 12112(b)(5)(A), is inextricably intertwined with and necessarily
implicates the terms-conditions-and-privileges-of-employment
language (i.e., the second component of § 12112(a)’s “General
rule”).
20

To be clear, a district court—in belt-and-suspenders
fashion—may permissibly instruct a jury that, in order for the
plaintiff to prevail on an ADA failure-to-accommodate claim, the
plaintiff must establish that the claim was in regard to the
plaintiff’s terms, conditions, or privileges of employment. In
other words, we do not suggest that a court would err if it elected
to include in its instructions a requirement that the employer’s
failure to accommodate must be ‘‘in regard to” the employee’s
terms, conditions, or privileges of employment.
And we
specifically discuss the proper meaning of the terms-conditionsand-privileges-of-employment language below. See Part II.C.2.
But such an instruction is simply not necessary. And, for the
reasons explicated below (i.e., Part II.C.2), it would be
improper—in all events—for such an instruction to equate the
terms-conditions-and-privileges-of-employment language with
an adverse-employment-action requirement.

62a
2
Furthermore, even if a district court were inclined
(though not obliged) to expressly incorporate in some
fashion § 12112(a)’s terms-conditions-and-privilegesof-employment language into its statement of an ADA
failure-to-accommodate claim, it would be improper
for the court to do so by equating the terms-conditionsand-privileges-of-employment language with the term
“adverse employment action.” The term “adverse
employment action”—as the district court used it in
its instructions and as we have used it in our
precedent—is not synonymous with § 12112(a)’s
terms-conditions-and-privileges-of-employment
language.
Therefore, incorporating the “adverse
employment action” term into the ADA’s failure-toaccommodate claim—as the court did here—would
effectively involve adding language to the relevant
statutory text that has no footing there—either
expressly or in substance. Such addition-throughinterpretation ordinarily is impermissible, and we see
no reason it should not be so here. We now elaborate
on these matters.
The district court instructed the jury here that, in
order to rule in Ms. Exby-Stolley’s favor, it needed to
find an adverse employment action—that is, in the
words of the instruction, that she “was discharged
from employment or suffered another adverse
employment action.” Aplt.’s App., Vol. II, at 440
(emphasis added).
The court defined the term
“adverse employment action” as an action
“constitut[ing] a significant change in employment
status, such a[s] hiring, firing, failing to promote,
reassignment
with
significantly
different
responsibilities, or a decision causing a significant

63a
change in benefits.” Id. at 440, 449 (emphasis added).
The Panel Majority embraced the district court’s
definition of an adverse employment action. See, e.g.,
906 F.3d at 902 (defining an “adverse employment
action” as a “materially adverse decision” relating to
those terms, conditions, and privileges (emphasis
added)); id. at 918 (noting, in concluding that the
County did not take an adverse employment action
against Ms. Exby-Stolley, that the County “denied her
[accommodation] request but . . . it did not fire her or
make any other changes in her employment status”);
id. at 917 (stating that the notion that any failure to
reasonably accommodate constitutes an adverse
employment action “has some appeal,” as “[t]he
typical failure-to-accommodate claim arises out of a
failure to accommodate the employee . . . and her
consequent termination,” but ultimately rejecting this
idea on the ground that “there could be a failure to
accommodate that does not result in termination and
is not otherwise connected to an adverse employment
action” (emphasis added)).
And it is not surprising that the Panel Majority did
so because the district court’s understanding of an
adverse employment action is congruent with our
precedent. See Annett, 371 F.3d at 1237–38 (“An
adverse employment action constitutes ‘a significant
change in employment status, such as hiring, firing,
failing to promote, reassignment with significantly
different responsibilities, or a decision causing a
significant change in benefits.’” (quoting Burlington
Indus., Inc. v. Ellerth (“Ellerth”), 524 U.S. 742, 761,
118 S.Ct. 2257, 141 L.Ed.2d 633 (1998))); see also
Daniels v. United Parcel Serv., Inc., 701 F.3d 620, 635
(10th Cir. 2012) (“An adverse employment action is a

64a
‘significant change in employment status, such as
hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing a significant change in benefits.’” (final
emphasis added) (quoting Piercy v. Maketa, 480 F.3d
1192, 1203 (10th Cir. 2007))); accord Hiatt, 858 F.3d
at 1316; cf. Sanchez, 164 F.3d at 532 (noting that
“[t]he Tenth Circuit liberally defines the phrase
‘adverse employment action,’” but underscoring that
“we will not consider ‘a mere inconvenience or an
alteration of job responsibilities’ to be an adverse
employment action” (quoting Crady v. Liberty Nat’l
Bank & Tr. Co., 993 F.2d 132, 136 (7th Cir. 1993))).
But this definition of “adverse employment action”
is not synonymous with the definition of “terms,
conditions, and privileges of employment language”
found in controlling law. Take Burlington Northern
& Santa Fe Railway Co. v. White, 548 U.S. 53, 126
S.Ct. 2405, 165 L.Ed.2d 345 (2006). There, the Court
noted, in its discussion of Title VII’s substantive antidiscrimination provision, that “[the words] ‘hire,’
‘discharge,’ [and] ‘compensation, terms, conditions, or
privileges of employment’ . . . limit the scope of that
provision to actions that affect employment or alter
the conditions of the workplace.” Id. at 62, 126 S.Ct.
2405 (emphases added) (quoting 42 U.S.C. § 2000e2(a)); see also id. at 64, 67, 126 S.Ct. 2405 (stating
that, by contrast, the reach of Title VII’s antiretaliation provision, which omits any such termsconditions-and-privileges-of-employment language,
“is not limited to discriminatory actions that affect the
terms and conditions of employment,” or, stated
differently, the anti-retaliation provision extends to
acts of retaliation that are not “workplace-related or

65a
employment-related retaliatory acts and harm”
(emphases added)). In other words, in describing the
import of the “terms, conditions, [and] privileges of
employment” language in Title VII, the Court in
Burlington emphasized that the presence or absence
of this language helps to clarify whether the conduct
covered under the provision must relate to the
employment context. 21

21

The Panel Majority stated that the Supreme Court in
Burlington ‘‘made the connection between adverse employment
action and the statutory terms-and-conditions-of-employment
language.” 906 F.3d at 907 n.2 (emphasis omitted). More
specifically, the Panel Majority described Burlington as holding
that Title VII retaliation claims do not require an adverse
employment action since Title VII’s anti-retaliation provision—
unlike that statute’s substantive, antidiscrimination provision—
does not contain any language regarding the ‘‘terms, conditions,
or privileges of employment.” See id. We disagree with this
reading of Burlington, which effectively equates an adverse
employment action with the terms-conditions-and-privileges-ofemployment language. As relevant here, that case simply held
that, given the absence of terms-conditions-and-privileges-ofemployment language in Title VII’s anti-retaliation provision,
actionable retaliation under Title VII is not limited to
“workplace-related or employment-related retaliatory acts and
harm.” 548 U.S. at 67, 126 S.Ct. 2405 (emphases added). That
is, the Supreme Court in Burlington merely expressed the view
that the inclusion of terms-conditions-and-privileges-ofemployment language in a statutory provision signals that the
conduct the provision covers must “affect employment or alter
the conditions of the workplace,” and that the absence of such
language suggests that the provision’s covered conduct can
transcend the workplace. Id. at 62, 126 S.Ct. 2405. The Court
said nothing about a connection between the terms-conditionsand-privileges-of-employment statutory language and an adverse-employment-action requirement, much less held that such
a connection exists.

66a
Moreover, the Supreme Court has noted that,
though the inclusion of “terms, conditions, [and]
privileges of employment” language in a statutory
provision offers clarity on whether the provision only
covers conduct relating to the employment context, it
also signals that the provision at issue covers a wide
range of conduct within the employment context.
Specifically, in Meritor Savings Bank, FSB v. Vinson,
the Court explained that the terms-conditions-andprivileges-of-employment language in Title VII serves
to combat the “entire spectrum” of workplace
discrimination:
[Petitioner] contends . . . that in prohibiting
discrimination with respect to “compensation,
terms, conditions, or privileges” of employment,
Congress [in enacting Title VII] was concerned
with what petitioner describes as “tangible
loss” of “an economic character,” not “purely
psychological aspects of the workplace
environment.” . . . We reject petitioner’s view.
. . . The phrase “terms, conditions, or privileges
of employment” evinces a congressional intent
“‘to strike at the entire spectrum of disparate
treatment . . .’” in employment.
477 U.S. at 64, 106 S.Ct. 2399 (emphases added)
(quoting City of L.A., Dep’t of Water & Power v.
Manhart, 435 U.S. 702, 707 n.13, 98 S.Ct. 1370, 55
L.Ed.2d 657 (1978)).
Burlington and Meritor Savings Bank thus provide
us with a broad conception of the scope of the language
“terms, conditions, [and] privileges of employment.”
Specifically, such language in a statutory provision
ordinarily signals that the provision covers a wide

67a
range of employment-related conduct. And, though
Burlington and Meritor Savings Bank commented on
the “terms, conditions, [and] privileges of
employment” language contained in Title VII, we
discern nothing in the text of those decisions or
otherwise that suggests their reasoning does not
readily apply to nearly identical language in the ADA.
See, e.g., Lanman v. Johnson County, 393 F.3d 1151,
1155 (10th Cir. 2004) (“The ADA provides that no
employer covered by the Act ‘shall discriminate
against a qualified individual with a disability . . . in
regard to . . . terms, conditions, and privileges of
employment.’ Congress borrowed this language from
Title VII . . . .” (second omission in original) (citation
omitted) (quoting 42 U.S.C. § 12112(a))).
In this regard, the Supreme Court’s interpretation
of the “terms, conditions, [and] privileges” language in
Title VII as evincing an intent to cover “the entire
spectrum” of employment discrimination, Meritor Sav.
Bank, 477 U.S. at 64, 106 S.Ct. 2399 (emphasis added)
(quoting Manhart, 435 U.S. at 707 n.13, 98 S.Ct.
1370), was law a full five years before the 1991
passage of the ADA. “Thus, we can presume that
Congress was aware of the Court’s interpretation of
‘terms, conditions, [and] privileges of employment’
when it chose to use parallel language in the ADA.”
Lanman, 393 F.3d at 1155 (quoting Fox v. Gen. Motors
Corp., 247 F.3d 169, 175-76 (4th Cir. 2001)).
Guided by the reasoning in Burlington and Meritor
Savings Bank, we believe that the ADA’s language—
“in regard to . . . [the] terms, conditions, and privileges
of employment,” 42 U.S.C. § 12112(a)—signals that
actionable discrimination must “affect employment or
alter the conditions of the workplace,” Burlington, 548

68a
U.S. at 62, 126 S.Ct. 2405, i.e., that the discrimination
must relate to some aspect of employment, and also
that the ADA’s discrimination proscription reaches
“the entire spectrum” of employment-based disability
discrimination, Meritor Sav. Bank, 477 U.S. at 64, 106
S.Ct. 2399 (emphasis added) (quoting Manhart, 435
U.S. at 707 n.13, 98 S.Ct. 1370).
As a consequence of this reasoning, we are simply
unwilling to equate language that correctly signals
the expansive sweep of the ADA’s employmentrelated, antidiscrimination mandate—i.e., the termsconditions-and-privileges-of-employment language—
with language—i.e., “adverse employment action”—
that indicates that the discrimination proscription
does not extend to circumstances where there is no
“significant change in employment status.” Aplt.’s
App., Vol. II, at 440, 449 (emphasis added); see En
Banc Br. for U.S. Amicus Curiae (“Gov’t’s Br.”) at 9
(“But the ‘adverse employment action’ standard, as
defined by the district court, is inconsistent with that
plain text. Congress did not limit the statutory phrase
‘terms, conditions, and privileges of employment’ to
economic harm or significant changes in employment
status.”).
To be sure, we recognize that the Panel Majority
posited that we should feel comfortable treating
“adverse employment action” as a “shorthand” for
§
12112(a)’s
terms-conditions-and-privileges-ofemployment language because it has served this
function in the Title VII context. 906 F.3d at 908.
However, our preceding analysis of Burlington and
Meritor Savings Bank—both Title VII cases—belies
the suggestion that the latter language (i.e., “terms,
conditions, and privileges of employment”) should be

69a
restricted in the manner that our circuit’s
understanding of “adverse employment action” would
require—that is, restricted to circumstances where
the discrimination involves “a significant change in
employment status.” Aplt.’s App., Vol. II, at 440, 449
(emphasis added); accord Hiatt, 858 F.3d at 1316. 22
Therefore, we reject the suggestion that “adverse
employment action” could properly function as a
shorthand for § 12112(a)’s terms-conditions-andprivileges-of-employment language.23

22
Counsel for the Department of Justice’s Civil Rights
Division, appearing as an amicus curiae, hypothesized that the
Panel Majority’s ‘‘shorthand” theory—i.e., its view that ‘‘adverse
employment action” is judicial shorthand for § 12112(a)’s termsconditions-and-privileges-of-employment language—‘‘could be
accurate if courts truly treated ‘adverse employment action’ as
synonymous with the statutory language.” Gov’t’s Br. at 17
(emphasis added). Yet, in virtually the same breath, the
Department’s counsel acknowledged that ‘‘many courts,
including the district court here, construe ‘adverse employment
action’ far more narrowly than actions that pertain to the ‘terms,
conditions, and privileges of employment.’”
Id. at 17-18
(emphasis added).
In particular, the district court here
interpreted the term ‘‘adverse employment action” to mean ‘‘a
significant change in employment status.” Aplt.’s App., Vol. II, at
440, 449 (emphasis added). As noted, this interpretation not only
is consistent with our precedent, see, e.g., Annett, 371 F.3d at
1237–38, but it also was embraced by the Panel Majority, see,
e.g., 906 F.3d at 902 (defining an ‘‘adverse employment action”
as a ‘‘materially adverse decision” relating to those terms,
conditions, and privileges (emphasis added)). The upshot is that
the hypothetical circumstances that the Department’s counsel
posited under which the Panel Majority’s shorthand theory
‘‘could be accurate,” Gov’t’s Br. at 17, are not present here.
23

The Panel Majority’s opposing assertion in this regard rested
on a weak foundation of out-of-circuit authority. For example,
contrary to the Panel Majority’s suggestion, the Eighth Circuit

70a
in Kelleher v. Wal-Mart Stores, Inc., 817 F.3d 624 (8th Cir. 2016),
did not examine the meaning of the terms-conditions-andprivileges-of-employment language at all, but instead predicated
its analysis on the district court’s and plaintiff’s agreement that
the ADA disparate-treatment and failure-to-accommodate
claims at issue could be conflated and addressed as one claim.
See id. at 631 & n.4 (“Kelleher included her disability discrimination claim and her ‘failure to continue to accommodate’ claim
as Counts 1 and 2, respectively, in her first amended complaint,
but the district court addressed those claims as a single failure
to accommodate claim. On appeal, Kelleher also treats them as
a single claim, and we will do the same.” (emphasis added)).
However, as we have discussed, see Part II.B.2 supra, such an
agreement regarding the conflation of the two claims was misguided because these claims have distinct elements; in
particular, the disparate-treatment claim has an adverseemployment-action requirement and the failure-to-accommodate
claim does not. The Panel Majority also cited for support the
D.C. Circuit’s decision in Marshall v. Federal Express Corp. It is
true that there the court did make an observation seemingly
helpful to the Panel Majority’s position: “As the language of
§ 12112(a) makes clear, for discrimination (including denial of
reasonable accommodation) to be actionable, it must occur in
regard to some adverse personnel decision or other term or
condition of employment.” 130 F.3d at 1099. But the court made
this observation without citation to further authority or without
even offering further analysis, and it did so—not in the context
of resolving the merits of an ADA failure-to-accommodate
claim—but, rather, in connection with rendering a holding
regarding administrative exhaustion; therefore, the language is
likely dictum in any event. See id. at 1098–99; see also supra
note 12 (suggesting further reasons for rejecting the idea that
this case supports the contention that “adverse employment
action” functions as a shorthand for § 12112(a)’s termsconditions-and-privileges-of-employment language). Moreover,
it bears emphasis that—even if these snippets of language from
Kelleher and Marshall lent any meaningful support to the
“shorthand” theory that the Panel Majority advances (which is
doubtful)—at the end of the day, as we discussed in Part II.B.5
supra, the Eighth Circuit and the D.C. Circuit (i.e., the courts
issuing Kelleher and Marshall, respectively) have not held that

71a
Thus, insofar as the district court sought to effect
this equivalency between § 12112(a)’s termsconditions-and-privileges-of-employment
language
and the term “adverse employment action”—as the
district court and our case law have defined it—it
committed legal error. More specifically, to the extent
that the district court’s mistaken belief about an
ostensible obligation to expressly take into account
§
12112(a)’s
terms-conditions-and-privileges-ofemployment language in an ADA failure-toaccommodate claim led the court—like the Panel
Majority—to incorporate an adverse-employmentaction requirement into that claim, the court
committed legal error. And, to be clear, this is error
irrespective of whether the district court was
operating under such a mistaken belief: § 12112(a)’s
terms-conditions-and-privileges-of-employment
language is not synonymous with the term “adverse
employment action,” and therefore (whatever its
rationale) the district court erred by effectively adding
language to the statutory text that has no footing
there—either expressly or in substance.
***
In sum, we reject the view that an adverse
employment action is a requisite element of an ADA
failure-to-accommodate claim. Not only does the term
“adverse employment action” not appear in the plain
text of the relevant statutory provisions, but
incorporating this element into an ADA failure-toan adverse employment action—at least in substance—is a
requisite element of an ADA failure-to-accommodate claim.
Therefore, for these reasons too, the Panel Majority’s
“shorthand” theory is unpersuasive, and we reject it.

72a
accommodate claim would be contrary to (1) our
controlling precedent; (2) the inherent nature of a
failure-to-accommodate claim, as contrasted with a
disparate-treatment claim; (3) the general remedial
purposes of the ADA; (4) the EEOC’s understanding
of the elements of an ADA failure-to-accommodate
claim; and (5) the regularly followed practices of all of
our sister circuits. Accordingly, the district court
erred in incorporating an adverse-employment-action
requirement into its instructions to the jury
concerning Ms. Exby-Stolley’s ADA failure-toaccommodate claim. In doing so, the district court did
not “correctly state[ ] the governing law.” Woolman,
913 F.3d at 992 (quoting Martinez, 572 F.3d at 1132).
III
Under the circumstances here, the district court’s
instructional error constrains us to reverse its
judgment. Specifically, where “the district court has
given a legally erroneous jury instruction, the
judgment must be reversed if the jury might have
based its verdict on the erroneously given
instruction.” Frederick v. Swift Transp. Co., 616 F.3d
1074, 1079 (10th Cir. 2010) (quoting Level 3
Commc’ns, LLC v. Liebert Corp., 535 F.3d 1146, 1158
(10th Cir. 2008)). And this “‘might have’ threshold, as
its language suggests, requires reversal ‘even if that
possibility [of the jury basing its verdict on the
erroneous instruction] is very unlikely.’” Lederman v.
Frontier Fire Prot., Inc., 685 F.3d 1151, 1159 (10th
Cir. 2012) (quoting Level 3 Commc’ns, 535 F.3d at
1158); accord Advanced Recovery Sys. v. Am. Agencies,
923 F.3d 819, 827 (10th Cir. 2019) (“We . . . must
reverse based on an erroneous instruction if there is
even a slight possibility of an effect on the verdict.”).

73a
Here, based on the record, we conclude with little
difficulty that we must reverse: the jury returned a
verdict for the County after expressly indicating on
the Verdict Form that Ms. Exby-Stolley had failed to
prove that she was either “discharged from
employment,” “not promoted,” or subjected to any
“other adverse action” by the County. Aplt.’s App.,
Vol. II, at 419. Therefore, there is much more than “a
slight possibility” here that the jury based its verdict
on the faulty instruction regarding an adverse
employment action. We must reverse.
IV
Because our reversal of the district court’s judgment
will result in remand for a new trial, we pause in
closing to address a purely legal issue that Ms. ExbyStolley presented in a contention of error on appeal
and that is likely to recur on retrial. “[W]e think it
proper for us to decide this issue for the guidance of
the district court on remand.” Colo. Visionary Acad.
v. Medtronic, Inc., 397 F.3d 867, 876 (10th Cir. 2005).
Specifically, Ms. Exby-Stolley argued that “the
district court improperly failed to instruct the jury
that undue hardship is an affirmative defense and
that the burden of persuasion lies with the County.”
906 F.3d at 919. The Panel Majority held that any
error by the district court regarding this matter would
have been harmless because there was “no need for
the jury to address the issue of undue hardship once
it found that there was no adverse employment
action.” Id. More specifically, the Panel Majority
opined that “[o]ur review of [this] issue would be
required only if we had agreed with [Ms. ExbyStolley’s] failure-to-accommodate argument.”
Id.
Because we do agree in this en banc proceeding with

74a
Ms. Exby-Stolley’s failure-to-accommodate argument
and because the undue-hardship issue presents a pure
legal question that is likely to arise again on remand,
we address it here for the guidance of the district
court.24
24

Ms. Exby-Stolley has maintained that the County waived the
right to assert the undue-hardship defense by failing to raise the
defense in its answer and—more significantly—in the pretrial
order. Even assuming that the County failed to properly raise
the defense in these documents, though the district court may
well have had the discretion to exclude the issue of undue
hardship from trial, see, e.g., Rios v. Bigler, 67 F.3d 1543, 1549
(10th Cir. 1995), it would not have been required to do so. See
MacCuish v. United States, 844 F.2d 733, 736 (10th Cir. 1988)
(“When there exists a ‘properly drawn, detailed pretrial order, a
trial court’s determination that certain facts or issues must [or
should not] be excluded from trial on the basis of a pretrial order
may be reversed only if there is an abuse of discretion.’” (quoting
Smith v. Ford Motor Co., 626 F.2d 784, 795 (10th Cir. 1980))). In
a proper exercise of its discretion, the district court still could
permissibly instruct the jury at trial concerning the issue of
undue hardship, absent a showing of (among other things)
surprise or prejudice by Ms. Exby-Stolley. See Smith, 626 F.2d
at 797 (noting that among the factors we should consider in
determining whether the district court abused its discretion
concerning the exclusion vel non of evidence not included in the
pretrial order are “the prejudice or surprise in fact of the party
against” whom the omitted matter is introduced (quoting Meyers
v. Pennypack Woods Home Ownership Ass’n, 559 F.2d 894, 904
(3d Cir. 1977), abrogated on other grounds as recognized by
Goodman v. Lukens Steel Co., 777 F.2d 113, 120 (3d Cir. 1985)));
accord Cannon Oil & Gas Well Serv., Inc. v. Evertson, 836 F.2d
1252, 1256 (10th Cir. 1987); cf. Marino v. Otis Eng’g Corp., 839
F.2d 1404, 1411 (10th Cir. 1988) (“Our cases show that when a
party requests a new trial on the basis of surprise testimony it
must be able to show surprise, prejudice, and an attempt to cure
the prejudice such as a motion for a continuance.”). And, based
on our reading of the record, we discern no basis for such a
showing of surprise or prejudice. For example, in its motion for

75a
At trial, over Ms. Exby-Stolley’s objection, the
district court refused to instruct the jury that the
County bore the burden of proof on an undue-hardship
defense. The district court reasoned that it did not
“believe” that undue hardship “is, in fact, an
affirmative defense at trial.” Aplt.’s App., Vol. V, at
1189–90; see id. at 1185 (noting, as to undue hardship,
“I don’t think this is an affirmative defense”). The
ADA, however, clearly states that the employer—to
avoid liability on a failure-to-accommodate claim—
must “demonstrate that the accommodation would
impose an undue hardship.”
42 U.S.C.
§ 12112(b)(5)(A); see US Airways, 535 U.S. at 396, 122
summary judgment, the County argued that Ms. Exby-Stolley’s
“proposed accommodations would place an undue hardship on
the [County].” Aplt.’s App., Vol. I, at 63–64 (Def.’s Mot. for
Summ. J., filed May 28, 2014). And Ms. Exby-Stolley responded
to that argument in her opposition to the motion for summary
judgment. Id. at 81, 89, 97 (Pl.’s Resp. to Def.’s Mot. for Summ.
J., filed June 25, 2014). Based on the district court briefing then,
Ms. Exby-Stolley cannot reasonably claim that she was surprised
or prejudiced when the County requested a jury instruction on
an undue-hardship defense. Cf. McBeth v. Himes, 598 F.3d 708,
716 (10th Cir. 2010) (holding that the plaintiff’s claim was
properly presented, even though first raised in response to a
motion for summary judgment, because the defendant did not
suffer prejudice). Indeed, though vigorously challenging on
appeal the specific language of the district court’s instructions
relating to the issue of undue hardship, Ms. Exby-Stolley has not
expressly claimed that she was surprised or prejudiced by the
presence of the issue in the case. Therefore, irrespective of the
County’s assumed failure to raise the undue-hardship defense in
its answer or in the pretrial order, the district court did not abuse
its discretion in instructing the jury concerning the issue of
undue hardship. However, we are constrained to conclude infra
that the district court erred in how it instructed the jury
concerning the matter.

76a
S.Ct. 1516 (“[T]he ADA says that ‘discrimination’
includes an employer’s ‘not making reasonable
accommodations to the known physical or mental
limitations of an otherwise qualified . . . employee,
unless [the employer] can demonstrate that the
accommodation would impose an undue hardship on
the operation of [its] business.’” (alterations and
omissions in original) (emphasis omitted) (quoting 42
U.S.C. § 12112(b)(5)(A))). Our precedents are in
accord. See Punt, 862 F.3d at 1050 (listing undue
hardship as an affirmative defense available to the
employer); accord Smith, 180 F.3d at 1179; cf. Hwang
v. Kan. State Univ., 753 F.3d 1159, 1162–63 (10th Cir.
2014) (addressing the employer’s defensive unduehardship burden under essentially coterminous
substantive standards of the Rehabilitation Act). In
short, undue hardship is an affirmative defense, and,
consequently, the County bears the burden to
establish it at trial. On remand, the district court
should instruct the jury accordingly.
V
For the foregoing reasons, we REVERSE the
district court’s judgment and REMAND for a new
trial consistent with this opinion.

McHUGH, Circuit Judge, dissenting, joined by
Tymkovich, Chief Judge, and Kelly, Eid, and Carson,
Circuit Judges; Hartz, Circuit Judge, also joins except
as to section III.B.
Because I am unwilling to ignore twenty-five words
Congress placed in the Americans with Disabilities
Act (“ADA”), 42 U.S.C. §§ 12111–17, I cannot join the

77a
majority opinion. And because the jury instructions
in this case are consistent with the plain meaning of
those twenty-five words as applied to the allegations
advanced by Ms. Exby-Stolley, I respectfully dissent.
To explain my reasoning, I proceed in four parts.
First, I examine 42 U.S.C. § 12112(a) of the ADA, as
modified by § 12112(b). I conclude that § 12112(b)
defines only one of the two express requirements of
§ 12112(a). Second, I consider the reasons advanced
by the majority for ignoring the second requirement of
§ 12112(a). Third, I address Ms. Exby-Stolley’s
burden in proving the remaining requirement of
§ 12112(a). In doing so, I look for guidance to the
decisions interpreting an analogous provision found in
Title VII of the Civil Rights Act of 1964 (“Title VII”).
And finally, in the fourth section, I review the jury
instructions to assess whether they correctly framed
the elements of Ms. Exby-Stolley’s claim. Concluding
that they did, I would affirm the decision of the
district court.
I.

REQUIREMENTS OF § 12112

The issue before this court is the proper
interpretation of Title I of the ADA with respect to the
requirements for proving a failure-to-accommodate
claim. “In statutory construction, we begin ‘with the
language of the statute.’” Kingdomware Techs., Inc.
v. United States, — U.S. —, 136 S. Ct. 1969, 1976, 195
L.Ed.2d 334 (2016) (quoting Barnhart v. Sigmon Coal
Co., 534 U.S. 438, 450, 122 S.Ct. 941, 151 L.Ed.2d 908
(2002)). Title I of the ADA sets out one blanket
prohibition: “No covered entity shall discriminate
against a qualified individual on the basis of disability
in regard to job application procedures, the hiring,

78a
advancement, or discharge of employees, employee
compensation, job training, and other terms,
conditions, and privileges of employment.” 42 U.S.C.
§ 12112(a). Broken down, a covered entity (that is, an
employer subject to the ADA) violates § 12112(a) when
two conditions are met: (1) the employer
“discriminate[s] against a qualified individual on the
basis of disability” (the discrimination clause) and (2)
the discrimination is “in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, [or]
other terms, conditions, and privileges of
employment” (the in-regard-to clause). Id.1
“In the ADA Congress provided not just a general
prohibition on discrimination ‘because of [an
individual’s] disability,’[2] but also seven paragraphs of
detailed description of the practices that would

1

For clarity, I will refer to the first requirement as the
“discrimination clause” and the second requirement as the “inregard-to clause.” The “in-regard-to clause” is referenced by the
majority as the “terms-conditions-and-privileges-of-employment
clause.” I use different nomenclature to distinguish the “inregard-to clause” of the ADA from the “with-regard-to” clause of
Title VII, because both include the “terms-conditions-and-privileges-of-employment” language.
Technically, there is a third clause that requires proving the
discriminator is a covered entity under the ADA. The parties
stipulated that the County regularly employed more than fifteen
employees, thereby satisfying the definition of covered entity.
See 42 U.S.C. § 12111(2), (5).
2

In 2009, the language of 42 U.S.C. § 12112(a) was amended
by replacing “with a disability because of the disability of such
individual” with “on the basis of disability.” ADA Amendments
Act of 2008, Pub. L. No. 110–325, § 5(a)(1), 122 Stat. 3553 (2008).

79a
constitute the prohibited discrimination.” Univ. of
Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 357, 133
S.Ct. 2517, 186 L.Ed.2d 503 (2013) (first alteration in
original) (quoting 42 U.S.C. § 12112). In § 12112(b),
Congress furnished the following “[c]onstruction” of
§ 12112(a): “As used in subsection (a), the term
‘discriminate against a qualified individual on the
basis of disability’ includes” seven specified practices.
Here, Ms. Exby-Stolley alleges discrimination based
on one of those specified practices: “not making
reasonable accommodations to the known physical or
mental limitations of an otherwise qualified
individual with a disability who is an applicant or
employee, unless such [employer] can demonstrate
that the accommodation would impose an undue
hardship on the operation of the business of such
[employer]” (failure to accommodate).
Id.
§ 12112(b)(5)(A).
According to the majority,
establishing discrimination under § 12112(b)(5)(A) is
enough, standing alone, to satisfy Ms. Exby-Stolley’s
burden under § 12112(a). I disagree.
To be sure, § 12112(b) provides that a failure to
accommodate satisfies the discrimination clause of
§ 12112(a). But in my view, it does nothing to excuse
Ms. Exby-Stolley from the second requirement of
§ 12112(a)—the in-regard-to clause. Given that
§ 12112(b) identifies employment practices that
violate
§
12112(a)’s
prohibition
against
“discriminat[ing] against a qualified individual on the
basis of disability,” the proper reading of § 12112(a) as
applied to the present facts is: “No [employer] shall
[fail to accommodate] in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, and

80a
other terms, conditions, and privileges of
employment.” 42 U.S.C. § 12112(a). By its plain
terms, § 12112(b) speaks directly to satisfaction of the
discrimination clause but is silent as to the twentyfive words Congress included in the in-regard-to
clause. In my view, then, the in-regard-to clause must
be satisfied by something more than an employer’s
failure to accommodate.
The ADA Amendments Act of 2008 (“ADAAA”)
bolsters my conclusion that the in-regard-to clause is
a separate requirement that must be satisfied even
when showing discrimination under § 12112(b)(5)(A).
Before the ADAAA, § 12112(a) made it unlawful for
an employer to “discriminate against a qualified
individual with a disability because of the disability of
such individual.” 42 U.S.C. § 12112(a) (2006). And
subsection (b) provided, “[a]s used in subsection (a) of
this section, the term ‘discriminate’ includes” the
seven enumerated practices. The ADAAA struck the
language “with a disability because of the disability of
such individual” from § 12112(a) and replaced it with
“on the basis of disability.” ADA Amendments Act of
2008, Pub. L. No. 110–325, § 5(a)(1), 122 Stat. 3553
(2008). And Congress replaced “discriminate” in
subsection (b) with “discriminate against a qualified
individual on the basis of disability.” Id. § 5(a)(2).
Simply put, in 2008, Congress intentionally expanded
the portion of subsection (a) satisfied by the acts listed
in subsection (b) from “discriminate” to “discriminate
against a qualified individual on the basis of
disability.” But Congress did not expand subsection
(b) to satisfy the entirety of subsection (a), including
the in-regard-to clause. Congress’s deliberate choice
to expand subsection (b) to cover more, but not all, of

81a
the requirements imposed under subsection (a),
emphasizes that the actions in subsection (b) do not
satisfy the in-regard-to clause.
By ignoring the in-regard-to language, the majority
violates the surplusage canon of statutory
construction, which provides: “If possible, every word
and every provision is to be given effect . . . . None
should be ignored. None should needlessly be given
an interpretation that causes it to duplicate another
provision or to have no consequence.” Antonin Scalia
& Bryan A. Garner, Reading Law: The Interpretation
of Legal Texts § 26, at 174 (2012) (“A. Scalia & B.
Garner”). Congress could have, but did not, eliminate
the in-regard-to clause for failure to accommodate
claims. Consequently, I would not read that language
out of the statute. See id. (“The surplusage canon
holds that it is no more the court’s function to revise
by subtraction than by addition.”).
Instead, I
approach § 12112(a) with the goal of arriving at a
construction that gives meaning to both the
discrimination clause and the in-regard-to clause.
Before explaining my construction of the in-regardto clause, I first respond to the reasons provided by
the majority for assigning no meaning to that
requirement. To be sure, the majority provides a
thorough defense of its position. In my view, however,
it offers no rationale that grants us permission to
rewrite § 12112(a).
II.

RESPONSE TO THE MAJORITY

Despite the plain statutory construction that leaves
the in-regard-to clause in place for failure-toaccommodate claims, the majority holds we can ignore

82a
these twenty-five words adopted by Congress for five
reasons.
First, the majority contends that our
controlling precedent excuses plaintiffs advancing a
failure-to-accommodate claim from establishing that
such failure was “in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, and
other terms, conditions, and privileges of
employment.” Second, the majority concludes the
absence of the in-regard-to requirement is apparent
from the inherent differences between disparatetreatment and failure-to-accommodate claims. Third,
the majority reasons that inclusion of such a
requirement would be contrary to the general
remedial purposes of the ADA. Fourth, the majority
is convinced that the Equal Employment Opportunity
Commission (“EEOC”), the agency responsible for
administering the ADA, does not require failure-toaccommodate claimants to satisfy the in-regard-to
requirement. And, finally, the majority is persuaded
by the weight of authority from our sister circuits. I
address each of these arguments in turn.
A. Existing Precedent
According to the majority, our prior decisions have
held that a plaintiff need not meet the requirements
of the in-regard-to clause in a failure-to-accommodate
case. See Maj. Op., Part II.B.1. Although I agree we
have issued decisions that do not list satisfaction of
the in-regard-to clause as an element of such a claim,
this is the first time the issue has been placed
squarely before this court. As the panel majority
noted, “not a single published opinion has even
mentioned that the question was raised by a party,
nor is there a single published opinion in which the

83a
answer to the question would have affected the
outcome of the appeal.” Exby-Stolley v. Bd. of Cnty.
Comm’rs, 906 F.3d 900, 911 (10th Cir. 2018). And
because the court sitting en banc is not bound by any
of these panel decisions, I do not further elaborate on
the persuasive analysis by the panel majority in
support of its position that our prior panel decisions
provide only dicta on this issue. See id. at 911–13.3
The decisions we are bound by do not resolve this
issue. The Supreme Court has addressed an ADA
failure-to-accommodate claim in only one case: U.S.
Airways, Inc. v. Barnett, 535 U.S. 391, 394, 122 S.Ct.
1516, 152 L.Ed.2d 589 (2002). But because there was
no question that the failure to accommodate the
plaintiff in U.S. Airways resulted in an adverse
employment action—termination—the Court had no
occasion to consider the application of the in-regardto clause. As a result, U.S. Airways does not speak to
the issue before us.
In the only failure-to-accommodate case this court
has previously considered en banc, we accurately
listed the elements of the claim to include a prong
designed to satisfy the in-regard-to clause. In Smith
v. Midland Brake, Inc., we were faced with the
following question: “if a person is a ‘qualified
3

In this regard, I also note that while the majority relies
heavily on dicta from our past cases to help establish its position,
see Maj. Op., Part II.B.1, it subsequently rejects similarly
situated statements in extra-circuit authority that cut against its
position, see id. at 805 n.9 (deeming a First Circuit opinion’s
“articulation of the prima facie case for an ADA discrimination
claim to be dictum,” because “[n]othing in [the opinion] turned on
the contents of the third element of its articulated prima facie
case”).

84a
individual with a disability’ and a reasonable
accommodation is not available to enable that
employee to perform the essential functions of his or
her existing job, what is the scope of the employer’s
obligation to offer that employee a reassignment job?”
180 F.3d 1154, 1159 (10th Cir. 1999) (en banc). In
answering this question, the en banc court
determined that
[t]he unvarnished obligation derived from the
statute is this: an employer discriminates
against a qualified individual with a disability
if the employer fails to offer a reasonable
accommodation.
If
no
reasonable
accommodation can keep the employee in his or
her existing job, then the reasonable
accommodation may require reassignment to a
vacant position so long as the employee is
qualified for the job and it does not impose an
undue burden on the employer.
Id. at 1169.
We then set out the elements of a prima facie case of
failure-to-accommodate, explaining the employee
must show
(1) The employee is a disabled person within
the meaning of the ADA and has made any
resulting limitations from his or her disability
known to the employer;
(2) The preferred option of accommodation
within the employee’s existing job cannot
reasonably be accomplished[;]

85a
(3) The employee requested the employer
reasonably to accommodate his or her disability
by reassignment to a vacant position, which the
employee may identify at the outset or which
the employee may request the employer
identify through an interactive process, in
which the employee in good faith was willing to,
or did, cooperate;
(4) The employee was qualified, with or without
reasonable accommodation, to perform one or
more appropriate vacant jobs within the
company that the employee must, at the time of
the summary judgment proceeding, specifically
identify and show were available within the
company at or about the time the request for
reassignment was made; and
(5) The employee suffered injury because the
employer did not offer to reassign the employee
to any appropriate vacant position.
Id. at 1179 (emphasis added). The plaintiff is also
required to prove each of these five elements at trial.
Id. Importantly, we recognized that the failure to
reassign was not enough, standing alone, to make out
the claim. Instead, the employee must also show
injury as a result of that failure.
The majority’s reliance on other decisions from this
court to argue we have endorsed a prima facie case for
failure to accommodate that does not include an injury
“in regard to” employment—often referred to as an
adverse employment action—is also unpersuasive for
another reason. In setting forth a prima facie claim
for standard disability discrimination, we have often

86a
failed to expressly include an adverse employment
action as an element. See, e.g., EEOC v. C.R. Eng.,
Inc., 644 F.3d 1028, 1037–38 (10th Cir. 2011) (“[I]n
order to establish a prima facie case of disability
discrimination under the ADA, a plaintiff must
demonstrate that he (1) is a disabled person as defined
by the ADA; (2) is qualified, with or without
reasonable accommodation, to perform the essential
functions of the job held or desired; and (3) suffered
discrimination by an employer or prospective
employer because of that disability.”
(internal
quotation marks omitted)); see also Lincoln v. BNSF
Ry. Co., 900 F.3d 1166, 1192 (10th Cir. 2018); Dewitt
v. Sw. Bell Tel. Co., 845 F.3d 1299, 1308 (10th Cir.
2017); Adair v. City of Muskogee, 823 F.3d 1297, 1304
(10th Cir. 2016); Osborne v. Baxter Healthcare Corp.,
798 F.3d 1260, 1266 (10th Cir. 2015); Koessel v.
Sublette Cnty. Sherriff’s Dep’t, 717 F.3d 736, 742 (10th
Cir. 2013); Butler v. City of Prairie Vill., 172 F.3d 736,
748 (10th Cir. 1999); but see Mathews v. Denver Post,
263 F.3d 1164, 1167 (10th Cir. 2001) (listing the third
element as “suffered adverse employment action
because of the disability”). Yet, the reasoning of those
decisions makes clear that an adverse employment
action is an element of such claims. See, e.g., C.R.
Eng., 644 F.3d at 1038 & n.10; Lincoln, 900 F.3d at
1192–93; Butler, 172 F.3d at 748.
In any event, because we are sitting en banc, we are
free to interpret the ADA anew, giving appropriate
meaning to the words used by Congress.
B. Inherent Nature of a Failureto-Accommodate Claim

87a
According to the majority, failure-to-accommodate
claims should be construed differently than the other
six types of discrimination identified by Congress in
42 U.S.C. § 12112(b) because the other types of
discrimination claims target actions, while failure-toaccommodate claims focus on the failure to act. See
Maj. Op., Part II.B.2. While that may be an accurate
observation, I fail to see why it excuses us from
applying the statute according to its plain language.
Nor do I agree that “it would verge on the illogical to
require failure-to-accommodate plaintiffs to establish
that their employer acted adversely toward them—
when the fundamental nature of the claim is that the
employer failed to act.” Id. at 797. Indeed, the best
indication of what Congress intended “is the statutory
text adopted by both Houses of Congress and
submitted to the President.” W. Va. Univ. Hosps., Inc.
v. Casey, 499 U.S. 83, 98, 111 S.Ct. 1138, 113 L.Ed.2d
68 (1991).
Section 12112(a)’s second element does not require
a plaintiff to establish that the employer acted
adversely toward the plaintiff. Rather, it requires
that the failure to accommodate be “in regard to job
application procedures, the hiring, advancement, or
discharge of employees, employee compensation, job
training, and other terms, conditions, and privileges
of employment.” 42 U.S.C. § 12112(a). That is, the
failure to accommodate must have had some negative
impact on hiring, promotion, firing, compensation,
training, or, more expansively, “other terms,
conditions, and privileges of employment.” Nothing
about this language requires the plaintiff to prove
that the employer took some affirmative action, in
addition to the failure to accommodate. But the

88a
failure to accommodate is actionable only if it is “in
regard to” the “terms, conditions, and privileges of
employment.” Thus, in my view, the majority’s
distinction between action and failure to act is a straw
man that does not advance the statutory analysis.
Likewise, the absence of a discriminatory intent
requirement in failure-to-accommodate claims says
nothing about the need to show a connection between
the failure and the terms, conditions, and privileges of
employment. Congress did not intend to create a
“super” human resources department to dictate
employer conduct irrespective of its impact. Cf. Jones
v. Barnhart, 349 F.3d 1260, 1267 (10th Cir. 2003)
(“Our role is to prevent unlawful hiring practices, not
to act as a super personnel department that second
guesses employers’ business judgments.” (quotation
marks omitted) (interpreting Title VII)). Rather, the
ADA gives disabled employees a remedy for actual
harm incurred in employment. Thus, even where the
employer’s
failure
to
make
a
reasonable
accommodation was not intentionally discriminatory,
the ADA protects an employee whose conditions of
employment are nonetheless impacted as a result.
And in most instances, it should be a small burden for
the plaintiff to meet this requirement. Where the
failure to accommodate results in termination,
demotion, reduced compensation, the loss of an
opportunity for promotion, or another detrimental
impact on the terms or conditions of employment, the
second requirement is easily met.
The majority advances sound reasons why Congress
might have decided to excuse plaintiffs bringing
failure-to-accommodate claims from satisfying the inregard-to clause. But the plain language of the

89a
statute indicates Congress declined to do so. Instead,
as with all other discrimination claims under the
ADA, failure-to-accommodate claims include a
requirement that the failure be in regard to the terms,
conditions, or privileges of employment.
C. Statutory Purpose
Next, the majority claims we can read out the inregard-to clause because it is inconsistent with the
ADA’s remedial purpose. See Maj. Op., Part II.B.3.
Although I agree that consideration of a “‘statute’s
. . . purpose’ is one of the traditional ‘tools’ of statutory
construction,” id. at 798 (quoting Am. Fed’n of Gov’t
Emps., Local 1592 v. Fed. Labor Relations Auth., 836
F.3d 1291, 1295 (10th Cir. 2016)), we cannot allow our
view of a statute’s purpose to negate its plain
language. “Statutory construction must begin with
the language employed by Congress and the
assumption that the ordinary meaning of that
language accurately expresses the legislative
purpose.” Park ‘N Fly, Inc. v. Dollar Park and Fly,
Inc., 469 U.S. 189, 194, 105 S.Ct. 658, 83 L.Ed.2d 582
(1985); see also A. Scalia & B. Garner, § 2, at 57
(stating that except in rare cases, statutory purpose
“cannot be used to contradict text or to supplement
it”).
In support of its position, the majority posits the
hypothetical of a blind law clerk whose judge is
satisfied with the clerk’s unaccommodated ability to
produce two draft opinions per month, rather than the
three draft opinions required of the judge’s sighted
clerks. See Maj. Op. at 799-800. While the blind clerk
may prefer the assistance of a personal reader, she
has suffered no adverse employment action in

90a
connection with the judge’s decision to accept without
complaint two draft decisions per month rather than
supply a reader as a reasonable accommodation.
Unlike the majority, I do not believe Congress, by
passing the ADA, intended to micromanage
employment decisions. See Jones, 349 F.3d at 1267.
Rather, the ADA provides a remedy for harms
suffered by disabled employees. In my view, the
judge’s decision to allocate work in chambers with
consideration for the clerk’s limitations is not and
should not be actionable under the ADA. See Sanchez
v. Denver Pub. Schs., 164 F.3d 527, 532 (10th Cir.
1998) (stating that in the context of employment
discrimination statutes, “we will not consider . . . ‘an
alteration of job responsibilities’ to be an adverse
employment action” (quoting Crady v. Liberty Nat’l
Bank & Tr. Co., 993 F.2d 132, 136 (7th Cir. 1993))).
Thus, the majority’s hypothetical highlights the
different purposes of the discrimination clause and
the in-regard-to clause. Congress could have made all
failures to accommodate actionable. But it did not do
so, instead directing that only failures in regard to the
terms, conditions, or privileges of employment trigger
liability under the Act.
Nor do I think our en banc decision in Smith
supports a contrary result. See Maj. Op. at 801–02.
The plaintiff in Smith suffered a traditional adverse
employment action—he was terminated after his
employer (a brake manufacturer) was unable to find
an assignment within the light assembly department
that he could safely perform, given his physical
limitations
(muscular
injuries
and
chronic
dermatitis). See 180 F.3d at 1160. If, instead, the
plaintiff could safely work in that department by

91a
assembling components at a lesser rate than other
employees, and the employer permitted him to remain
in the job while agreeing to accept only this reduced
output that could be produced safely, it is doubtful an
ADA claim would lie. In that scenario, the plaintiff
could continue to receive all the benefits of
employment, despite the employer’s failure to
reassign him.
Here the statute expressly includes the requirement
that the failure to accommodate be “in regard to”
terms, conditions, or privileges of employment. And
unlike the majority, I am not persuaded that
requiring a plaintiff bringing a claim under an
employment discrimination statute to tie the alleged
discrimination to an adverse employment action
would render the promise of the statute “hollow.” Maj.
Op. at 802 (quoting Smith, 180 F.3d at 1167). Rather,
the “in regard to” language strikes the appropriate
balance between protection of disabled employees and
deference to the business decisions of employers.
D. Pronouncements of the EEOC
Next, the majority claims its understanding of the
requisite elements of an ADA failure-to-accommodate
claim is consistent with the EEOC’s pronouncements.
See Maj. Op., Part II.B.4. The majority first points to
29 C.F.R. § 1630.9(a), which states that “[i]t is
unlawful for a[n employer] not to make reasonable
accommodation to the known physical or mental
limitations of an otherwise qualified applicant or
employee with a disability, unless such [employer] can
demonstrate that the accommodation would impose
an undue hardship on the operation of its business.”
This regulation, however, simply reiterates the

92a
failure-to-accommodate
definition
found
in
§ 12112(b)(5)(A), one of the seven examples of
discrimination that satisfy the first element of
§ 12112(a)’s general rule. It does not purport to define
the second element of that rule—that the
discrimination be “in regard to . . . terms, conditions,
and privileges of employment.” Indeed, the EEOC
spoke to that second element in a separate regulation,
29 C.F.R. § 1630.4(a)(1). See infra Part III.A.1. As a
result, to the extent the in-regard-to language is
deemed ambiguous, the EEOC cannot be said to have
provided an interpretation of that language in
§ 1630.9 to which we would owe any deference. See
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 844, 104 S.Ct. 2778, 81 L.Ed.2d 694
(1984).
Likewise, because § 1630.9 addresses only
§ 12112(a)’s discrimination clause—and is silent on
the second element of Title I’s “general proscription,”
Smith, 180 F.3d at 1160—I fail to see how that
regulatory interpretation “implicitly rejects” the idea
that the in-regard-to clause embodies a distinct and
meaningful requirement of failure-to-accommodate
claims. See Maj. Op. at 802–03. Even if the negativeimplication canon could be deemed to point in that
direction, see id. at 802, the surplusage canon
undoubtedly points the opposite way. That is, if a
plaintiff need satisfy only the discrimination clause to
gain relief for an employer’s failure to accommodate,
the in-regard-to clause would be rendered of no
consequence. See A. Scalia & B. Garner, § 26, at 174–
79 (discussing the operation of the surplusage canon);
see also Karl N. Llewellyn, Remarks on the Theory of
Appellate Decision and the Rules or Canons About

93a
How Statutes Are To Be Construed, 3 VAND. L. REV.
395, 401 (1950) (“[T]here are two opposing canons on
almost every point.”). What is more, if § 1630.9 did
purport to lay out all the components of a failure-toaccommodate claim, “[f]ull stop,” Maj. Op. at 802–03,
its conspicuous omission of § 12112(a)’s in-regard-to
requirement would leave that particular agency
interpretation susceptible to being found “manifestly
contrary to the statute.” Chevron, 467 U.S. at 844,
104 S.Ct. 2778. The majority also points to EEOC
guidance documents in support of its understanding
of the requisite elements of a failure-to-accommodate
claim—specifically, interpretive guidance on Title I,
see 29 C.F.R. pt. 1630 app., and enforcement guidance
on failure-to-accommodate claims, see U.S. Equal
Emp. Opportunity Comm’n, EEOCCVG-2003-1,
ENFORCEMENT
GUIDANCE
ON
REASONABLE
ACCOMMODATION AND UNDUE HARDSHIP UNDER THE
ADA
(2002),
http://www.eeoc.gov/policy/docs/accommodation.html.
Such documents “do constitute a body of experience
and informed judgment to which courts and litigants
may properly resort for guidance.” Smith, 180 F.3d at
1165 n.5 (quoting Meritor Sav. Bank, FSB v. Vinson,
477 U.S. 57, 65, 106 S.Ct. 2399, 91 L.Ed.2d 49 (1986)).
But “[w]hile the EEOC’s guidance may be entitled to
some consideration in our analysis, it does not carry
the force of law and is not entitled to any special
deference.” Pack v. Kmart Corp., 166 F.3d 1300, 1305
n.5 (10th Cir. 1999); see also Nat’l R.R. Passenger
Corp. v. Morgan, 536 U.S. 101, 110 n.6, 122 S.Ct.
2061, 153 L.Ed.2d 106 (2002) (“[T]he EEOC’s
interpretive guidelines do not receive Chevron
deference.”); Ansonia Bd. of Educ. v. Philbrook, 479
U.S. 60, 69 n.6, 107 S.Ct. 367, 93 L.Ed.2d 305 (1986)

94a
(“EEOC guidelines are properly accorded less weight
than administrative regulations declared by Congress
to have the force of law.”). Rather, these guidance
documents “are ‘entitled to respect’ . . . only to the
extent that [they] have the ‘power to persuade.’”
Christensen v. Harris Cnty., 529 U.S. 576, 587, 120
S.Ct. 1655, 146 L.Ed.2d 621 (2000) (quoting Skidmore
v. Swift & Co., 323 U.S. 134, 140, 65 S.Ct. 161, 89
L.Ed. 124 (1944)); see also EEOC v. SunDance Rehab.
Corp., 466 F.3d 490, 500 (6th Cir. 2006).
I find the persuasive power of this EEOC guidance
to be minimal with respect to the issue at hand. As
stated by the panel majority, although the EEOC’s
enforcement guidance “discusses at length the
meaning
of
the
reasonable-accommodation
requirement, it never purports to state all the
elements of an ADA discrimination claim based on a
failure to accommodate.” Exby-Stolley, 906 F.3d at
916 n.8. Indeed, it does not mention the second
element of § 12112(a) at all. And neither does the
interpretive guidance on Title I address the meaning
of
this
independent
statutory
requirement,
referencing the in-regard-to clause just once.
“Perhaps statements in the EEOC Guidance could be
persuasive
regarding
the
meaning
of
an
antidiscrimination statute, but only if supported by
some reasoning, not silence, however thundering.” Id.
This silence is rendered even less persuasive by the
clear parallels between the in-regard-to clause and
similar language in Title VII, the statute upon which
the ADA was modeled. See 42 U.S.C. § 2000e-2(a)(1)
(Title VII disparate-treatment provision making it
unlawful “to discriminate against any individual with
respect to his compensation, terms, conditions, or

95a
privileges of employment”); Lanman v. Johnson Cnty.,
393 F.3d 1151, 1155 (10th Cir. 2004) (stating that the
ADA’s “terms, conditions, and privileges of
employment” language was borrowed from Title VII
and should mean the same in both statutory contexts);
see also infra Part III.A.2. In other words, “if it really
intended to express guidance on the matter,” ExbyStolley, 906 F.3d at 916 n.8, one would have expected
the EEOC to address why the judicial interpretation
given that parallel language in Title VII—
specifically, the necessary showing of “explicit or
constructive alterations in the terms or conditions of
employment,” Burlington Indus., Inc. v. Ellerth, 524
U.S. 742, 752, 118 S.Ct. 2257, 141 L.Ed.2d 633 (1998)
(emphasis added)—is inapplicable in the ADA failureto-accommodate context. In the absence of any such
explanation for how best to interpret the second
element of § 12112(a), the two EEOC guidance
documents cited by the majority are, in my view,
unhelpful to our current task.
E. Practices of our Sister Circuits
Lastly, the majority conducts a thorough review of
decisions from our sister circuits in support of its
conclusion
that
incorporating
an
adverseemployment-action requirement into the failure-toaccommodate cause of action would “effectively create
a circuit split.” Maj. Op. at 810; see id. Part II.B.5. My
survey of the circuit landscape reveals a decidedly
muddier picture than the majority portrays.
The majority concedes that the decisions in other
circuits “do not all point in the same direction.” Id. at
804. What it fails to highlight, however, is that when
faced with such inconsistent intracircuit decisions,

96a
nearly every federal court of appeals follows the
general rule that the earlier panel opinion controls.
See, e.g., McMellon v. United States, 387 F.3d 329, 333
(4th Cir. 2004) (stating that most circuits agree with
“the basic rule that one panel cannot overrule
another,” and thus “follow the earlier of conflicting
panel opinions”); see also Bryan A. Garner et al., The
Law of Judicial Precedent § 36, at 303–04 (2016)
(“With an intermediate appellate court, an earlier
horizontal precedent nearly always controls. . . . The
federal appellate courts in particular apply this
solution to resolve a conflict between different panels
and hold that the earlier opinion controls later panels
. . . .”). And in several of our sister circuits, an earlier
panel opinion that included some type of adverse
employment action or alteration in the terms or
conditions of employment as an element of a failureto-accommodate claim was ignored or glossed over by
subsequent panels addressing the same issue.
For example, the majority lumps the First and D.C.
Circuits in with those that “either state, or strongly
suggest, that there is no adverse-employment-action
requirement in ADA failure-to-accommodate claims.”
Maj. Op. at 804. The majority cites Carroll v. Xerox
Corp., 294 F.3d 231, 237 (1st Cir. 2002), for the
conclusion that the First Circuit swaps out the
requirement to show an adverse employment action in
failure-to-accommodate claims for the requirement to
show that the employer, “despite knowing of [the
plaintiff’s] alleged disability, did not reasonably
accommodate it.” Three years earlier, however, the
First Circuit framed a prima facie failure-toaccommodate claim as also requiring one additional
element:

97a
To survive a motion for summary judgment on
a failure-to-accommodate claim, a plaintiff
ordinarily must furnish significantly probative
evidence that he is a qualified individual with a
disability within the meaning of the applicable
statute; that he works (or worked) for an
employer whom the ADA covers; that the
employer, despite knowing of the employee’s
physical or mental limitations, did not
reasonably accommodate those limitations; and
that the employer’s failure to do so affected the
terms, conditions, or privileges of the plaintiff’s
employment.
Higgins v. New Balance Athletic Shoe, Inc., 194 F.3d
252, 264 (1st Cir. 1999) (emphasis added).4 Similarly,
the majority cites Hill v. Assocs. for Renewal in Educ.,
Inc., 897 F.3d. 232, 237 (D.C. Cir. 2018), for the
conclusion that the D.C. Circuit omits any adverseemployment-action
requirement
in
failure-toaccommodate claims. But in a 1997 opinion, the D.C.
Circuit stated that “[a]s the language of § 12112(a)
makes clear, for discrimination (including denial of
reasonable accommodation) to be actionable, it must
occur in regard to some adverse personnel decision or

4

Higgins deemed these requirements, including the
requirement that the failure to accommodate ‘‘affect[ ] the terms,
conditions, or privileges of the plaintiff's employment,” to be
“rather undemanding.”
194 F.3d at 264–65.
This
characterization aligns with my conclusion that the in-regard-to
clause, while still an independent requirement that must be met
in order to state a failure-to-accommodate claim, erects a barrier
less demanding than that imposed by the ‘‘tangible employment
action'' required for a certain variety of Title VII sexual
harassment claim. See infra Part III.A.

98a
other term or condition of employment.” Marshall v.
Fed. Express Corp., 130 F.3d 1095, 1099 (D.C. Cir.
1997) (first emphasis added); see also id. (further
suggesting that there must be a “nexus” between an
“adverse action” and “a possible denial of reasonable
accommodation”).5
In both the First and D.C. Circuits, then, the earlier
articulations of the requisite elements of a failure-toaccommodate claim should control. The same holds
true in the Second, Seventh, and Ninth Circuits.
While the majority asserts that “the predominant
view of [the decisions in these circuits] does not
support the incorporation of an adverse-employmentaction requirement into an ADA failure-toaccommodate claim,” Maj. Op. at 804, the earliest
relevant panel decision cited by the majority from all
three circuits points in the other direction. See Parker
v. Sony Pictures Ent., Inc., 260 F.3d 100, 108 (2d Cir.
5

As the majority opinion notes, the D.C. Circuit went on to state:
We assume without deciding that if working conditions
inflict pain or hardship on a disabled employee, the
employer fails to modify the conditions upon the
employee’s demand, and the employee simply bears the
conditions, this could amount to a denial of reasonable
accommodation, despite there being no job loss, pay loss,
transfer, demotion, denial of advancement, or other
adverse personnel action. Such a scenario might be
viewed as the ADA equivalent of the hostile working
environment
claim
cognizable
under
other
discrimination laws.

Marshall, 130 F.3d at 1099. Again, this reasoning jibes with my
suggested approach to aligning the contours of the in-regard-to
clause with Title VII hostile work environment claims, as
discussed infra Part III.B.

99a
2001) (stating that “the connections between (1) the
failure to accommodate a disability, (2) the
performance deficiencies, and (3) the adverse
employment action, must still exist for there to be
liability” in reasonable accommodation cases); Foster
v. Arthur Andersen, LLP, 168 F.3d 1029, 1032 (7th
Cir. 1999) (including in the prima facie failure-toaccommodate case the requirement that “the
disability caused the adverse employment action (a
factor which is implied if not stated)”); Samper v.
Providence St. Vincent Med. Ctr., 675 F.3d 1233, 1237
(9th Cir. 2012) (requiring a failure-to-accommodate
plaintiff to show that “(1) [s]he is disabled within the
meaning of the ADA; (2) [s]he is a qualified individual
able to perform the essential functions of the job with
reasonable accommodation; and (3) [s]he suffered an
adverse employment action because of [her]
disability” (alterations in original) (quoting Allen v.
Pac. Bell, 348 F.3d 1113, 1114 (9th Cir. 2003) (per
curiam))).
I am not convinced by the majority’s attempt to
dismiss these earlier, controlling precedents. For
example, despite the clear statement by the Ninth
Circuit in Samper v. Providence St. Vincent Medical
Center, the majority nevertheless posits that the
predominant view from that circuit “may be stated
succinctly: an adverse employment action is not a
requisite element of an ADA failure-to-accommodate
claim.” Maj. Op. at 809 (citing Snapp v. United
Transp. Union, 889 F.3d 1088, 1095 (9th Cir. 2018)).
The passage the majority quotes from Snapp v. United
Transportation Union, however, concerns only the
definition of discrimination found in § 12112(b)(5)(A),
not every element of a failure-to-accommodate claim.

100a
See 889 F.3d at 1095 (“The ADA treats the failure to
provide a reasonable accommodation as an act of
discrimination if the employee is a ‘qualified
individual,’ the employer receives adequate notice,
and a reasonable accommodation is available that
would not place an undue hardship on the operation
of the employer’s business.” (emphasis added)
(quoting only § 12112(b)(5)(A))); cf. Exby-Stolley, 906
F.3d at 913 (reasoning that prior panels that omitted
an adverse-employment-action element may well
have been “simply setting forth the failure-toaccommodate requirements of § 12112(b)(5)(A), not all
the elements of an ADA claim based on failure to
accommodate”). But not every act of discrimination
affects a term, condition, or privilege of employment.
See Meritor Sav. Bank, 477 U.S. at 64, 67, 106 S.Ct.
2399 (discussing workplace harassment). In telling
contrast to Snapp, the discussion in Samper
concerned not just the definition of discrimination in
the failure-to-accommodate context—an element that
is undisputed in this en banc appeal—but rather the
complete prima facie showing needed to bring such a
claim, incorporating both the discrimination clause
and the in-regard-to clause of Title I’s general rule.
See 675 F.3d at 1237 (citing both § 12112(b)(5)(A) and
§ 12112(a)). As such, Samper and Snapp do not
appear to be in tension. See Garner et al., The Law of
Judicial Precedent § 36, at 300 (“A court considering
discordant decisions must first determine whether the
perceived conflict between them is real. If at all
possible, the opinions should be harmonized.”).
Overall, however, the primary reason the authority
cited by the majority from our sister circuits fails to
persuade is not because it runs afoul of the “law of the

101a
circuit” doctrine, but because it strays from the text of
Title I’s “general proscription.” Those opinions that
list the prima facie elements of a § 12112(b)(5)(A)
discrimination claim without connecting the failure to
accommodate to “job application procedures, the
hiring, advancement, or discharge of employees,
employee compensation, job training, and other
terms, conditions, and privileges of employment,” are
reading words out of the ADA. The decisions from our
sister circuits that do correctly ground themselves in
§ 12112(a)’s text—and thus correctly recognize the
operation of the in-regard-to clause in conjunction
with the discrimination clause—all require some
showing that a failure-to-accommodate plaintiff
suffered either an adverse employment action or some
other detrimental alteration in the terms, conditions,
or privileges of employment. See, e.g., Marshall, 130
F.3d at 1099 (“As the language of § 12112(a) makes
clear . . . .”).
III. INTERPRETING THE INREGARD-TO CLAUSE
I now turn to what I view as the core question
presented by this en banc appeal: what the in-regardto clause requires. With guidance from decisions
applying Title VII’s analogous “with-respect-to”
provision, I conclude the plaintiff’s burden under the
in-regard-to clause is less onerous than suggested by
some of our decisions applying an “adverse
employment action” requirement. But, even in a
failure to accommodate case, the plaintiff must satisfy
that burden.
Interpreting the role of the in-regard-to clause
encompasses two inquiries: (1) What aspects of an

102a
employer’s relationship with an employee are covered
by the in-regard-to clause?; and (2) When is
discrimination taken “in regard to” those covered
aspects? I undertake each inquiry in turn.
A. The Scope of the InRegard-To Clause
Although the language of the statute identifies
specific situations covered by the in-regard-to clause,
the EEOC has provided additional guidance on that
question. Therefore, I begin by setting forth the
relevant EEOC regulation. Next, I turn to precedent
interpreting Title VII. Last, I discuss which aspects
of an employer’s relationships are covered by the inregard-to clause.
1.

EEOC Regulations

Congress granted the EEOC the authority to issue
regulations to carry out the ADA. See 42 U.S.C.
§ 12116. The EEOC has used this authority to adopt
a regulation expounding on the aspects of employment
that are protected under the ADA:
It is unlawful for a[n employer] to discriminate
on the basis of disability against a qualified
individual in regard to:
(i) Recruitment,
advertising,
application procedures;

and

job

(ii) Hiring, upgrading, promotion, award of
tenure, demotion, transfer, layoff, termination,
right of return from layoff, and rehiring;
(iii) Rates of pay or any other form of
compensation and changes in compensation;

103a
(iv) Job assignments, job classifications,
organizational
structures,
position
descriptions, lines of progression, and seniority
lists;
(v) Leaves of absence, sick leave, or any other
leave;
(vi) Fringe benefits available by virtue of
employment, whether or not administered by
the [employer];
(vii) Selection and financial support for
training,
including:
apprenticeships,
professional meetings, conferences and other
related activities, and selection for leaves of
absence to pursue training;
(viii) Activities sponsored by a[n employer],
including social and recreational programs; and
(ix) Any other term, condition, or privilege of
employment.
29 C.F.R. § 1630.4(a)(1).
Through this regulation, the EEOC has defined
certain circumstances that fall within the scope of the
ADA. But § 1630.4(a)(1) also contains the same
catchall as § 12112(a): other terms, conditions, and
privileges
of
employment.
See
29
C.F.R.
§ 1630.4(a)(1)(ix). Thus, neither the statutory nor the
regulatory categories are exclusive.
2.

Title VII

As previously mentioned, this court has recognized
the importance of interpreting the ADA congruently
with similar language in Title VII. See Lanman, 393

104a
F.3d at 1155 (“Congress borrowed [the terms,
conditions, and privileges of employment] language
from Title VII,” and its “incorporation of this language
into the ADA is indicative of its intent that the
language mean the same in the ADA as it does in Title
VII.”); id. (“The parallel purposes and remedial
structures of the two statutes also support a
consistent interpretation.”); see also Smith v. City of
Jackson, 544 U.S. 228, 233, 125 S.Ct. 1536, 161
L.Ed.2d 410 (2005) (plurality) (“[W]hen Congress uses
the same language in two statutes having similar
purposes . . . it is appropriate to presume that
Congress intended that text to have the same
meaning in both statutes.”).
Under the disparate-treatment provision of Title
VII, it is “an unlawful employment practice for an
employer . . . to fail or refuse to hire or to discharge
any individual, or otherwise to discriminate against
any individual with respect to his compensation,
terms, conditions, or privileges of employment,
because of such individual’s race, color, religion, sex,
or national origin.” 42 U.S.C. § 2000e-2(a)(1). I find
it helpful to consider Title VII’s with-respect-to clause
in interpreting the ADA’s in-regard-to clause. In
doing so, I first examine the treatment of claims under
Title VII for failure to accommodate religious
practices, which require the plaintiff to show that the
non-accommodation was with respect to the terms,
conditions, or privileges of employment. Next, I
explore the scope of Title VII’s “terms, conditions, or
privileges of employment” language, which in my view
is broader than some of our decisions suggest. Finally,
I apply the lessons learned from that analysis to the
ADA’s in-regard-to clause.

105a
a.

Failure to accommodate under Title VII

Given the clear parallels between the ADA and Title
VII, it is instructive to compare failure-toaccommodate claims under both statutes. In the Title
VII context, a failure-to-accommodate claim addresses
an employee’s religious practices, rather than her
disability. And a plaintiff seeking to state a claim for
an employer’s failure to accommodate her religious
practices cannot stand merely on the employer’s nonaccommodation—rather, she must show that she was
subjected to an adverse employment action in
connection
with
that
non-accommodation.
Specifically, we require an employee to show that she
was either fired or not hired for failing to comply with
an employer requirement that conflicts with her
religious belief. See Thomas v. Nat’l Ass’n of Letter
Carriers, 225 F.3d 1149, 1155 (10th Cir. 2000) (fired);
Toledo v. Nobel-Sysco, Inc., 892 F.2d 1481, 1486 (10th
Cir. 1989) (not hired).
The Supreme Court’s most recent discussion of Title
VII religious failure-to-accommodate claims came in
EEOC v. Abercrombie & Fitch Stores, Inc., 575 U.S.
768, 135 S. Ct. 2028, 192 L.Ed.2d 35 (2015). There,
the Court clarified that these claims can be brought
under either Title VII’s disparate-treatment
provision, 42 U.S.C. § 2000e-2(a)(1), or its disparateimpact provision, id. § 2000e-2(a)(2). See 135 S. Ct. at
2033–34. 6
Regarding a religious failure-to6

Disparate treatment and disparate impact ‘‘are the only
causes of action under Title VII.” Abercrombie & Fitch Stores,
Inc., 575 U.S. 768, 135 S. Ct. 2028, 2032, 192 L.Ed.2d 35 (2015).
Disparate treatment exists when ‘‘‘[t]he employer simply treats
some people less favorably than others because of their race,

106a
accommodate claim brought under the disparatetreatment provision, the Court held that Title VII
gives religious practices “favored treatment,
affirmatively obligating employers not ‘to fail or
refuse to hire or discharge any individual . . . because
of such individual’s’ ‘religious observance and
practice.’” Id. at 2034 (ellipsis in original); see also id.
at 2033 (“An employer may not make a [ job]
applicant’s religious practice, confirmed or otherwise,
a factor in employment decisions.”); id. at 2034 (Alito,
J., concurring in the judgment) (“Title VII . . .
prohibits an employer from taking an adverse
employment action (refusal to hire, discharge, etc.)
‘against any individual . . . because of such
individual’s . . . religion.’” (footnote omitted) (ellipses
in original) (quoting 42 U.S.C. § 2000e-2(a))).
color, religion, sex, or [other protected characteristic].’ Liability
in a disparate-treatment case ‘depends on whether the protected
trait . . . actually motivated the employer’s decision.’” Raytheon
Co. v. Hernandez, 540 U.S. 44, 52, 124 S.Ct. 513, 157 L.Ed.2d 357
(2003) (second alteration and ellipsis in original) (citation
omitted) (first quoting Int’l Brotherhood of Teamsters v. United
States, 431 U.S. 324, 335 n.15, 97 S.Ct. 1843, 52 L.Ed.2d 396
(1977); then quoting Hazen Paper Co. v. Biggins, 507 U.S. 604,
610, 113 S.Ct. 1701, 123 L.Ed.2d 338 (1993)). Conversely,
“disparate-impact claims ‘involve employment practices that are
facially neutral in their treatment of different groups but that in
fact fall more harshly on one group than another and cannot be
justified by business necessity.’” Id. (quoting Int’l Brotherhood
of Teamsters, 431 U.S. at 335 n.15, 97 S.Ct. 1843). “Under a
disparate-impact theory of discrimination, ‘a facially neutral
employment practice may be deemed [illegally discriminatory]
without evidence of the employer’s subjective intent to
discriminate that is required in a “disparate-treatment” case.’”
Id. at 52–53, 124 S.Ct. 513 (alteration in original) (quoting Wards
Cove Packing Co. v. Atonio, 490 U.S. 642, 645–46, 109 S.Ct. 2115,
104 L.Ed.2d 733 (1989)).

107a
Abercrombie & Fitch thus makes clear that, in the
Title VII context, a disparate treatment claim for
failure to accommodate religious practices requires
that the non-accommodation result in an adverse
impact with respect to hiring, firing, or the terms,
conditions, or privileges of employment.
The majority contends that the inclusion of an
adverse-employment-action requirement in Title VII
religious failure-to-accommodate claims can be
explained by the fact that the cases mentioning that
requirement all concern disparate treatment. See
Maj. Op. at 793 n.3. And it is “wholly unremarkable”
“[t]hat a disparate-treatment claim—under Title VII
or the ADA—would require an adverse employment
action.” Id. Therefore, the majority asserts that the
inclusion
of
an
adverse-employment-action
requirement in Title VII failure-to-accommodate
claims “sheds no light on the entirely separate
question of whether such a requirement exists for
failure-to-accommodate claims under the ADA, where
a freestanding claim exists for such unlawful
conduct.” Id.
The majority is correct that failure to accommodate
under the ADA is a freestanding discrimination claim,
while failure to accommodate under Title VII is not.
Compare 42 U.S.C. § 12112(b)(5)(A) with 42 U.S.C.
§ 2000e-2(a). But the need for an adverse employment
action is derived not from the disparate-treatment
nature of the Title VII claim, but from the separate
requirement that the disparate treatment have a
significant impact on employment status. Thus, what
matters for our purposes is not that failure to
accommodate is brought as a disparate-treatment
claim under Title VII and a freestanding claim under

108a
the ADA, but that both claims must satisfy the “terms,
conditions, and privileges” element (either “withrespect-to” or “in-regard-to”). It is that element that
imposes the need for at least some showing of an
alteration to the terms or conditions of employment,
and not the discrimination itself, however
characterized. See Power v. Summers, 226 F.3d 815,
820 (7th Cir. 2000) (describing “adverse employment
action” as “judicial shorthand . . . for the fact that
[federal employment discrimination] statutes require
the plaintiff to prove that the employer’s action of
which he is complaining altered the terms or
conditions of his employment”); see also Meritor Sav.
Bank, 477 U.S. at 67, 106 S.Ct. 2399 (“[N]ot all
workplace conduct that may be described as
‘harassment’ affects a ‘term, condition, or privilege’ of
employment within the meaning of Title VII.”). In
other words, freestanding or not, the relevant
discrimination under both statutes—a failure to
accommodate—must nevertheless be “with respect to”
or “in regard to” the terms or conditions of
employment, and consequently must work a
disruption in employment terms or conditions that is
more than de minimis.
The inclusion of failure-to-accommodate claims in
Title VII’s disparate-treatment provision also
undercuts the majority’s discussion of the purportedly
sharp distinction between those two forms of
discrimination. See Maj. Op., Part II.B.2; supra Part
II.B. As previously discussed, the majority asserts
that disparate-treatment claims require a showing of
an employer action, while failure-to-accommodate
claims require a showing of an employer omission.
See Maj. Op. at 796. The problem with constructing

109a
this fundamental dichotomy is that Title VII includes
a claim for religious discrimination that has one foot
in both worlds—that is both a disparate-treatment
claim and a failure-to-accommodate claim.
Further, there is no doubt that ADA failure-toaccommodate claims are meaningfully related to
failure-to-accommodate claims brought under Title
VII. See Thomas, 225 F.3d at 1155 n.5 (“A claim of
religious discrimination under Title VII is similar to a
claim under the ADA . . . .”). “[I]n both situations, the
employer has an affirmative obligation to make a
reasonable accommodation.” Id.; cf. Abercrombie &
Fitch, 135 S. Ct. at 2034 (stating that a failure-toaccommodate claim brought under Title VII’s
disparate-treatment
provision
“affirmatively
obligat[es] employers” to accommodate religious
practices). Additionally, just as the ADA “requires
preferences
in
the
form
of
‘reasonable
accommodations’ that are needed for those with
disabilities,” Barnett, 535 U.S. at 397, 122 S.Ct. 1516,
Title VII “gives [religious practices] favored
treatment,” Abercrombie & Fitch, 135 S. Ct. at 2034.
Thus, because a religious failure-to-accommodate
claim under Title VII requires some sort of adverse
impact on the terms or conditions of employment, over
and above a showing of the failure to accommodate
itself, it would not be “illogical,” Maj. Op. at 796–97,
to require a plaintiff to make the same showing in the
analogous ADA failure-to-accommodate context.
I thus proceed to assess what that showing requires.

110a
b. The scope of “terms, conditions, or privileges”
under Title VII
In interpreting Title VII, the Supreme Court has
long recognized that “[t]he phrase ‘terms, conditions,
or privileges of employment’ evinces a congressional
intent ‘to strike at the entire spectrum of disparate
treatment of men and women’ in employment.”
Meritor Sav. Bank, 477 U.S. at 64, 106 S.Ct. 2399
(1986) (quoting L.A. Dep’t of Water & Power v.
Manhart, 435 U.S. 702, 707 n.13, 98 S.Ct. 1370, 55
L.Ed.2d 657 (1978)).
When “the underlying
employment relationship is contractual, it follows that
the ‘terms, conditions, or privileges of employment’
clearly include benefits that are part of an
employment contract.” Hishon v. King & Spalding,
467 U.S. 69, 74, 104 S.Ct. 2229, 81 L.Ed.2d 59 (1984).
But “the language of Title VII is not limited to
‘economic’ or ‘tangible’ discrimination,” Meritor Sav.
Bank, 477 U.S. at 64, 106 S.Ct. 2399, and covers more
than “‘terms’ and ‘conditions’ in the narrow
contractual sense,” Oncale v. Sundowner Offshore
Servs., Inc., 523 U.S. 75, 78, 118 S.Ct. 998, 140
L.Ed.2d 201 (1998). Even when a contract is not
made, “[a]n employer may provide its employees with
many benefits that it is under no obligation to furnish
by any express or implied contract.” Hishon, 467 U.S.
at 75, 104 S.Ct. 2229. “A benefit that is part and
parcel of the employment relationship may not be
doled out in a discriminatory fashion, even if the
employer would be free under the employment
contract simply not to provide the benefit at all.” Id.
“Those benefits that comprise the ‘incidents of
employment,’ or that form ‘an aspect of the
relationship between the employer and employees,’

111a
may not be afforded in a manner contrary to Title
VII.” Id. at 75–76, 104 S.Ct. 2229 (citation and
footnotes omitted) (quoting S. Rep. No. 867, 88th
Cong., 2d Sess., 11 (1964); then quoting Allied Chem.
& Alkali Workers v. Pittsburgh Plate Glass Co., 404
U.S. 157, 178, 92 S.Ct. 383, 30 L.Ed.2d 341 (1971)).
Title VII can be “violated by either explicit or
constructive alterations in the terms or conditions of
employment.” Ellerth, 524 U.S. at 752, 118 S.Ct.
2257.
A plaintiff may establish constructive
alterations in the terms or conditions of employment
“by proving that discrimination based on sex has
created a hostile or abusive work environment.”
Meritor Sav. Bank, 477 U.S. at 66, 106 S.Ct. 2399.
In recognizing hostile work environment claims, the
Supreme Court began by noting that “[w]ithout
question, when a supervisor sexually harasses a
subordinate because of the subordinate’s sex, that
supervisor ‘discriminate[s]’ on the basis of sex.” Id. at
64, 106 S.Ct. 2399 (second alteration in original). But
“not all workplace conduct that may be described as
‘harassment’ affects a ‘term, condition, or privilege’ of
employment within the meaning of Title VII.” Id. at
67, 106 S.Ct. 2399. That is, Title VII is not meant to
be “a general civility code for the American
workplace.” Oncale, 523 U.S. at 80, 118 S.Ct. 998. As
a result, the “‘mere utterance of an . . . epithet which
engenders offensive feelings in a[n] employee,’ does
not sufficiently affect the conditions of employment to
implicate Title VII.” Harris v. Forklift Sys., Inc., 510
U.S. 17, 21, 114 S.Ct. 367, 126 L.Ed.2d 295 (1993)
(ellipsis in original) (quoting Meritor Sav. Bank, 477
U.S. at 67, 106 S.Ct. 2399); see also Faragher v. City
of Boca Raton, 524 U.S. 775, 788, 118 S.Ct. 2275, 141

112a
L.Ed.2d 662 (1998) (“‘[S]imple teasing,’ offhand
comments, and isolated incidents (unless extremely
serious) will not amount to discriminatory changes in
the ‘terms and conditions of employment.’” (citation
omitted) (quoting Oncale, 523 U.S. at 82, 118 S.Ct.
998)). Rather, for constructive alterations in the
terms and conditions of employment to be actionable,
the conduct “must be severe or pervasive.” Ellerth,
524 U.S. at 752, 118 S.Ct. 2257; see also Faragher, 524
U.S. at 788, 118 S.Ct. 2275 (“[C]onduct must be
extreme to amount to a change in the terms and
conditions of employment.”). Title VII is violated
“[w]hen the workplace is permeated with
‘discriminatory intimidation, ridicule, and insult,’
that is ‘sufficiently severe or pervasive to alter the
conditions of the victim’s employment and create an
abusive working environment.’” Harris, 510 U.S. at
21, 114 S.Ct. 367 (emphasis added) (citation omitted)
(quoting Meritor Sav. Bank, 477 U.S. at 65, 67, 106
S.Ct. 2399).
“The critical issue, Title VII’s text indicates, is
whether members of one sex are exposed to
disadvantageous terms or conditions of employment
to which members of the other sex are not exposed.”
Oncale, 523 U.S. at 80, 118 S.Ct. 998 (quoting Harris,
510 U.S. at 25, 114 S.Ct. 367 (Ginsburg, J.,
concurring)). “[A] sexually objectionable environment
must be both objectively and subjectively offensive,
one that a reasonable person would find hostile or
abusive, and one that the victim in fact did perceive to
be so.” Faragher, 524 U.S. at 787, 118 S.Ct. 2275.
Determining “whether an environment is ‘hostile’ or
‘abusive’” requires “looking at all the circumstances,”
such as “the frequency of the discriminatory conduct;

113a
its severity; whether it is physically threatening or
humiliating, or a mere offensive utterance; and
whether it unreasonably interferes with an
employee’s work performance.” Harris, 510 U.S. at
23, 114 S.Ct. 367. If the harassment is sufficiently
severe, it may result in a “hostile-environment
constructive discharge,” which exists where “working
conditions [are] so intolerable that a reasonable
person would have felt compelled to resign.” Penn.
State Police v. Suders, 542 U.S. 129, 147, 124 S.Ct.
2342, 159 L.Ed.2d 204 (2004).
The Supreme Court has contrasted hostile work
environment claims with another type of sexual
harassment: quid pro quo. A quid pro quo claim exists
where a supervisor’s threats to retaliate if the
employee does not comply with sexual demands are
carried out. Ellerth, 524 U.S. at 752–53, 118 S.Ct.
2257. These quid pro quo cases, unlike hostile work
environment cases, involve an explicit alteration in
the terms and conditions of employment. Id. at 752,
118 S.Ct. 2257. The Supreme Court summarized the
difference in the proof required for these claims:
When a plaintiff proves that a tangible
employment action resulted from a refusal to
submit to a supervisor’s sexual demands, he or
she establishes that the employment decision
itself constitutes a change in the terms and
conditions of employment that is actionable
under Title VII. For any sexual harassment
preceding the employment decision to be
actionable, however, the conduct must be
severe or pervasive.
Id. at 753–54, 118 S.Ct. 2257 (emphases added).

114a
“A tangible employment action constitutes a
significant change in employment status, such as
hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing a significant change in benefits.” Id. at 761,
118 S.Ct. 2257. 7 But Ellerth delineated tangible
employment actions “only to ‘identify a class of
[hostile work environment] cases’ in which an
employer should be held vicariously liable (without an
affirmative defense) for the acts of supervisors.”
Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S.
53, 64, 126 S.Ct. 2405, 165 L.Ed.2d 345 (2006)
(alteration in original) (quoting Ellerth, 524 U.S. at
760, 118 S.Ct. 2257). “Ellerth did not discuss the
scope of the general antidiscrimination provision.” Id.
Rather, the Court was focused on changes in
employment status because it was considering
“action[s] result[ing] from a refusal to submit to a
supervisor’s sexual demands.” Ellerth, 524 U.S. at
753, 118 S.Ct. 2257. As such, the scope of “tangible
employment action” is, at least in theory, narrower
7

It is important to note that Ellerth’s definition of tangible
employment action, along with the Court's jurisprudence on
hostile work environment claims, covers both the existence of
discrimination (i.e., unfavorable treatment) and that it was
taken with respect to hiring, firing, or the other terms, conditions, and privileges of employment. It is necessary to consider
the required degree of unfavorable treatment separately from
the aspects of employment that are protected.
Additionally, Ellerth dealt only with discriminatory actions
taken after commencement of employment, which is why it discussed tangible employment actions in terms of a change in
employment status. Ellerth did not address discriminatory
treatment existing since the inception of employment or the
provision of benefits.

115a
than the scope of “adverse employment action,” as the
latter draws in not only concrete actions affecting job
status but also the constructive alteration of the
conditions of employment.
This court adopted the concept of an “adverse
employment action” as a shorthand for describing
Title VII’s requirement that discrimination is
actionable only if taken with respect to hiring, firing,
or the other terms, conditions, and privileges of
employment. We “liberally define[ ] the phrase
‘adverse employment action,’” Sanchez, 164 F.3d at
532, and “take a case-by-case approach, examining
the unique factors relevant to the situation at hand,”
id. (internal quotation marks omitted), to assess
whether such action has occurred.
Adverse
employment actions “are not simply limited to
monetary losses in the form of wages or benefits.” Id.
But this court “will not consider ‘a mere inconvenience
or an alteration of job responsibilities’ to be an adverse
employment action.” Id. (quoting Crady, 993 F.2d at
136). Similarly, “conduct that has no more than a de
minimus impact on the employee’s future job
opportunities is not an adverse employment action.”
Wilson v. Harvey, 156 F. App’x 55, 58 (10th Cir. 2005)
(unpublished). This means that “not every perceived
indignity will rise to the level of an adverse
employment action.” C.R. Eng., 644 F.3d at 1041
(quoting Haynes v. Level 3 Communications, LLC, 456
F.3d at 1222).
Notwithstanding our ostensibly liberal definition of
the phrase, see Sanchez, 164 F.3d at 532, and despite
the limitations of Ellerth’s holding, this court has on
occasion equated “adverse employment action” with
“tangible employment action.” See, e.g., Hiatt v. Colo.

116a
Seminary, 858 F.3d 1307, 1316 (10th Cir. 2017) (“For
discrimination claims, an adverse employment action
is a significant change in employment status, such as
hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing a significant change in benefits.” (internal
quotation marks omitted)); Annett v. Univ. of Kan.,
371 F.3d 1233, 1237–38 (10th Cir. 2004) (relying on
Ellerth’s definition of tangible employment action to
define adverse employment action); Meiners v. Univ.
of Kan., 359 F.3d 1222, 1230 (10th Cir. 2004) (“The
adverse action must amount to a significant change in
employment status, such as firing, failing to promote,
reassignment
with
significantly
different
responsibilities, or a decision causing a significant
change in benefits.” (internal quotation marks
omitted)); Stinnett v. Safeway, Inc., 337 F.3d 1213,
1217 (10th Cir. 2003) (“Conduct rises to the level of
‘adverse employment action’ when it constitutes a
significant change in employment status, such as
hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing a significant change in benefits.” (internal
quotation marks omitted)).
Thus, while the with-respect-to clause covers
activity broader than identified in Ellerth, in using
the term “adverse employment action” as a shorthand
for the requirements of that clause, we have
sometimes unnecessarily narrowed its reach. But
even where there is no requirement that
discriminatory conduct be undertaken with respect to
an employment action—as in Title VII anti-retaliation
claims—the plaintiff must still show more than de
minimis harm. See White, 548 U.S. at 64, 67, 126

117a
S.Ct. 2405 (stating that while Title VII’s “antiretaliation provision, unlike the substantive
provision, is not limited to discriminatory actions that
affect the terms and conditions of employment,” that
provision “protects an individual not from all
retaliation, but from retaliation that produces an
injury or harm”).
3.

What the ADA Covers

Turning back to the ADA, because the in-regard-to
clause must be given some meaning, I would interpret
the clause as tying the claimed discrimination to
employment by providing an expansive, but not
exclusive, list of the protected relationships with the
employer. See 29 C.F.R. § 1630.4(a)(1). And I would
look to analogous Title VII jurisprudence to fill the
remaining gaps.
When interpreting the ADA, this court has adopted
Title VII’s concepts of both adverse employment
action, see Lincoln, 900 F.3d at 1192–93; C.R. Eng.,
Inc., 644 F.3d at 1040; Mathews, 263 F.3d at 1167, and
hostile work environment, see Lanman, 393 F.3d at
1156. That is, the plaintiff can make out an ADA
discrimination claim either by showing an express
change or disparity in the terms or conditions of
employment, or by showing a constructive change or
disparity in those terms or conditions based on
pervasive hostility or discomfort. Under the latter
approach, a plaintiff need not wait for an explicit
change in the terms or conditions of employment to
advance a claim for failure to accommodate. Instead,
where the failure to accommodate results in a
constructive alteration in those terms or conditions,

118a
the employee can satisfy § 12112(a)’s in-regard-to
clause.
As mentioned, some of this court’s decisions have
inappropriately
limited
the
term
“adverse
employment action” (for both Title VII and the ADA)
to Ellerth’s narrower definition of tangible
employment action. Labels such as “hostile work
environment,” “tangible employment action,” and
“adverse employment action” are helpful to the extent
they describe one method of satisfying the in-regardto clause. But when these judicially coined phrases
begin to take on a meaning of their own, divorced from
the text of the statute, they can become more harmful
than helpful to the goal of statutory construction. The
concept of adverse employment action appears headed
down this path, and I would turn back to the text of
the statute to stop that progression.
Like Title VII’s substantive provision, the ADA uses
terms such as “hiring,” “discharge,” “employee
compensation,” “job training,” and “other terms,
conditions, and privileges of employment,” 42 U.S.C.
§ 12112(a), thereby “explicitly limit[ing] the scope of
that provision to actions that affect employment or
alter the conditions of the workplace,” see White, 548
U.S. at 62, 126 S.Ct. 2405. But the terms, conditions,
and privileges of employment include not only
“benefits that are part of an employment contract,”
Hishon, 467 U.S. at 74, 104 S.Ct. 2229, but also
“[t]hose benefits that comprise the ‘incidents of
employment,’ or that form ‘an aspect of the
relationship between the employer and employees,’”
id. at 75–76, 104 S.Ct. 2229 (citation and footnotes
omitted) (quoting S. Rep. No. 867, at 11; then quoting
Allied Chem. & Alkali Workers, 404 U.S. at 178, 92

119a
S.Ct. 383). And the “terms, conditions, or privileges”
language “is not limited to ‘economic’ or ‘tangible’
discrimination.” Meritor Sav. Bank, 477 U.S. at 64,
106 S.Ct. 2399.
It is this more expansive reading of the in-regard-to
clause that I believe governs a claim under the ADA.
I turn now to application of that reading.
B. Application of the In-Regard-To Clause
The last step in analyzing claims under the ADA is
tying the discrimination clause (through the specific
discriminatory theory) to the in-regard-to clause. The
requirement that the discrimination be “in regard to”
one of the protected aspects of an employer’s
relationship provides the final limitation on the type
of discrimination actionable under the ADA. As with
Title VII’s substantive and anti-retaliation provisions,
not every discriminatory action (or omission) is
covered by the ADA. See Meritor, 477 U.S. at 64, 67,
106 S.Ct. 2399 (recognizing that although when “a
supervisor sexually harasses a subordinate because of
the subordinate’s sex, that supervisor ‘discriminate[s]’
on the basis of sex,” “not all workplace conduct that
may be described as ‘harassment’ affects a ‘term,
condition, or privilege’ of employment” (alteration in
original)); White, 548 U.S. at 67, 126 S.Ct. 2405 (“The
anti-retaliation provision protects an individual not
from all retaliation, but from retaliation that produces
an injury or harm.”); id. at 68, 126 S.Ct. 2405
(requiring a plaintiff to show “material adversity
because . . . it is important to separate significant from
trivial harms”). In short, the discrimination must be
in regard to the employment-related aspects covered

120a
by § 12112(a) and it must cause more than de minimis
harm.
The method of tying together the discrimination and
in-regard-to clauses varies for each discrimination
theory. For example, a disparate-treatment claim—
where “the protected trait . . . actually motivated the
employer’s decision,” Raytheon Co. v. Hernandez, 540
U.S. 44, 52, 124 S.Ct. 513, 157 L.Ed.2d 357 (2003)
(quoting Hazen Paper Co. v. Biggins, 507 U.S. 604,
610, 113 S.Ct. 1701, 123 L.Ed.2d 338 (1993))—
brought under § 12112(b)(1) requires analyzing
whether the unfavorable treatment was in regard to
the covered aspects. Conversely, a disparate-impact
claim—based on “employment practices that are
facially neutral in their treatment of different groups
but that in fact fall more harshly on one group than
another and cannot be justified by business
necessity,” id. (quoting Int’l Brotherhood of Teamsters
v. United States, 431 U.S. 324, 335 n.15, 97 S.Ct. 1843,
52 L.Ed.2d 396 (1977))—brought under § 12112(b)(6)
necessitates determining whether the “qualification
standards, employment tests or other selection
criteria” used by the employer “screen[ed] out or
tend[ed] to screen out an individual with a disability
or a class of individuals with disabilities” in regard to
those covered aspects.
Failure-to-accommodate claims require a different
method of proof. The plaintiff must show that the
employer did not make “reasonable accommodations
to the known physical or mental limitations of an
otherwise qualified individual with a disability who is
an applicant or employee” in regard to the terms or
conditions of employment. 42 U.S.C. § 12112(a),
(b)(5)(A).
Thus, an employer violates the

121a
discrimination and in-regard-to clauses by failing to
make reasonable accommodations that are necessary
to ensure an otherwise qualified individual with a
disability is placed on equal ground with other
employees in regard to the covered employment
relationships.
As illustrated in the following
hypotheticals, satisfaction of this two-prong claim
need not be difficult.
Consider the blind law clerk discussed by the
majority. See Maj. Op. at 799–800. Suppose the judge
rejects the request for a reader, accepts two draft
opinions per month from the blind clerk, while
requiring three from each of his sighted clerks, and
reduces the blind clerk’s pay by one-third. Under
those circumstances, the failure to provide reasonable
accommodation is “in regard to” employee
compensation and would be actionable under the
ADA.
I would view the claim differently if there are no
employment-related consequences of the blind law
clerk’s failure to meet the three-opinion requirement.
If the judge does not provide a reasonable
accommodation but also does not take any
disciplinary action against the blind clerk, I would
conclude that the judge’s failure to provide a
reasonable accommodation was not in regard to the
covered aspects of employment. Cf. Sanchez, 164 F.3d
at 532 (stating that while we “liberally define[ ] the
phrase ‘adverse employment action,’” we nevertheless
“will not consider . . . an alteration of job
responsibilities to be an adverse employment action”
(internal quotation marks omitted)). Similarly, if the
judge terminated the blind clerk for breaches of
chambers confidentiality—completely unrelated to

122a
the failure to produce three opinions per month—the
judge has similarly not failed to provide a reasonable
accommodation in regard to the covered aspects.
To take the hypothetical one step further, I am
convinced the blind clerk would have a claim under
the ADA if the failure to accommodate constructively
impacted her conditions of employment. Suppose the
judge is content with the clerk’s two opinions per
month, but her co-clerks are not. In response, those
clerks make abusive comments, interfere with the
blind clerk’s performance by rearranging the
furniture, and generally subject her to a hostile work
environment. Much like a claim under Title VII, if the
failure to accommodate resulted in the disabled
employee being subjected to pervasive harassment, I
would conclude that it is in regard to the conditions of
employment.
Thus, I am not persuaded by the amici’s 8 concern
that the panel majority’s imposition of an adverse
employment action requirement in failure to
accommodate cases would prohibit claims by “a
person with a condition affecting bladder control [ ]
who soils herself because the employer refuses to
grant her a workstation near the restroom,” a
“veteran with PTSD” who “need[s but is prohibited
from bringing to work] an emotional support animal
to deal with anxiety and panic attacks,” and has “to
endure anxiety and panic attacks throughout the
workday,” PELA Br. at 56, or an employee who is
8

The amici include the Colorado Plaintiff Employment
Lawyers Association, the National Disability Rights Network,
the National Employment Lawyers Association, and the United
States.

123a
forced to work in significant pain when the employer
denies a request for reasonable accommodations.
Although the amici’s concerns might be valid if
evaluated under the narrow definition of adverse
employment action I reject above, they do not carry
the same weight when the interpretation of the inregard-to clause is true to its statutory language and
guidance from Title VII. Under my interpretation,
these claims would be analyzed to determine whether
the impact of the failure to provide reasonable
accommodation is sufficiently severe or pervasive to
alter the terms or conditions of employment. Cf.
Vande Zande v. Wisc. Dep’t of Admin., 44 F.3d 538,
546 (7th Cir. 1995) (“The duty of reasonable
accommodation is satisfied when the employer does
what is necessary to enable the disabled worker to
work in reasonable comfort.”). Under this test, an
employee required to work in significant pain, an
employee forced to soil herself, or an employee who
suffers anxiety and panic attacks could easily show
the impact of the failure to accommodate altered the
terms or conditions of employment, as these
situations all clearly amount to more than “a mere
inconvenience.” Sanchez, 164 F.3d at 532. As the
D.C. Circuit has reasoned,
if working conditions inflict pain or hardship on
a disabled employee, the employer fails to
modify the conditions upon the employee’s
demand, and the employee simply bears the
conditions, this could amount to a denial of
reasonable accommodation, despite there being
no job loss, pay loss, transfer, demotion, denial
of advancement, or other adverse personnel
action.

124a
Marshall, 130 F.3d at 1099; see also Hill, 897 F.3d at
239 (“A reasonable jury could conclude that forcing
[an employee] to work with pain when that pain could
be alleviated by his requested accommodation violates
the ADA.”).
With this framework in mind, I turn to the jury
instructions given in this case.
IV. JURY INSTRUCTIONS
The district court instructed the jury that Ms. ExbyStolley must prove she “was discharged from
employment or suffered another adverse employment
action by [the County].” App. at 440. The jury
instructions defined adverse employment action as “a
significant change in employment status, such as
hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing a significant change in benefits.” Id. at 449.
In other words, the district court instructed the jury
that an adverse employment action is the equivalent
of a tangible employment action under Ellerth.
For the reasons discussed above, I believe this
construction is too narrow. The ADA’s in-regard-to
clause covers a significantly greater swath of
employment relationships than those reflected in
tangible employment actions. But that does not mean
the restrictive definition included in the jury
instructions resulted in prejudicial error based on the
in-regard-to aspects at issue in this case.
The district court need not instruct the jury on every
facet of the in-regard-to clause in every case. If, for
example, a plaintiff alleges discrimination in regard
to hiring, it would be unnecessarily confusing to

125a
instruct the jury that the in-regard-to clause includes
“[j]ob assignments, job classifications, organizational
structures, position descriptions, lines of progression,
. . . seniority lists” and “[f]ringe benefits available by
virtue of employment,” 29 C.F.R. § 1630.4(a)(1),
because the plaintiff did not allege discrimination in
regard to those aspects of the employment
relationship. Requiring the court to instruct on every
aspect of the in-regard-to clause in every case could
result in a finding of liability for a discriminatory act
not alleged or one that occurred outside the statute of
limitations. Here, Ms. Exby-Stolley claimed she was
terminated from employment based on her disability.
The jury instructions, which included firing in the
definition of adverse employment action, adequately
covered this theory.
On appeal, Ms. Exby-Stolley makes two arguments
challenging those instructions. First, she argues that
a failure-to-accommodate claim does not require
proving an adverse employment action. Although I
would more broadly define “adverse employment
action” to accurately reflect the standards imposed by
the in-regard-to clause, I would hold that Ms. ExbyStolley was required to satisfy that clause to prove her
failure-to-accommodate claim. That is, unlike the
majority, I do not read the statute as providing that
satisfaction of the discrimination clause is sufficient.
Second, Ms. Exby-Stolley argues that if an adverse
employment action was required, the district court
should have instructed the jury that constructive
discharge is an adverse employment action. 9 Ms.
9

Importantly, this was the only challenge to the district court’s
construction of what constitutes an adverse employment action

126a
Exby-Stolley is correct that constructive discharge
satisfies the in-regard-to clause.
See Green v.
Brennan, — U.S. —, 136 S. Ct. 1769, 1776–77, 195
L.Ed.2d 44 (2016). But I agree with the panel
majority that Ms. Exby-Stolley failed to allege
constructive
discharge—either
for
disparate
treatment or failure to accommodate—and therefore
was not entitled to a jury instruction including that
theory. See Exby-Stolley, 906 F.3d at 918–19. The
jury was instructed that termination of employment
is an adverse employment action, but it was not
convinced that Ms. Exby-Stolley had been fired.
For these reasons I would conclude that the jury
instructions in this case, at least in relation to the
allegations raised, “accurately informed the jury of
the governing law,” Sherouse v. Ratchner, 573 F.3d
1055, 1060 (10th Cir. 2009), and did not mislead the
jury in any way, Nat’l Env’t Serv. Co. v. Ronan Eng’g
Co., 256 F.3d 995, 1004 (10th Cir. 2001). And, as a
result, I would affirm the jury’s verdict.
V. CONCLUSION
Section § 12112(b) of the ADA identifies seven
circumstances that satisfy the discrimination clause
in § 12112(a), one of two express requirements in Title
I’s general proscription of employment discrimination
on the basis of disability. But the construction of
§ 12112(a), as dictated by its plain language, does not
allow those enumerated examples of discrimination to
displace the second express requirement—the inregard-to clause. Because the majority fails to give
preserved by Ms. Exby-Stolley in her opening brief. See Adler v.
Wal-Mart Stores, Inc., 144 F.3d 664, 679 (10th Cir. 1998).

127a
effect to that independent requirement, I cannot join
in its analysis.
Instead, reviewing the jury
instructions in light of the allegations advanced, I
would uphold the jury’s verdict. Accordingly, I
respectfully dissent.

HARTZ, J., Circuit Judge, joined by TYMKOVICH,
C.J., dissenting.
I join almost all of Judge McHugh’s dissent. I write
separately only to note the minor difference in our
views and to express a few other observations about
the dispute before the en banc court. I will limit any
repetition of what already appears in that dissent and
in my panel opinion.
My sole discomfort with Judge McHugh’s dissent
concerns the discussion of the scope of the ADA
provision restricting discrimination prohibited by the
Act to discrimination “in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, and
other terms, conditions, and privileges of
employment.” 42 U.S.C. § 12112(a). This provision is
similar to provisions limiting liability under other
antidiscrimination statutes, in particular Title VII,
which restricts liability to discrimination “with
respect to [an individual’s] compensation, terms,
conditions, or privileges of employment.” 42 U.S.C.
§ 2000e-2(a).
The Title VII language is often
paraphrased as requiring proof of an adverse
employment action. Following that tradition, I will
refer to the above-quoted language of the ADA as the
adverse-employment-action requirement.

128a
I have concerns that this court’s prior caselaw has
too narrowly circumscribed what constitutes an
adverse employment action. Judge McHugh’s dissent
may well provide the proper correction to that
caselaw. But I think we should refrain from opining
on that issue in this case. To begin with, the issue was
not raised before the panel or in the panel opinions.
Appellant Exby-Stolley’s argument was that there is
no adverse-employment-action requirement for a
failure-to-accommodate claim. She argued that there
should have been no instruction whatsoever on the
notion of an adverse employment action, not that the
instruction given was too restrictive. The gist of the
opinion of the panel majority was quite simple and
straightforward: First, the opinion looked for the
source of the adverse-employment-action requirement
in employment-discrimination claims and concluded
that the requirement derives from the language in
employment discrimination statutes limiting liability
to discrimination that is “with respect to” or “in regard
to” the “terms, conditions, or privileges of
employment.” In other words, the term adverse
employment action is merely shorthand for expressing
the terms-or-conditions statutory language. Second,
the opinion looked at the text of § 12112 and concluded
that the terms-or-conditions language of subsection
(a) applied to all discrimination claims under that
section, including failure-to-accommodate claims.
Because this circuit has considerable precedent
regarding the meaning of adverse employment action,
and because Appellant did not argue that the meaning
of the term should be modified for failure-toaccommodate cases, the panel proceeded, quite
naturally in my view, to apply our caselaw to the case
at hand.

129a
Nor did this court’s order granting en banc
rehearing request briefing on the meaning of adverse
employment action. The only question that we
requested the parties to address specifically in their
supplemental briefing was “[w]hether an adverse
employment action is a requisite element of a failureto-accommodate claim under the [ADA].” Order at 2,
Dec. 18, 2018. To be sure, the meaning of adverse
employment action—that is, the meaning of the termsor-conditions language in employment-discrimination
statutes—has been raised during the en banc
proceedings. But the only brief to raise the issue is
the amicus brief submitted by the federal government.
It criticizes not only the panel opinion’s
understanding of what constitutes an adverse
employment action but also argues that this court has
misinterpreted the statutory language in other
contexts, including claims under Title VII.
Although the government’s brief and oral argument
make a good case that we have adopted a toorestrictive notion of adverse employment action, I
think it would be unfortunate for this court to
abandon long-standing precedent without receiving
briefing from interested persons with other points of
view. There are important issues that need to be
explored. I recognize the temptation to adopt a very
broad interpretation of adverse employment action,
because all discrimination (including the failure to
make reasonable accommodations for a disabled
person) is offensive.
But the employmentdiscrimination statutes were not intended to prohibit
all offensive discriminatory conduct at the workplace.
For example, not all bigoted statements by
supervisors to their subordinates create a cause of

130a
action. Whether they create a prohibited hostile work
environment depends on “the frequency of the
discriminatory conduct; its severity; whether it is
physically threatening or humiliating, or mere
offensive utterance; and whether it unreasonably
interferes with an employee’s work performance.”
Harris v. Forklift Systems, Inc., 510 U.S. 17, 23, 114
S.Ct. 367, 126 L.Ed.2d 295 (1993) (internal quotation
marks omitted). The ADA, perhaps more than any of
the other employment-discrimination statutes,
signals in the language used to create the adverseemployment-action requirement that it applies only to
significant employment discrimination. It does not
merely state that discrimination must be with respect
to the “terms, conditions, or privileges of
employment,” which in itself could be interpreted
quite broadly. It even goes beyond the Title VII
language that discrimination must be “with respect to
. . . compensation, terms, conditions, or privileges of
employment.”
The ADA requires that the
discrimination be “in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, and
other terms, conditions, and privileges of
employment.” 42 U.S.C. § 12112(a). Under the
ejusdem generis canon of statutory construction, the
words “other terms, conditions, and privileges of
employment” should be read to mean “terms,
conditions, and privileges of employment” similar to
“job application procedures, the hiring, advancement,
or discharge of employees, employee compensation,
[and] job training.” See, e.g., Babb v. Wilkie, — U.S.
—, 140 S. Ct. 1168, 1176 n.4, 206 L.Ed.2d 432 (2020)
(in construing “to fail or refuse to hire or to discharge
any individual or otherwise discriminate against any

131a
individual with respect to his compensation, terms,
conditions, or privileges of employment,” in the Age
Discrimination in Employment Act, 29 U.S.C.
§ 623(a)(1), the italicized phrase, although it could
independently be “read more broadly to encompass
things that occur before a final decision is made,”
should, under the ejusdem generis canon, be read “to
refer—like the prior terms—to the final decision”
(emphasis added)). The ADA statutory language
certainly encompasses a great deal of employer action,
but it is all significant action. And the list of those
actions in the statute amounts to surplusage if the
statute covers any terms, conditions, or privileges of
employment.
One might argue that there is no need for an
adverse-employment-action instruction in failure-toaccommodate cases because every failure-toaccommodate claim necessarily concerns an adverse
employment action. This may be true, for example, in
jurisdictions where a request for accommodation must
be for an accommodation that would enable the
disabled employee to perform the essential functions
of a job. See, e.g., Graves v. Finch Pruyn & Co., Inc.,
457 F.3d 181, 184 (2d Cir. 2006) (in reasonableaccommodation case the plaintiff bears the burden of
showing, among other things, “(3) with reasonable
accommodation, plaintiff could perform the essential
functions of the job at issue; and (4) the employer has
refused to make such accommodations”); Skerski v.
Time Warner Cable Co., 257 F.3d 273, 284 (3d Cir.
2001) (“[A] disabled employee may establish a prima
facie case under the ADA if s/he shows that s/he can
perform the essential functions of the job with
reasonable accommodation and that the employer

132a
refused to make such an accommodation.”); Manual of
Model Civil Jury Instructions for the District Courts
of the Ninth Circuit, § 12.7 (plaintiff in reasonableaccommodation case must prove that “a reasonable
accommodation is available that would have enabled
the plaintiff to [apply or qualify for] [perform the
essential functions of] the job” (brackets in original)).1
But to say that an adverse-employment action
instruction is unnecessary is not to say that it is
incorrect (as opposed to superfluous); and it may be
useful in cases, such as this, where the absence of an
adverse employment action frees the jury from having
to determine whether the employer acted
unreasonably in failing to make an accommodation.
That is, if the jury determines that there has been no
adverse employment action, it need not tackle the
other elements of a discrimination claim.
In my view, it is worth awaiting an appropriate case
in which there is focused argument on the scope of the
adverse-employment-action requirement of the ADA,
even though we may ultimately resolve the issue in
the way recommended by Judge McHugh’s dissent.
(On the other hand, if the Supreme Court decides to
review this case, which could be very helpful to the
lower courts, I am sure that it will be offered an ample
supply of briefs that would be useful in construing the
terms-or-conditions language in the various
employment-discrimination statutes.)

1

It is not clear to me where these authorities get the essentialfunctions-of-the-job requirement. I see nothing in the language
of § 12112(b)(5)(A) that would impose that restriction. Perhaps
the terms-or-conditions language of § 12112(a) could be the
source.

133a
I would also like to add some observations about the
en banc opinion’s use of judicial authority. None of
the circuit cases cited in that opinion are binding on
this en banc court on the issue of whether an adverse
employment action is required to state a reasonableaccommodation claim. Their value to this court is in
their persuasiveness. In that respect, they are sorely
lacking. Not one of those cases explains why there is
no adverse-action requirement. Not one addresses the
textual argument made in Judge McHugh’s dissent or
the panel majority opinion. In only two or three was
the issue raised by the parties, and in only one
(Garrison v. Dolgencorp, LLC, 939 F.3d 937, 942 n.1
(8th Cir. 2019)) was resolution of the issue apparently
necessary to decide the appeal—indeed, in almost all
of them there was an obvious adverse-employmentaction, such as termination. The essential elements
of persuasive authority are missing. See Garner, et
al., The Law of Judicial Precedent § 16 (2016) (“When
an earlier decision is cited not as a binding precedent
but as persuasive authority, its value is enhanced by
sound, acute, and logical reasoning; by internal
evidence that the case received the careful
consideration of the court; and by the citation of
pertinent authorities. Its value is diminished by the
absence of any of these characteristics.”). I do not
share the optimism of the en banc opinion that the
authors of these opinions must have thoughtfully
considered whether an adverse employment action
was required to state a reasonable-accommodation
claim. Perhaps my view is based only on selfexamination, but I think it is asking quite a bit of
judges to expect them to examine every nuance of the
issues in the case, considering circumstances that not
only are absent from the case before the judge but are

134a
rarely if ever present in litigation before the courts,
and then to craft every sentence in their opinions so
carefully that there can be no mistake about the limits
of their statements of the law. It is not unusual for
courts to use language that is too broad or imprecise.
How often do appellate courts state when they review
a grant of summary judgment that they will apply
“the same standard as the district court”? Yet it would
be foolish to apply the same standard as the district
court when the district court applied the wrong
standard. Consider also how often we state that a
statute is constitutional or a jury instruction was
correct, when we really mean only that we are
rejecting the specific challenges to the statute or jury
instruction in that case. In short, we should be
reluctant to treat opinions as persuasive on
propositions for which there is no supporting analysis.
My skepticism about whether the cited authorities
considered whether an adverse employment action (or
at least something relating to the terms, conditions,
or privileges of employment) is required for a failureto-accommodate claim is enhanced by what happened
in this case. The en banc opinion points out that the
EEOC regulations and manual for the ADA discuss
the reasonable-accommodation requirement without
saying anything about an adverse-employment-action
requirement, and it infers from this omission that the
EEOC believes that there is no such requirement in
failure-to-accommodate cases. I drew no inference
from that omission, because the reasonableaccommodation regulations and manual are
addressing only the law specifically stating the
reasonable-accommodation requirement.

135a
There is no need to address global requirements in
each portion of the regulations or manual that
concerns specific types of discrimination. And indeed,
the amicus brief of the federal government shows that
the en banc opinion’s inference is incorrect. The
amicus brief was in harmony with the panel majority,
not the panel dissent, when it stated unequivocally
that “to prevail on a failure-to-accommodate claim
under Title I, a qualified individual must show that a
denied accommodation pertains to her terms,
conditions, or privileges of employment.” Government
Amicus Br. at 14. (What it criticized about the panel
opinion was this court’s interpretation—over the
years and in claims under Title VII as well as the
ADA—of the statutory language by, in the
government’s view, defining adverse employment
action too narrowly.) The government’s responses at
oral argument forcefully confirmed its position that,
contrary to the en banc majority opinion, the statutory
language requiring that discrimination be “in regard
to job application procedures, the hiring,
advancement, or discharge of employees, employee
compensation, job training, and other terms,
conditions, and privileges of employment”, 42 U.S.C.
§ 12112(a), applies to failure-to-accommodate claims.
Finally, a few words about the implications of the en
banc opinion. I am confident that it will not escape
the attention of the employment-law bar that all of the
opinion’s textual argument against imposing an
adverse-employment-action requirement applies to
every employment discrimination claim, whether
under the ADA, Title VII, or otherwise. After all, the
term adverse employment action does not appear in
any of those statutes and all of those statutes define

136a
discrimination as conduct we would find offensive,
often abhorrent, regardless of the effect on a victim’s
employment. True, the en banc opinion also presents
a policy reason for not imposing an adverseemployment-action
requirement
in
failure-toaccommodate claims. But the argument strikes me as
deeply flawed. In essence it states that Congress
wanted to develop the full potential of every disabled
employee and required employers to make all
reasonable efforts to accomplish that, regardless of its
impact on the disabled person’s employment. That is
certainly a worthy aspiration. But is it any worthier
than prohibiting racial, gender, or religious
discrimination against every employee, even if the
discrimination is only the “inconvenience” of a lessattractive office or more-distant parking space? It
appears to me from the statutory language that
Congress did not want to “make a federal case” of
every incident of discrimination in the workplace—
even failures to accommodate. But if we are to be
consistent with the en banc opinion, this circuit will
need to come up with some better justification for
applying the adverse-employment-action requirement
in typical employment-discrimination cases.

137a
APPENDIX B
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________
LAURIE EXBY-STOLLEY,
Plaintiff-Appellant,
v.
BOARD OF COUNTY COMMISSIONERS, WELD COUNTY,
COLORADO,
Defendant-Appellee.
UNITED STATES OF AMERICA; COLORADO PLAINTIFF
EMPLOYMENT LAWYERS ASSOCIATION; NATIONAL
DISABILITY RIGHTS NETWORK; NATIONAL
EMPLOYMENT LAWYERS ASSOCIATION,
Amici Curiae.
_________
No. 16-1412
_________
Filed: October 28, 2020
_________
No. 16-1412
(D.C. No. 1:13-CV-03195-WYD-NYW)
(D. Colo.)
_________
JUDGMENT
_________

138a
Before TYMKOVICH, Chief Judge, KELLY,
BRISCOE,
LUCERO,
HARTZ,
HOLMES,
MATHESON,
BACHARACH,
PHILLIPS,
McHUGH, MORITZ, EID, and CARSON, Circuit
Judges.
_________
This case originated in the District of Colorado and
was argued by counsel.
The judgment of that court is reversed. The case is
remanded to the United States District Court for the
District of Colorado for further proceedings in
accordance with the opinion of this court.
Entered for the Court,
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT, Clerk

139a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________
LAURIE EXBY-STOLLEY,
Plaintiff-Appellant,
v.
BOARD OF COUNTY COMMISSIONERS, WELD COUNTY,
COLORADO,
Defendant-Appellee.
_________
No. 16-1412
_________
Filed: October 11, 2018
_________
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:13-CV-03195-WYD-NYW)
_________
Jason B. Wesoky (Bruce G. Smith, with him on the
briefs), Darling Milligan PC, Denver, Colorado, for
Plaintiff-Appellant.
Alan Epstein (Thomas J. Lyons, Mark S. Ratner, and
Matthew J. Hegarty, with him on the brief), Hall &
Evans, L.L.C., Denver, Colorado, for DefendantAppellee.
_________

140a
Before HARTZ, KELLY, and HOLMES, Circuit
Judges.
_________
HARTZ, Circuit Judge.
_________
Plaintiff Laurie Exby-Stolley sued her former
employer, the Board of County Commissioners of
Weld County, Colorado (the County), under the
Americans with Disabilities Act (ADA) in the United
States District Court for the District of Colorado. She
alleged that the County had failed to accommodate
her disability, resulting in the loss of her job. The jury
returned a verdict for the County. She appeals,
claiming three errors in her trial: (1) the district court
improperly instructed the jury that she needed to
prove she had suffered an adverse employment action;
(2) the district court refused to instruct the jury on a
claim of constructive discharge or allow her to argue
constructive discharge in closing argument; and (3)
the district court misallocated the burden of proof in
its undue-hardship jury instruction.
Exercising jurisdiction under 28 U.S.C. § 1291, we
affirm. First, an adverse employment action—that is,
a materially adverse decision regarding “application
procedures, . . . hiring, advancement, . . . discharge,
. . . compensation, . . . training [or] other terms,
conditions, and privileges of employment,” 42 U.S.C.
§ 12112(a)—is an element of all discrimination claims
under the ADA, including those based on the failure
to accommodate a disability. Second, Plaintiff’s
request for a constructive-discharge instruction was
untimely. And finally, any error in the undue-

141a
hardship instruction was harmless because the jury
instruction was irrelevant to the ground on which the
jury rejected her claim.
I.

BACKGROUND

Plaintiff worked as a health inspector for the
County. Her job required her to inspect restaurants,
bars, and other places that handle food, interview
employees, and observe safety practices. While on the
job in late 2009, she broke her right arm. This
required prolonged treatment, including two
surgeries, the second of which was in November 2011.
Because of her injury, she had to use makeshift
devices to assist her in her tasks, such as lifting,
moving, and opening objects, and she had to learn to
write using her left hand. The inspections therefore
took her longer than before, and she could not
complete the number of inspections required of those
in her position.
There are two rather different versions of efforts to
accommodate these impairments: Plaintiff’s version
and the version presented by the County. We begin
with Plaintiff’s version. In March 2012 she received a
poor performance evaluation because of various
issues, including being behind in her work. To explain
her difficulty, she spoke to her two supervisors, Sara
Evans and Deb Adamson. Adamson said she could not
modify Plaintiff’s workload without an evaluation
from her doctor, so Plaintiff, worried about her job,
went to her worker’s-compensation doctor. The doctor
prepared a report setting forth restrictions on her
activity and sent it to Michelle Raimer, a humanresources analyst for the County. After reviewing the
doctor’s report, Adamson asked Plaintiff for a list of

142a
physical activities that had been a problem for her.
Plaintiff requested a meeting with someone from
human resources to discuss accommodations so that
she could keep her job, and she then met with
Adamson and Raimer. At the meeting Raimer said
that human resources had never come up with
accommodations for someone in Plaintiff’s position.
Raimer then arranged for Plaintiff to begin working
in April at a part-time office job, which Plaintiff
understood would be a temporary assignment.
Plaintiff did not like the work. In May, Trevor Jiricek
(to whom Evans and Adamson reported) asked her
why she simply did not go on disability. Jiricek
expressed anger when she said that she did not want
to go on disability.
Plaintiff returned to her worker’s-compensation
physician on June 6. On that visit he established what
her permanent restrictions would be. Plaintiff
requested another meeting with Raimer and Adamson
to discuss accommodations. The meeting was held on
June 19. Attending were Plaintiff, Adamson, Jiricek,
and a physician. Plaintiff suggested various
accommodations at the meeting, but her suggestions
were rejected, and the others did not offer her
alternative accommodations. As she and Jiricek were
leaving the meeting he asked her if she wanted to
write a letter of resignation herself or have him do it,
and she felt that she was being told to resign. The two
of them then went to Raimer’s office, where they
discussed when her last day of work would be. They
looked at job openings with the County, but there was
nothing besides janitorial work that she was qualified
for. Raimer raised the possibility of long-term
disability, but that would not have allowed Plaintiff to

143a
return to her job without reapplying if she recovered.
Jiricek then left and Raimer provided some
paperwork to Plaintiff. On June 21, Plaintiff sent an
email to all her colleagues informing them that she
would no longer be working for the County effective
June 29. The email included the sentence, “After a
final evaluation with the physician and meeting with
management it is apparent I am no longer able to
perform the duties required in [my] job description.”
Supp. App. at 158.
Raimer had a different account of what happened
before the June 19 meeting. She testified that before
Plaintiff saw her worker’s-compensation physician in
March 2012, she had complained to Adamson about
pain she was suffering when performing her duties
and that Adamson had requested Plaintiff to prepare
a list of the problematic duties so they could try to find
a solution. Plaintiff would also call Raimer about her
pain, and Raimer similarly asked to have information
about specific tasks so she could be helpful. When
Raimer received the physician’s report, she discussed
the matter with Adamson and tried to come up with
ideas, such as reducing Plaintiff’s shift or her time in
the field performing duties that caused pain.
Adamson and Raimer then met with Plaintiff. After
discussing some alternatives, Raimer suggested
working half-time in the office. Such a temporary
modified duty required the employee’s consent, and
Plaintiff agreed. Raimer kept informed about how
Plaintiff was doing, but Plaintiff did not request any
further accommodations. Plaintiff did, however, raise
a question about what would happen if she received
permanent restrictions from the doctor, and Raimer

144a
responded that they would have to see if there were
any such restrictions and what they were.
Jiricek testified about the June 19 meeting attended
by Plaintiff, Adamson, and a County physician.
According to his testimony, Plaintiff requested that a
new position be created for her by piecing together
from her job and other positions various tasks that she
could perform. But he told her that other employees
were already doing the duties of the new job she
suggested for herself, and that it would not be fair or
workable to take lighter tasks from her fellow
employees to cobble together a new position for her.
As he understood her response, she said in essence
that if the County “couldn’t provide her that very
specific job, that she couldn’t do the job.” Aplt. App.,
Vol. IV at 835. He was “absolutely surprised” at her
response. Id. at 836. He met with her again about 20
minutes after the meeting to ask what she had meant,
and she indicated that she was resigning. So he asked
her if she needed help writing her resignation letter,
but she declined his offer.
About two hours later, Jiricek and Plaintiff went to
speak with Raimer. Jiricek testified that he did not
recall any discussion of resignation at the meeting. He
said they discussed accommodations, retraining, and
other possible positions for Plaintiff; he did not stay
for the whole meeting. Raimer testified that they
discussed accommodating Plaintiff in her present
position, finding other positions for her, and the
availability of disability insurance. She showed
Plaintiff a few jobs that were currently available, and
asked about the tasks of Plaintiff’s temporary parttime assignment. Although no concrete decisions were
reached in the meeting, Raimer viewed the meeting as

145a
part of an interactive process to explore means of
accommodating Plaintiff. Because finding a way to
accommodate an employee in her present position can
take six to eight months, Raimer did not expect this
meeting to conclude the search for a reasonable
accommodation. Rather, if Plaintiff had not resigned,
Raimer would have continued to pursue ideas for
accommodating her in her current position and to look
for an appropriate job reassignment with the County.
Plaintiff’s resignation letter a few days later surprised
Raimer.
Patricia Russell, the head of the County’s Human
Resources Department, was not at the meeting. But
she testified that at the time of Plaintiff’s resignation,
the County was far from terminating her, a process
that includes a determination by management, notice
to the employee, and a chance for the employee to
respond, as well as several appeals options. Not one of
these actions had been taken. Instead, Russell
testified:
We were still thinking we were in the
interactive process . . . We were still talking to
the department to figure out what
accommodations could be made. . . . [W]hat
accommodations could we make in the county,
in another department, other positions coming
open where we could place her . . . and she could
be successful. What did the employee want to
do. . . . We did not have those discussions. When
she resigned, . . . we stopped that process
because she was leaving.
Trial Tr. 5, ECF No. 241 (Jan. 24, 2017). Plaintiff filed
suit on May 30, 2013. Her amended complaint (the

146a
operative pleading in this case) alleged that the
County violated the ADA by failing to reasonably
accommodate her disability, failing to engage in the
ADA-required interactive process to find an
accommodation, and terminating her because her
physical restrictions did not allow her to perform all
the duties that her original job description included.
After a five-day trial the jury, in answer to special
interrogatories, found that Plaintiff had “proven by a
preponderance of the evidence that she had a
disability as defined in the instructions, at the time of
the employment actions in question” and that “she is
a qualified individual with a disability, as defined in
the instructions . . . .” Aplt. App., Vol. II at 419 (answer
to special interrogatories 1 and 2 on jury-verdict
form). But judgment was entered for the County
because the jury further found that Plaintiff had not
“proven by a preponderance of the evidence that she
was [discharged from employment][not promoted][or
other adverse action] by [the County] . . . .” Id. (answer
to special interrogatory 3) (brackets in original).1 The

1

Having found for the County in interrogatory 3, the jury did
not need to address the following four interrogatories:
4. Has Plaintiff proven by a preponderance of the
evidence that her disability was a substantial or
motivating factor that prompted [the County] to take
that action? . . . .
5. Has [the County] proven by a preponderance of the
evidence that providing a reasonable accommodation
would impose any undue hardship on the operation
of [the County’s] business? . . .
6. Has [the County] proven by a preponderance of the
evidence that it made a good faith effort to provide

147a
County had argued to the jury that placement of
Plaintiff on temporary halftime office duty was not an
adverse employment action because she fully agreed
with the change and lost no pay (the reduction was
offset by workers’ compensation payments); and the
County took no later action against her because she
voluntarily resigned.
II.
A.

DISCUSSION
Adverse Employment Action

On appeal Plaintiff first contends that the district
court erred in instructing the jury that she had to
prove she had suffered an adverse employment action.
“We review a district court’s decision to give a
particular jury instruction for abuse of discretion, but
we review de novo legal objections to the jury
instructions.” Lederman v. Frontier Fire Prot., Inc.,
685 F.3d 1151, 1154 (10th Cir. 2012) (internal
quotation marks omitted).
We reject Plaintiff’s contention because an adverse
employment action is an element of a failure-toaccommodate claim. The contrary view appears to
derive from two errors: (1) failure to consider the
statutory language requiring an adverse employment
reasonable accommodations
disability? . . . .

for

the

Plaintiff’s

7. Do you find that Plaintiff should be awarded
compensatory damages for emotional distress or
mental anguish she experienced as a result of [the
County’s] failure to accommodate her disability?
. . . . If your answer to question 7 is “yes,” in what
amount?
Aplt. App., Vol. II at 419–20 (special interrogatories 4–7).

148a
action and (2) an incorrect belief that the adverseemployment-action requirement is not mandated by
statute but is solely a creature of the framework
originally established in McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d 668
(1973), for proof by circumstantial evidence of
employment discrimination under Title VII and now
applied to other employment-discrimination statutes.
We begin by discussing the meaning of adverse
employment action and then describe its role in the
McDonnell Douglas framework.
The opening provision of the ADA states the general
rule:
No covered entity shall [1] discriminate against
a qualified individual on the basis of disability
[2] in regard to job application procedures, the
hiring, advancement, or discharge of
employees, employee compensation, job
training, and other terms, conditions, and
privileges of employment . . . .
42 U.S.C. § 12112(a) (emphasis added). The important
feature of this provision for present purposes is that it
is not enough to establish only “discrimination . . . on
the basis of disability.” The discrimination must be “in
regard to” certain features of employment. The inregard-to clause—which, as we shall see, applies to
failure-to-accommodate claims—is what requires
proof of an adverse employment action.
True, the language “adverse employment action”
does not appear in the ADA. This terminology,
however, is well established in judicial opinions. The
language of § 12112(a) tracks similar language from

149a
Title VII of the 1964 Civil Rights Acts, which prohibits
employers from discriminating on the basis of race,
color, sex, religion, or national origin “with respect to
[an individual’s] compensation, terms, conditions, or
privileges of employment.” 42 U.S.C. § 2000e-2(a)
(emphasis added). In Title VII cases, when federal
courts speak of an “adverse employment action,” they
are referring to this quoted element of a
discrimination claim. As the Seventh Circuit said in
Power v. Summers, 226 F.3d 815, 820 (7th Cir. 2000)
(Posner, J.), “ ‘[A]dverse employment action’ . . . is
judicial shorthand (the term does not appear in the
statutes themselves) for the fact that [employmentdiscrimination] statutes require the plaintiff to prove
that the employer’s action of which he is complaining
altered the terms or conditions of his employment.”
Other circuits have adopted the same shorthand. See
Bergeron v. Cabral, 560 F.3d 1, 7–8 (1st Cir. 2009)
(“The term ‘adverse employment action’ arose in the
Title VII context as a shorthand for the statutory
requirement that a plaintiff show an alteration in the
material terms or conditions of his employment.”);
Mathirampuzha v. Potter, 548 F.3d 70, 78 (2d Cir.
2008) (“An adverse employment action is a materially
adverse change in the terms and conditions of
employment.” (emphasis and internal quotation
marks omitted) ); Jones v. Se. Pa. Transp. Auth., 796
F.3d 323, 326 (3d Cir. 2015) (“[A]n adverse
employment action [is] an action by an employer that
is serious and tangible enough to alter an employee’s
compensation, terms, conditions, or privileges of
employment.” (internal quotation marks omitted) );
Thompson v. City of Waco, 764 F.3d 500, 503 (5th Cir.
2014) (“To establish a discrimination claim under
Title VII . . . , a plaintiff must prove that he or she was

150a
subject to an ‘adverse employment action’—a
judicially-coined term referring to an employment
decision that affects the terms and conditions of
employment.”); Michael v. Caterpillar Fin. Servs.
Corp., 496 F.3d 584, 593 (6th Cir. 2007) (“An adverse
employment action in the context of a Title VII
discrimination claim is a materially adverse change in
the terms or conditions of employment because of the
employer’s actions.” (internal quotation marks
omitted) ); Davis v. Team Elec. Co., 520 F.3d 1080,
1089 (9th Cir. 2008) (“[A]n adverse employment action
is one that materially affects the compensation,
terms, conditions, or privileges of employment.”
(ellipsis and internal quotation marks omitted) ); Kidd
v. Mando Am. Corp., 731 F.3d 1196, 1203 (11th Cir.
2013) (“An adverse employment action is a serious
and material change in the terms, conditions, or
privileges of employment.” (internal quotation marks
omitted)).2

2

We note that the Supreme Court made the connection
between adverse employment action and the statutory termsand-conditions-of-employment language when it construed the
retaliation provision of Title VII, which does not include termsand-conditions language found in the antidiscrimination
provisions of both Title VII and the ADA. See 42 U.S.C. § 2000e3. In Burlington Northern & Santa Fe Railway Co. v. White, 548
U.S. 53, 60, 126 S.Ct. 2405, 165 L.Ed.2d 345 (2006), the circuit
court had ruled that the plaintiff in a retaliatory-action claim
must prove an adverse employment action. The Court rejected
that requirement, relying on the absence of terms-and-conditions
language in Title VII’s retaliation provision. See id. at 61–63, 126
S.Ct. 2405. The Court held that a retaliation claim could be based
on any action, whether or not significant to the employee’s job,
that “a reasonable employee would have found [to be] materially
adverse, which in this context means it well might have
dissuaded a reasonable worker from making or supporting a

151a
The terms-and-conditions-of-employment language
applies to failure-to-accommodate claims under the
ADA. This is clear from the language of § 12112. We
again quote subsection (a) but also include the failureto-accommodate language of subsection (b):
(a) No covered entity shall [1] discriminate
against a qualified individual on the basis of
disability [2] in regard to job application
procedures, the hiring, advancement, or
discharge
of
employees,
employee
compensation, job training, and other terms,
conditions, and privileges of employment.
(b)

As used in [§ 12112(a)], the term
“discriminate against a qualified individual
on the basis of disability” includes—

....
(5)(A) not making reasonable accommodations
to the known physical or mental limitations of
an otherwise qualified individual with a
disability who is an applicant or employee,
unless such covered entity can demonstrate
that the accommodation would impose an
undue hardship on the operation of the
business of such covered entity.
(emphasis added). Subparagraph (b)(5)(A) is satisfied
if a qualified disabled employee requested an
accommodation and the employer, instead of properly
engaging in the interactive process required in such
circumstances, did not reasonably respond. See Bartee
charge of discrimination.” Id. at 68, 126 S.Ct. 2405 (internal
quotation marks omitted).

152a
v. Michelin N. Am., Inc., 374 F.3d 906, 916 (10th Cir.
2004) (describing requirement of reasonable
accommodation and the interactive process). What
subparagraph (b)(5)(A) and the other provisions in
subsection (b) do is to provide disabled persons with a
cause of action even when they have not shown that
the employer “discriminate[d] against a qualified
individual on the basis of disability,” as otherwise
required by § 12112(a). That is, the employee need not
show that she was treated worse than abled persons.
For example, a disabled person may have a claim for
failure to accommodate a disability even if the
employer also failed to accommodate problems
encountered by abled employees. It is important to
point out, however, that a failure-to-accommodate
claim is still a “discrimination” claim under the ADA.
Such a claim comes under § 12112, whose title is
“Discrimination.” See, e.g., US Airways, Inc. v.
Barnett, 535 U.S. 391, 396, 122 S.Ct. 1516, 152
L.Ed.2d 589 (2002) (“[T]he ADA says that
‘discrimination’ includes an employer’s ‘not making
reasonable accommodations . . . .’ ”).
But satisfying subparagraph (b)(5)(A) is not the only
thing necessary to establish an ADA discrimination
claim based on a failure to accommodate. Subsection
(b) begins, “As used in [§ 12112(a) ], the term
‘discriminate against a qualified individual on the
basis of disability’ includes —” and then lists several
alternatives, including a failure to accommodate.
(Emphasis added). That, however, is as far as
subsection (b) goes. It does not say that the language
“discriminate against a qualified individual on the
basis of disability in regard to job application
procedures, . . . and other terms, conditions, and

153a
privileges of employment” includes failure to
accommodate
under
subparagraph
(b)(5)(A).
(Emphasis added). The emphasized language does not
appear in subsection (b), so proof of a failure to
accommodate does not automatically satisfy the
terms-and-conditions language. Even after proof of a
failure to accommodate, there remains the
requirement that the discrimination be “in regard to
job application procedures, . . . [or] other terms,
conditions, or privileges of employment.” That is, the
employee still needs to prove this component of an
ADA discrimination claim based on a failure to
accommodate.
It is natural to use the same shorthand—adverse
employment action—for this statutory language in
the ADA as is used for like language in Title VII, and
other circuits have done so. In an ADA failure-toaccommodate case, the Eighth Circuit held that the
plaintiff “did not experience an adverse employment
action because accepting the cashier position did not
materially change the terms or conditions of her
employment.” Kelleher v. WalMart Stores, Inc., 817
F.3d 624, 631 (8th Cir. 2016) (brackets and internal
quotation marks omitted) (emphasis added).
Similarly, the D.C. Circuit wrote: “As the language of
§ 12112(a) makes clear, for discrimination (including
denial of reasonable accommodation) to be actionable,
it must occur in regard to some adverse personnel
decision or other term or condition of employment.”
Marshall v. Fed. Exp. Corp., 130 F.3d 1095, 1099 (D.C.
Cir. 1997) (additional emphasis added).3
3

We too have adopted the use of the term adverse employment
action in ADA cases (although not in the failure-to-accommodate

154a
Those who fail to recognize that the adverseemployment-action requirement is founded in
statutory language that applies to all ADA
discrimination claims may be confused by the fact
that the McDonnell Douglas framework must be
modified to apply to failure-to-accommodate claims. It
is therefore worth explaining why this modification
has nothing to do with the adverse-employmentaction requirement. In McDonnell Douglas the
Supreme Court considered how to prove a Title VII
racial-discrimination claim with circumstantial
evidence. Pertinent here, it said that a plaintiff could
“establish[ ] a prima facie case of racial discrimination
. . . by showing (i) that he belongs to a racial minority;
(ii) that he applied and was qualified for a job for
which the employer was seeking applicants; (iii) that,
despite his qualifications, he was rejected; and (iv)
that, after his rejection, the position remained open
and the employer continued to seek applicants from
persons of complainant’s qualifications.” 411 U.S. at
802, 93 S.Ct. 1817. The Court went on to say that
proof of a prima facie case shifts the burden to the
employer
“to
articulate
some
legitimate,
nondiscriminatory reason for the employee’s
rejection,” id.; but the employee could overcome this
defense by showing the proffered reason to be a
pretext, see id. at 804, 93 S.Ct. 1817. The specific test
set forth in McDonnell Douglas obviously can apply
only to discriminatory failures to hire. Courts have
context) when discussing the meaning of § 12112(a), although
without tying the requirement to specific statutory language. See
Mathews v. Denver Post, 263 F.3d 1164, 1167 (10th Cir. 2001)
(requiring plaintiff to show that he suffered an adverse
employment action as an element of his claim under the ADA).

155a
therefore modified the test to apply to other
circumstances (such as firing, failure to promote, etc.),
often by saying simply that the employer took an
“adverse employment action” (other than failure to
hire). See, e.g., Orr v. City of Albuquerque, 417 F.3d
1144, 1147, 1149 (10th Cir. 2005) (reciting adverse
employment action as element of prima facie case
under Title VII when plaintiffs claimed gender
disparity in granting compensatory time for
pregnancy-related absences); Watts v. City of Norman,
270 F.3d 1288, 1292 (10th Cir. 2001) (reciting adverse
employment action as element of prima facie case
under Title VII when plaintiff claimed he was
demoted due to race); Sanchez v. Denver Pub. Sch.,
164 F.3d 527, 531 (10th Cir. 1998) (reciting adverse
employment action as element of prima facie case
under Age Discrimination in Employment Act and
Title VII when plaintiff complained of involuntary
transfer).
Again, the specific framework set forth in
McDonnell Douglas is to enable a member of a
protected class (race, gender, disability, etc.) to
establish through circumstantial evidence that he or
she has a valid claim under an employmentdiscrimination statute based on the failure to treat the
plaintiff as well as those not in the plaintiff’s protected
class. As noted above, for failure-to-accommodate
claims it is not necessary to show that disabled
persons are treated worse than abled ones. But that
hardly means that none of the requirements set forth
in the McDonnell Douglas framework apply to failureto-accommodate claims. After all, the McDonnell
Douglas framework enables the plaintiff to prove her
claim in its entirety, not just that she was treated

156a
worse than people not in her protected class. A prima
facie case in that framework establishes not only that
the plaintiff was treated worse than those not in the
protected class but also that the treatment was with
respect to the “terms, conditions, or privileges of
employment.” 42 U.S.C. § 2000e-2(a)(1). The reason
courts have included adverse employment action, as
opposed to just “discriminatory action,” as an element
under the McDonnell Douglas framework is not to
prove discriminatory animus. The reason to require
that the discriminatory act be an “adverse
employment action” is that not every discriminatory
act by an employer entitles an employee to redress
under the employment-discrimination statutes. The
discriminatory act must be in regard to, or with
respect to, the terms or conditions of employment.
In Higgins v. New Balance Athletic Shoe, Inc., 194
F.3d 252 (1st Cir. 1999), Judge Selya recognized that
the absence of the need to use the McDonnell Douglas
framework to prove discriminatory intent in failureto-accommodate claims does not affect the adverseemployment-action requirement. First, he noted that
“[i]n order to facilitate inquiries into whether an
employer’s adverse employment decision was
motivated by an employee’s disability, courts
generally use the McDonnell Douglas burden-shifting
scheme.” Id. at 264. But, he pointed out, this
discriminatory motivation is not required to establish
a failure-to-accommodate claim: “[U]nder the ADA,
the term ‘discriminate’ includes not making
reasonable accommodations to the known physical or
mental limitations of an otherwise qualified
individual with a disability, unless the employer can
demonstrate that the accommodation would impose

157a
an undue hardship on the operation of the business of
the employer.” Id. (ellipsis, brackets, and internal
quotation marks omitted). Then he went on to say:
Unlike other enumerated constructions of
“discriminate,” this construction does not
require that an employer’s action be
motivated by a discriminatory animus
directed at the disability. Rather, any
failure
to
provide
reasonable
accommodations for a disability is
necessarily “because of a disability”—the
accommodations
are
only
deemed
reasonable (and, thus, required) if they
are needed because of the disability—and
no
proof
of
a
particularized
discriminatory animus is exigible. Hence,
an employer who knows of a disability yet fails
to make reasonable accommodations violates
the statute, no matter what its intent, unless it
can show that the proposed accommodations
would create undue hardship for its business.
Id. (We have bolded language that was quoted in Punt
v. Kelly Services, 862 F.3d 1040, 1048 (10th Cir.
2017).) Judge Selya concluded, “It follows inexorably
that the McDonnell Douglas scheme is inapposite in
respect to such claims.” Id. But that did not mean that
the plaintiff was freed from the requirement of
showing that the failure to accommodate was “in
regard to job application procedures, . . . [or] other
terms, conditions, and privileges of employment.” 42
U.S.C. § 12112(a). The next paragraph of the opinion
stated:

158a
To survive a motion for summary judgment on
a failure-to-accommodate claim, a plaintiff
ordinarily must furnish significantly probative
evidence that he is a qualified individual with a
disability within the meaning of the applicable
statute; that he works (or worked) for an
employer whom the ADA covers; that the
employer, despite knowing of the employee’s
physical or mental limitations, did not
reasonably accommodate those limitations; and
that the employer’s failure to do so affected the
terms, conditions, or privileges of the plaintiff’s
employment.
Id. (emphasis added).
The same distinction is made in Kevin W. Williams,
The Reasonable Accommodation Difference: The Effect
of Applying the Burden Shifting Frameworks
Developed under Title VII in Disparate Treatment
Cases to Claims Brought under Title I of the
Americans with Disabilities Act, 18 Berkeley J. Emp.
& Lab. L. 98, 151–59 (1997). The thrust of the article
is that the McDonnell Douglas burden-shifting
framework does not work for failure-to-accommodate
claims. Under that framework, after the employee
establishes a prima facie case, the employer’s burden
is only to articulate a nondiscriminatory reason (one
not based, for example, on the employee’s disability)
for the action taken against the employee; then the
employee must show that that reason is pretextual.
But in the failure-to-accommodate context the
employer’s reason for not accommodating the
employee necessarily considered the employee’s
disability. In other words, unlike the typical case, the
connection between the employer’s action and the

159a
employee’s disability is necessarily established. See
id. at 152 (“Unlike the situation where an employer
asserts that its reason for taking some adverse
employment action against the plaintiff was
completely unrelated to the plaintiff’s disability, in a
claim based on a failure to reasonably accommodate,
the causal relationship between the adverse action
and the disability is already established.”) 4
Consequently, argues the article, in failure-toaccommodate cases the employer should bear the
burden of persuasion, not just a burden of production,
with respect to whether the employer could
reasonably accommodate the employee’s disability.
But the author nevertheless assumes that the failure
to accommodate must be in connection with an
adverse employment action (or, in the author’s
terminology, an “adverse employment decision”). See,
e.g., id. at 102 (the author’s “discussion [in Part III of
the article] focuses on the usefulness of the framework
when the solitary issue to be determined is whether
the employer made its adverse employment decision
either because of the employee’s disability or because
of a reason wholly unrelated to disability” (emphasis
added) ); id. at 151 (“The duty to provide reasonable
accommodation is broad and requires that before an
employer takes adverse action against an employee
who has requested an accommodation, it must
4

The dissent quotes this sentence from the article as
supporting the proposition that an adverse employment action is
not necessary for a failure-to-accommodate claim. See Dissent at
921–22. But if anything, the passage appears to assume that
there must be an adverse action and is simply pointing out that
the connection of that action to the employee’s disability is
established by the very nature of a failure-to-accommodate
claim.

160a
consider how it can reasonably accommodate the
employee.” (Footnote omitted) ); id. at 155 (“By
requiring employers and employees to engage in the
interactive process, the ADA ensures that all of the
possibilities will have been at least considered before
any adverse employment decision is made.”).
In short, once we recognize that to require an
adverse employment action is simply to require that
the discrimination be “in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, and
other terms, conditions, and privileges of
employment,” 42 U.S.C. § 12112(a), it is evident that
the requirement applies to every discrimination claim
under the ADA, including those based on failure to
make reasonable accommodations.
No Tenth Circuit precedent is to the contrary. For
the dissent to say otherwise is to bind panels of this
court to dicta in earlier published opinions—indeed,
dicta of the weakest sort. One can look in vain for a
published opinion of this court that discusses an
argument by a party that an adverse employment
action is or is not required to establish a claim based
on a failure to accommodate where the answer to that
question would have had an effect on the outcome of
the appeal. In fact, not a single published opinion has
even mentioned that the question was raised by a
party, nor is there a single published opinion in which
the answer to the question would have affected the
outcome of the appeal. As this court recently said,
“Dicta are statements and comments in an opinion
concerning some rule of law or legal proposition not
necessarily involved nor essential to determination of
the case at hand.” United States v. Titties, 852 F.3d

161a
1257, 1273 (10th Cir. 2017) (brackets and internal
quotation marks omitted); see generally Garner, The
Law of Judicial Precedent ch. 4 at 44 (“The holding of
an appellate court constitutes the precedent, as a
point necessarily decided. Dicta do not: they are
merely remarks made in the course of a decision but
not essential to the reasoning behind that decision.”).
“A panel of this Court is bound by a holding of a prior
panel of this Court but is not bound by a prior panel’s
dicta.” Titties, 852 F.3d at 1273.
There are sound jurisprudential reasons for not
binding a later panel to dicta: “ ‘One is that the
passage was unnecessary to the outcome of the earlier
case and therefore perhaps not as fully considered as
it would have been if it were essential to the
outcome.’ ” Garner at 66 (quoting United States v.
Crawley, 837 F.2d 291, 292 (7th Cir. 1988) ). “ ‘A
closely related reason is that the passage was not an
integral part of the earlier opinion—it can be sloughed
off without damaging the analytical structure of the
opinion, and so it was a redundant part of that opinion
and, again, may not have been fully considered.’ ” Id.
A third “ ‘is that the passage was not grounded in the
facts of the case and the judges may therefore have
lacked an adequate experiential basis for it,’ ” id. and
“ ‘another . . . [is] that the issue addressed in the
passage was not presented as an issue, hence was not
refined by the fires of adversary presentation,’ ” id.
“ ‘All these are reasons for thinking that a particular
passage was not a fully measured judicial
pronouncement, that it was not likely to be relied on
by readers, and indeed that it may not have been part
of the decision that resolved the case or controversy
on which the court’s jurisdiction depended (if a federal

162a
court).’ ” Id. at 66–67 (quoting Crawley, 837 F.2d at
293). The essential features of dicta and the reasons
we are not bound by dicta are so fundamental that we
regularly do not even bother to cite authority on the
matter. See, e.g., Dish Network LLC v. Ray, 17-1013
at 14 n.3 (rejecting contention that statement in prior
decision was binding precedent, saying: “[W]e never
addressed whether incorporation of the Commercial
Arbitration Rules of the AAA added clear and
unmistakable evidence of delegation, and there is no
indication that either party raised this as an issue.
[The prior opinion] is therefore not contrary to our
holding here.”)
In this light, it is easy to see why the opinions of this
court relied upon by Plaintiff do not establish
precedent that an adverse employment action is not
required to establish an ADA claim based on a failure
to accommodate. To begin with, as previously noted,
none of the opinions indicated that the issue had been
raised by a party and none discussed the merits of the
issue. This should not be surprising because
resolution of the issue would have made no difference
to the appeal. In Bartee, 374 F.3d at 910, it was
undisputed that the employer terminated the
plaintiff, which is a paradigmatic adverse
employment action. Whether there was an adverse
employment action was hardly at issue. See also
Selenke v. Med. Imaging of Colo., 248 F.3d 1249, 1254
(10th Cir. 2001) (undisputed that plaintiff was
terminated). In Punt v. Kelly Services, 862 F.3d 1040,
1050 (10th Cir. 2017), we determined that the plaintiff
did
not
request
a
plausibly
reasonable
accommodation, so there was no need to consider
whether the plaintiff had suffered an adverse

163a
employment action; the claim was doomed anyway.
Similarly, in EEOC v. C.R. England, Inc., 644 F.3d
1028 (10th Cir. 2011), the plaintiff’s claim of
discrimination under § 12112(b)(5)(A) for failure to
accommodate failed because the plaintiff did not
adequately request an accommodation, see id. at 1050.
And in Smith v. Midland Brake, 180 F.3d 1154, 1179
(10th Cir. 1999) (en banc), we reversed a grant of
summary judgment in favor of the defendant because
there was a genuine dispute whether the plaintiff had
sufficiently invoked the interactive process for
reasonable accommodations, and we remanded to the
district court for further proceedings. Again, there
was no reason for us to consider whether there was an
adverse employment action in that case. 5 See also
Sanchez v. Vilsack, 695 F.3d 1174, 1179-80 (10th Cir.
2012) (remanding to district court after reversing

5

The issue of whether there was an adverse-employment-action
requirement simply was not considered by the court. As we
stated:
In this en banc appeal, we are required to answer two
questions concerning the [ADA]. First, whether an
employee can be a “qualified individual with a disability”
when that employee is unable to perform the essential
functions of his or her present job, regardless of the level
of accommodation offered, but could perform the
essential functions of other available jobs within the
company with or without a reasonable accommodation.
The answer to that question, we find, is yes. Second, if a
person is a “qualified individual with a disability” and a
reasonable accommodation is not available to enable that
employee to perform the essential functions of his or her
existing job, what is the scope of the employer’s
obligation to offer that employee a reassignment job?
Id. at 1159 (footnote omitted).

164a
summary judgment on question of whether plaintiff
was disabled).
The dissent appears to suggest that there is
something special when this court describes the
parameters of a cause of action. It points to occasions
in which we have set forth the elements of a failure to
accommodate and contends that silence about an
adverse-employment-action
requirement
is
“deafening.” Dissent at 920–21. Of course, it may well
have been that what we were doing is simply setting
forth the failure-to-accommodate requirements of
§ 12112(b)(5)(A), not all the elements of an ADA claim
based on failure to accommodate. That would have
resolved everything that was relevant to the appeals
in those cases. But in any event, silence—the complete
failure even to discuss an issue, such as whether an
adverse employment action is a required element of
the claim—is not a holding, however thundering,
particularly when no party has raised the issue.
To say that a statement in an opinion is nonbinding
dictum is not to denigrate the author of the dictum or
the panel that joined. When a court utters dictum, it
intends to assist in the development of the law and to
give guidance to lawyers and the lower courts. Often
it serves those purposes well. But experience has
shown that dictum must be written with humility.
When courts make statements not subjected to the
focus and testing of the adversary process—the
deliberative process that occurs when the issues are
critical to the result, are argued by the parties, and
are resolved with a reasoned explanation—they are
more likely to overlook or improperly weigh important
considerations. That is one reason why, for example,
courts restrict their jurisdiction to cases and

165a
controversies and are hesitant to issue precedential
opinions when the losing party is proceeding pro se.
In none of the Tenth Circuit decisions relied on by the
dissent were any of these conditions satisfied:
whether an adverse employment action was an
element of the claim would not have affected the
result, there is no indication that the issue was
argued, and the opinions offered no reasoning why an
adverse employment action would not be an element.6
6

As for the dissent’s suggestion that the failure to follow dicta
in our prior opinions would confuse the bar and the lower courts,
which would think that they could safely follow those dicta, see
Dissent at 925, we note that the purported clarity of those dicta
was apparently not obvious to the district court in this case,
which instructed the jury that an adverse employment action
was indeed an element of Plaintiff’s failure-to-accommodate
claim. In particular, the district court could quite reasonably
have relied on C.R. England as requiring an adverse employment
action. The opinion states, “In order to demonstrate
‘discrimination,’ a plaintiff generally must show that he has
suffered an adverse employment action because of the disability.”
644 F.3d at 1038 (further internal quotation marks omitted).
Since a failure-to-accommodate claim is a claim of
“discrimination,” see US Airways, 535 U.S. at 396, 122 S.Ct. 1516
(“[T]he ADA says that ‘discrimination’ includes an employer’s not
making reasonable accommodations” (emphasis and further
internal quotation marks omitted) ), one could infer that the
adverse-employment-action requirement applies to failure-toaccommodate claims. The dissent argues that the C.R. England
opinion “made clear” that the adverse-employment-action
requirement was to be applied only to “claims predicated on a
disparate-treatment theory.” Dissent at 920. But that opinion
never uses the term disparate treatment. Regardless of whether
the opinion intended to make that distinction, a reader could be
forgiven for not picking up on the point when the distinction was
not proposed by any party, was not relevant to the result, and
was never explained in the opinion. When dictum is implicit,
rather than expressly stated, such problems can be expected.

166a
When we look outside this circuit, several other
circuits have explicitly required an adverse
employment action in failure-to-accommodate cases.
See Colon-Fontanez v. Municipality of San Juan, 660
F.3d 17, 32 (1st Cir. 2011) (“To establish a [failure-toaccommodate] claim under the ADA, a plaintiff must
prove three factors by a preponderance of the
evidence: (1) she was disabled within the meaning of
the ADA; (2) she was qualified to perform the
essential functions of the job, either with or without
reasonable accommodation; and (3) the employer took
an adverse employment action against her because of
the alleged disability.”); Parker v. Sony Pictures
Entm’t, Inc., 260 F.3d 100, 108 (2d Cir. 2001) (“[T]he
connections between (1) the failure to accommodate a
disability, (2) the performance deficiencies, and (3) the
adverse employment action, must . . . exist for there
to be liability.”); Foster v. Arthur Andersen, LLP, 168
F.3d 1029, 1032 (7th Cir. 1999) (“[T]o state a prima
facie case of ‘failure to accommodate’ disability
discrimination, a plaintiff who has suffered an
adverse employment action must show that: (1) she
was or is disabled; (2) the defendant was aware of her
disability; (3) she was otherwise qualified for her job;
and (4) the disability caused the adverse employment
action (a factor which is implied if not stated).”
(citations omitted) ), abrogation on other grounds
recognized by Serwatka v. Rockwell Automation, Inc.,
591 F.3d 957, 962–63 (7th Cir. 2010); Fenney v.
Dakota, Minn. & E. R.R. Co., 327 F.3d 707, 711 (8th
Cir. 2003) (“To obtain relief under the ADA [for failure
to accommodate], [the plaintiff] must show that he (1)
has a ‘disability’ within the meaning of the ADA, (2) is
a ‘qualified individual’ under the ADA, and (3)
suffered an adverse employment action as a result of

167a
the disability.” (further internal quotation marks
omitted) ); Samper v. Providence St. Vincent Med.
Ctr., 675 F.3d 1233, 1237 (9th Cir. 2012) (“To establish
a prima facie case for failure to accommodate under
the ADA, [the plaintiff] must show that (1) she is
disabled within the meaning of the ADA; (2) she is a
qualified individual able to perform the essential
functions of the job with reasonable accommodation;
and (3) she suffered an adverse employment action
because of her disability.” (brackets and internal
quotation marks omitted) ); Marshall, 130 F.3d at
1099 (“As the language of § 12112(a) makes clear, for
discrimination (including denial of reasonable
accommodation) to be actionable, it must occur in
regard to some adverse personnel decision or other
term or condition of employment.”).
Plaintiff cites only one published circuit opinion, and
the dissent cites another, that explicitly rejected an
adverse-employment-action requirement for a failureto-accommodate claim. In EEOC v. AutoZone, Inc.,
630 F.3d 635 (7th Cir. 2010), a Seventh Circuit panel
stated in a footnote that an adverse employment
action is not a necessary element of a failure-toaccommodate claim under the ADA, see id. at 638 n.1.
We are not persuaded. First, the statement appears to
be dictum. As the court itself noted, “This misstep [the
district court’s requiring an adverse employment
action] was not decisive for the court’s judgment; we
raise it only to alert the district court so that it may
avoid proceeding down that same path on remand.”
Id. The district court had granted the employer
summary judgment on the claim on the ground that
the plaintiff was not disabled, and the circuit court

168a
reversed, holding that there was sufficient evidence of
disability. See id. at 638, 644–45.
Second, the court ignored, without explanation,
contrary statements by the same court. See Foster,
168 F.3d at 1032 (“[T]o state a prima facie case of
‘failure to accommodate’ disability discrimination, a
plaintiff who has suffered an adverse employment
action must show that: (1) she was or is disabled; (2)
the defendant was aware of her disability; (3) she was
otherwise qualified for her job; and (4) the disability
caused the adverse employment action (a factor which
is implied if not stated).”).
Third, and most important, the footnote provides no
analysis to support its statement that “[n]o adverse
employment action is required to prove the failure to
accommodate.” Autozone, 630 F.3d at 638 n.1. And the
authority it cites is irrelevant. The footnote’s only
“See” citation on the proposition is to Bragdon v.
Abbott, 524 U.S. 624, 118 S.Ct. 2196, 141 L.Ed.2d 540
(1998). But the claim in Bragdon was not employment
discrimination. The plaintiff, who had been diagnosed
with an HIV infection, sued her dentist for refusing to
treat her, and her suit relied on 42 U.S.C. § 12182,
not, as in our case, the employment-discrimination
statute 42 U.S.C. § 12112. See id. at 629–30, 118 S.Ct.
2196. It would have been startling if her claim
required proof of an adverse employment action. And
the page of Bragdon cited in the footnote addresses
only the meaning of the statutory definition of
disability. See id. at 631, 118 S.Ct. 2196.
The footnote also cites two Seventh Circuit cases,
stating: “see also Basith v. Cook County, 241 F.3d 919,
927 (7th Cir.2001) (describing and applying the same

169a
test for determining whether an individual is a
qualified individual with a disability under the ADA);
EEOC v. Sears, Roebuck & Co., 233 F.3d 432, 437–40
(7th Cir.2000) (same).” The parentheticals to the two
opinions are correct, but irrelevant to the issue.
Neither opinion addressed whether an adverse
employment action is an element of the claim. The
most that could be said of the two opinions is that an
adverse employment action was not included in the
explicitly incomplete list of elements of a failure-toaccommodate claim stated in both opinions. See
Basith, 241 F.3d at 927 (“In a reasonable
accommodation case, like the present one, the plaintiff
must first show that: 1) he was disabled; 2) his
employer was aware of his disability; and 3) he was a
qualified individual who, with or without reasonable
accommodation, could perform the essential functions
of the employment position.” (emphasis added) );
Sears, Roebuck & Co., 233 F.3d at 437 (“[I]n order for
a plaintiff to recover under the ADA for an employer’s
failure to reasonably accommodate, that plaintiff
must first show: (1) that she was or is disabled as
defined by the Act, (2) that her employer was aware of
the disability, and (3) that she was qualified for the
position in question.” (emphasis added) ). The list of
elements in the two cited opinions did not even
include a requirement that the employer failed to
reasonably accommodate the plaintiff.
In short, we do not think that the AutoZone footnote
overrides the reasoning and authority that convinces
us that an adverse employment action is an element
of a failure-to-accommodate claim.
The other published circuit opinion stating that no
adverse employment action is required for a failure-

170a
to-accommodate claim is EEOC v. LHC Group, Inc.,
773 F.3d 688, 703 n.6 (5th Cir. 2014). The statement
was pure dictum, because the failure-to-accommodate
claim had been abandoned. See id. at 703. In any
event, the only authority cited by the court in support
of its statement was an unpublished opinion, Bridges
v. Department of Social Services, 254 F.3d 71 (5th Cir.
2001) (unpublished), whose only supporting authority
was a Fifth Circuit opinion that said, “[I]t is perhaps
arguable that the failure to accommodate an employee
standing alone may give rise to a claim under the

171a
ADA,” Loulseged v Akzo Nobel Inc., 178 F.3d 731, 734
(5th Cir. 1999). We are not persuaded.7,8

7

Plaintiff cites a few other published opinions from fellow
circuits that do not express an adverse-employment-action
requirement as an element of a failure-to-accommodate claim
under the ADA. Several, however, are from circuits (the First
and Seventh) that have stated the requirement in other opinions
cited above. And in all of them, as with the Tenth Circuit cases
discussed above, whether there was an adverse employment
action was not at issue. Either the plaintiff was terminated (and
thus plainly suffered an adverse employment action) or the
plaintiff failed to satisfy other elements of the claim. See EEOC
v. Kohl’s Dep’t Stores, Inc., 774 F.3d 127, 131–34 (1st Cir. 2014)
(employer did not fail to reasonably accommodate plaintiff);
Rhoads v. F.D.I.C., 257 F.3d 373, 379, 391 (4th Cir. 2001)
(plaintiff was terminated and did not produce sufficient evidence
that she was disabled); Curtis v. Costco Wholesale Corp., 807
F.3d 215, 224 (7th Cir. 2015) (plaintiff was not a qualified
individual with a disability); Kotwica v. Rose Packing Co., 637
F.3d 744, 747–50 (7th Cir. 2011) (plaintiff was terminated, and
failed to show she was disabled); Mobley v. Allstate Ins. Co., 531
F.3d 539, 541, 546 (7th Cir. 2008) (plaintiff was terminated and
the employer had reasonably accommodated her disability);
Lucas v. W.W. Grainger, Inc., 257 F.3d 1249, 1257–60 (11th Cir.
2001) (plaintiff could not perform the essential functions of
warehouse positions after an injury and the employer was not
required to promote him to nonwarehouse position as a
reasonable accommodation).
8

We also mention two other authorities cited by the dissent. See
Dissent at 922 & n.3. One is the EEOC enforcement guidance.
U.S. Equal Emp. Opportunity Comm’n, Enforcement Guidance:
Reasonable Accommodation and Undue Hardship under The
Americans With Disabilities Act (2002), https://www.eeoc.
gov/policy/docs/accommodation.html. Although it discusses at
length the meaning of the reasonable-accommodation
requirement, it never purports to state all the elements of an
ADA discrimination claim based on a failure to accommodate.
And there is nary a mention of adverse employment actions.
Given the authority noted above stating the requirement of an

172a
Having concluded that a failure-to-accommodate
claim requires proof of an adverse employment action,
we consider Plaintiff’s suggestion that any failure to
reasonably accommodate constitutes such an action.9
adverse employment action to prove an ADA discrimination
claim based on a failure to accommodate, one would have
expected the ADA to explain why those authorities are wrong if
it really intended to express guidance on the matter. Perhaps
statements in the EEOC Guidance could be persuasive regarding
the meaning of an antidiscrimination statute, but only if
supported by some reasoning, not silence, however thundering.
The other authority is the following ambiguous statement in
a treatise: “While a delay in satisfying an employee’s request
for reasonable accommodation might be cognizable as a
failure-to-accommodate claim, that delay does not amount to
a significant change in the plaintiff’s employment status and,
therefore, is not actionable as an adverse action supporting
a discrimination claim.” 1 Disability Discrimination in the
Workplace § 2:13, Westlaw. The sole authority cited in
support of that statement is the decision in Pauling v.
District of Columbia, 286 F.Supp.3d 179 (D.D.C. 2017). In
that case the court rejected the employee’s claim that the
employer failed to reasonably accommodate her over a
lengthy period of time; it pointed out that she ultimately
received the requested accommodations. The point being
made in the treatise thus appears to be that a delay in
accommodating a disabled employee is not in itself an
adverse employment action necessary to support an ADA
discrimination claim for failure to accommodate.
(Presumably, a delay might create an adverse employment
action if the employee was unpaid and not allowed to return
to work pending the accommodation.) That point is
consistent with our reasoning in this opinion.
9

We note that if, as a factual matter, every failure to
accommodate satisfied the requirements of an adverse
employment action, it is unclear how a plaintiff would be
prejudiced by an instruction requiring proof of an adverse
employment action.

173a
The suggestion has some appeal. When we think of
failure-to-accommodate claims, we ordinarily picture
a scenario in which the employee has in fact suffered
an adverse employment action. The typical failure-toaccommodate claim arises out of a failure to
accommodate the employee to enable her to perform
the essential functions of her job and her consequent
termination because she cannot perform as required.
But this is not the only possible setting for a failureto-accommodate claim. In particular, there could be a
failure to accommodate that does not result in
termination and is not otherwise connected to an
adverse employment action.10
Although we “liberally define[ ] the phrase ‘adverse
employment action,’ ” “we will not consider a mere
inconvenience or an alteration of job responsibilities
to be an adverse employment action.” Sanchez, 164
F.3d at 532 (internal quotation marks omitted). What
is merely a convenience is not a term, condition, or
privilege of employment. Thus, in Sanchez, which
considered a Title VII and age-discrimination case, we
held that there was no adverse employment action
when a teacher was transferred to another school with
the same salary and benefits but merely a longer
commute. See id. (We recognize, of course, that a
change in job location for a disabled employee may be
much more than an inconvenience.) And when she
applied for a new position, her failure to be reassigned
10

One reason that the issue before us has never been squarely
decided by a prior circuit opinion is that it is unlikely that an
employee would pursue a failure-to-accommodate claim when
there has been no adverse employment action. Certainly,
Plaintiff here rested her hopes on the jury’s belief that she had
been fired or forced to resign.

174a
was not an adverse employment action because the
salary and benefits would have been the same in the
new position. See id. We have also held that it was not
an adverse employment action to place an employee
on the night shift because a different shift was not a
significant change in her duties and her salary and job
classification remained the same. See Daniels v.
United Parcel Serv., Inc., 701 F.3d 620, 636 (10th Cir.
2012); see also Haynes v. Level 3 Commc’ns, LLC, 456
F.3d 1215, 1224–25 (10th Cir. 2006) (placing employee
on a professional improvement plan or issuing a
formal warning does not constitute an adverse
employment action unless it puts the employee
immediately at risk of termination or affects salary or
status), abrogation on other grounds recognized by
Bertsch v. Overstock.com, 684 F.3d 1023, 1029 (10th
Cir. 2012). To be sure, every case will turn on its
specific facts. But our precedents would suggest, for
example, that failure to accommodate a wheelchairbound employee by moving her office a few feet closer
to the entrance may not be an adverse employment
action if requiring the employee to travel the extra
distance is a mere inconvenience.
In this case the County argued to the jury that
Plaintiff suffered no adverse employment action
because it did not do anything negative to her.
Because of her physical limitations, it had given her a
part-time office job with the same pay (when worker’scompensation benefits are included). When she asked
for the County to create a new position for her, it
denied her request but, according to testimony it
presented, it did not fire her or make any other
changes in her employment status. And County
employees testified that they were planning to

175a
continue to look for ways to accommodate her. We are
not willing to say in these circumstances that an
employer’s failure to immediately accommodate a
request by a disabled employee is in itself an adverse
employment action.
The only authority cited by Plaintiff in support of
her claim that all failures to accommodate are adverse
employment actions is Colwell v. Rite Aid Corp., 602
F.3d 495 (3d Cir. 2010). That opinion stated:
“ ‘Adverse employment decisions in this context
include refusing to make reasonable accommodations
for a plaintiff’s disabilities.’ ” Id. at 504 (quoting
Williams v. Phila. Hous. Auth. Police Dep’t, 380 F.3d
751, 761 (3d Cir. 2004) ). There may be some doubt
whether the statement is asserting that all failures to
make reasonable accommodations are necessarily
adverse employment decisions. But if that is the
thrust of the statement, the opinion contains no
analysis of the statutory language or any other
support for that proposition; and the point was
irrelevant to the rest of the opinion. On the failure-toaccommodate claim, the court reversed summary
judgment for the employer simply on the ground that
there was sufficient evidence of a failure to
accommodate. As for the earlier authority, Williams,
it too did not analyze the statutory language and it
cited no supporting authority. Although it did cite
authority that failure to make reasonable
accommodations is a form of discrimination under the
ADA, see Williams, 380 F.3d at 761, the opinion
ignored the further statutory requirement that the
discrimination must be “in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training, [or]

176a
other
terms,
conditions
and
privileges
of
employment.” 42 U.S.C. § 12112(a). That failure is
understandable, however, because there was no real
need for any deeper analysis to decide the case before
it. In Williams there was a clear adverse employment
action arising from the failure to make reasonable
accommodations. The employer’s response to the
plaintiff’s request for an accommodation was merely
to “offer[ ] him an unpaid leave of absence and future
employment should he recover.” Id. at 771. Our view
of the adverse-employment-action requirement is
consistent with the holdings in Colwell and Williams.
And to the extent that dictum in those opinions is
contrary to our view, we are not persuaded.
B.

Constructive Discharge

Plaintiff proposed a jury instruction stating: “A
constructive discharge occurs when the working
conditions are so intolerable that a reasonable person
in the plaintiff’s position would feel compelled to
resign.” Aplt. App., Vol. I at 181. She complains that
the district court rejected the proposed instruction
and did not permit her to argue constructive discharge
at trial. But before submitting the instruction, she
had never asserted that she had a constructivedischarge claim. Her amended complaint makes no
mention of constructive discharge. Rather, it alleges
that the ADA violations “culminated in [her]
discharge from employment,” Id. at 22 (emphasis
added), and that “the County fired her,” id. at 23
(emphasis added). Further, the term constructive
discharge appears nowhere in the final pretrial order,
in which Plaintiff simply asserted that she was
terminated.

177a
We have long recognized that a “district court has
discretion to exclude from trial issues and claims not
set forth in the pretrial order and to refuse to instruct
the jury on matters beyond the scope of the pretrial
order.” Rios v. Bigler, 67 F.3d 1543, 1549 (10th Cir.
1995) (citation and internal quotation marks omitted).
Because the purpose of a pretrial order is to clarify the
nature of the disputes at issue, see id., the parties
must be able to rely on that order to plan their trial
strategies. “[W]e review the district court’s decision to
refuse to instruct the jury on an issue it concludes is
not raised in the pretrial order for an abuse of
discretion.” Id. We see no abuse of discretion in the
court’s refusal to permit Plaintiff to add a new theory
of liability after settlement of the pretrial order. See
id. (no abuse of discretion when court refused jury
instruction on loss of chance of recovery when pretrial
order asserted only “broad plain vanilla negligence”).11
C.

Undue-Hardship Jury Instructions

Plaintiff’s final argument is that the district court
improperly failed to instruct the jury that undue
hardship is an affirmative defense and that the
burden of persuasion lies with the County. But any
11

Moreover, the district court permitted Plaintiff to convey the
essence of the constructive-discharge claim to the jury. During a
conference to settle instructions at the outset of trial, the district
court said it would permit her to present evidence and argue that
“deficiencies in the interactive process, regarding the
accommodation that she believes she was entitled to, . . . caused
her to leave the company,” though “[n]ot in the context of [a]
constructive discharge claim” but to support her failure-toaccommodate claim. Aplt. App., Vol. III at 708. As the district
court noted, this allowed her to counter the County’s argument
that she voluntarily resigned.

178a
error in that regard was harmless. There was no need
for the jury to address the issue of undue hardship
once it found that there was no adverse employment
action. Our review of the issue would be required only
if we had agreed with Plaintiff’s failure-toaccommodate argument.
III. CONCLUSION
The judgment of the district court is AFFIRMED.
HOLMES, J., dissenting.
I respectfully dissent. More specifically, I would hold
that the district court erred in instructing the jury
that there is an adverse-employment-action element
embodied in a failure-to-accommodate claim under
the Americans with Disabilities Act (“ADA”), 42
U.S.C. §§ 12101–213. I would therefore reverse the
district court’s judgment and remand for a new trial.1
1

In reaching the conclusion that a reversal and remand is
called for, I necessarily reject the County’s suggestion that, even
if the jury was wrongly instructed that an adverse employment
action is an element of a failure-to-accommodate claim, the
existence of that error “does not mean that [Ms. Exby-Stolley]
was prejudiced,” because the County “introduced evidence
refuting [Ms. Exby-Stolley’s] failure to accommodate theories.”
Aplee.’s Resp. Br. at 11. This argument is wholly unpersuasive
because “[w]here an appellate court determines that the district
court has given a legally erroneous jury instruction, the
judgment must be reversed ‘if the jury might have based its
verdict on the erroneously given instruction.’ ” Wankier v. Crown
Equip. Corp., 353 F.3d 862, 867 (10th Cir. 2003) (quoting
Townsend v. Lumbermens Mut. Cas. Co., 294 F.3d 1232, 1242
(10th Cir. 2002) ). And this “ ‘might have’ threshold, as its
language suggests, requires reversal ‘even if that possibility [of
the jury basing its verdict on the erroneous instruction] is very
unlikely.’ ” Lederman v. Frontier Fire Protection, Inc., 685 F.3d

179a
At bottom, I rest this conclusion on our own
controlling precedent. I respectfully reject the
majority’s assertion that reading an adverseemployment-action requirement into the ADA’s
failure-to-accommodate claim is not “contrary” to that
precedent. Maj. Op. at 911. The majority mistakenly
“proceeds as though it were writing on tabula rasa” on
this issue and, as such, “necessarily discards the
contrary judgment arrived at” by our caselaw. Gertz v.
Robert Welch, Inc., 418 U.S. 323, 389, 94 S.Ct. 2997,
41 L.Ed.2d 789 (1974) (White, J., dissenting). I decline
to go along on this misguided and troubling trip.
Notably, in E.E.O.C. v. C.R. England, Inc. (“C.R.
England”), 644 F.3d 1028 (10th Cir. 2011), we
specifically
distinguished
between
ADA
discrimination claims predicated on a disparatetreatment theory and those that are predicated on a
failure-to-accommodate theory, and we made clear
through the content and structure of our analysis
that—as between the two—it is only the former theory
(i.e., disparate treatment) that includes an adverseemployment-action element. See id. at 1038 & n.10,
1048–50.
1151, 1159 (10th Cir. 2012) (quoting Level 3 Commc’ns, LLC v.
Liebert Corp., 535 F.3d 1146, 1158 (10th Cir. 2008) ). Here, the
threshold is easily crossed: the jury returned a verdict for the
County after indicating on the Verdict Form that Ms. ExbyStolley had failed to prove that she was either “discharged from
employment,” “not promoted,” or subjected to any “other adverse
action” by the County. Aplt.’s App., Vol. II, at 419 (Verdict Form,
dated Oct. 11, 2016). It therefore strains credulity to claim that
the jury definitely did not base its verdict on the faulty
instruction regarding an adverse employment action, when the
lack of such an action was the very reason the jury decided in
favor of the County.

180a
More specifically, in our resolution of multiple
distinct claims of ADA discrimination that the Equal
Employment Opportunity Commission (“EEOC”), as
well as the individual plaintiff, brought in C.R.
England, we discussed the failure-to-accommodate
theory of ADA discrimination approximately ten
pages after we first referred to an adverseemployment-action
element
in
discussing
discrimination claims based on a disparate-treatment
theory. 2 See id. at 1038. And, with our attention
2

In C.R. England, we observed that “[i]n order to demonstrate
‘discrimination,’ a plaintiff generally must show that he has
suffered an ‘adverse employment action because of the
disability.’ ” 644 F.3d at 1038 (footnote omitted) (quoting
Mathews v. Denver Post, 263 F.3d 1164, 1167 (10th Cir. 2001) ).
However, we did so only in explicating the standards for
establishing ADA discrimination under a disparate-treatment
theory. In this regard, we specifically noted in a footnote (i.e.,
footnote 10)—which was directly appended to the sentence
discussing the general need to demonstrate an adverse
employment action—that the EEOC was predicating the
discrimination claims at issue on 42 U.S.C. § 12112(b)(1), which
“only prohibits ‘limiting, segregating, or classifying a[n] . . .
employee in a way that adversely affects the opportunities or
status of such . . . employee because of the disability of such . . .
employee.’ ” Id. at 1038 n.10 (alteration, omissions, and emphasis
in original) (quoting § 12112(b)(1) ); see id. (noting that this is the
provision “upon which the EEOC’s discrimination claim is
based”). In other words, C.R. England’s reference there to an
adverse-employment-action requirement was language that
specifically and exclusively pertained to the ADA discrimination
claims under a disparate-treatment theory—not such claims
under a failure-to-accommodate theory. To be sure, the C.R.
England panel subsequently did discuss an adverse-employment
action requirement in connection with an ADA retaliation claim.
See id. at 1050–51. But, tellingly, the panel did not do so in
setting forth the standards applicable to a failure-toaccommodate claim. See id. at 1048–49.

181a
squarely focused on the failure-to-accommodate
claim, we uttered nary a word about an adverseemployment-action requirement. See C.R. England,
644 F.3d at 1048–50. Put another way, in resolving
the failure-to-accommodate claim, the C.R. England
panel was mute about an adverse-employment-action
requirement. Instead, our analysis there centered
solely on an employer’s statutory and administrative
obligations to reasonably accommodate an employee’s
disability. See id. And, more specifically, we stated
there—with deafening silence regarding an adverseemployment-action
requirement—that
§ 12112(b)(5)(A) “establishes a cause of action for
disabled employees whose employers fail to
reasonably accommodate them.” Id. at 1048 (quoting
Selenke v. Med. Imaging of Colo., 248 F.3d 1249, 1261
(10th Cir. 2001) ).
The C.R. England panel’s utter disregard of an
adverse-employment-action requirement—because it
was irrelevant in applying the standards defining the
unlawfulness of an employer’s failure to provide a
reasonable accommodation—is an approach mirrored
in our other failure-to-accommodate ADA cases. See,
e.g., Punt v. Kelly Servs., 862 F.3d 1040, 1048 (10th
Cir. 2017) (“[A]ssuming the employee has provided
notice to the employer of her disability, any
limitations which result therefrom, and the
accommodation she wishes to receive, then the
employer’s failure to provide a reasonable
accommodation for the disability establishes the
required nexus between the disability and the alleged
discrimination without the need to delve into the
employer’s subjective motivations.” (emphasis
added) ); Bartee v. Michelin N. Am., Inc., 374 F.3d 906,

182a
912 n.4 (10th Cir. 2004) (describing the “prima facie
failure to accommodate claim” without any reference
to an adverse-employment-action requirement, and,
more specifically, observing that as to such a claim,
the final element is not an adverse employment action
like a termination but rather the employer’s failure to
reasonably accommodate the employee’s disability);
Smith v. Midland Brake, Inc., 180 F.3d 1154, 1169,
1179 (10th Cir. 1999) (en banc) (noting that “[t]he
unvarnished obligation derived from the statute is
this: an employer discriminates against a qualified
individual with a disability if the employer fails to
offer a reasonable accommodation,” and recounting
the elements of an employee’s prima facie case with
no mention of an adverse-employment-action
requirement).
In my view, the majority’s misguided endeavor to
incorporate
an
adverse-employment-action
requirement into an ADA failure-to-accommodate
claim primarily stems from its “confusion[,] . . . [in]
failing to clearly differentiate between disparate
treatment and failure to accommodate claims”: the
former require a showing of an adverse employment
action and the latter do not. Megan I. Brennan, Need
I Prove More: Why an Adverse Employment Action
Prong Has No Place in a Failure to Accommodate
Disability Claim, 36 HAMLINE L. REV. 497, 501 (2013);
see id. at 499–500, 503 (“Confusion arises because the
failure to accommodate is not ‘discrimination’ as the
concept is traditionally understood . . . In a disparate
treatment discrimination case under the ADA, an
adverse employment action is one that causes a
material change in the terms or conditions of
employment . . . In short, adverse employment actions

183a
are needed to establish disparate treatment and
retaliation claims under the ADA. A failure to
accommodate claim may be successful absent an
adverse action.” (footnotes omitted) ); see also Kevin
W. Williams, The Reasonable Accommodation
Difference: The Effect of Applying the Burden Shifting
Frameworks Developed Under Title VII in Disparate
Treatment Cases to Claims Brought Under Title I of
the Americans with Disabilities Act, 18 BERKELEY
J. EMP. & LAB. L. 98, 152 (1997) (“[I]n a claim based
on a failure to reasonably accommodate, the causal
relationship between the adverse action and the
disability is already established. The purpose of the
plaintiff’s prima facie case under these circumstances
is not to raise a rebuttable presumption of
discriminatory intent. Instead, the ‘elusive factual
question’ to be determined is whether the employer
complied with its statutory obligation to provide
reasonable accommodation.” (emphases added) ); cf. 1
DISABILITY DISCRIMINATION IN THE WORKPLACE § 2:13,
Westlaw (database updated Apr. 2018) (“While a
delay in satisfying an employee’s requests for a
reasonable accommodation might be cognizable as a
failure-to-accommodate claim, that delay does not
amount to a significant change in the plaintiff’s
employment status and, therefore, is not actionable as
an adverse action supporting a discrimination claim.”
(emphasis added) ).
This confusion is not shared by our controlling
precedent.3 See Punt, 862 F.3d at 1048 (“There is at
3

And the confusion is certainly not shared by the EEOC—the
federal agency charged with administering the ADA. See
Brennan, supra, at 505 (“The EEOC’s regulations and
Interpretive Guidance on the ADA also suggest an adverse

184a
least one type of ADA claim, however, which does not
require any evidence of discriminatory intent,
whether direct or circumstantial: a failure-toaccommodate claim. . . . ‘Unlike other enumerated
constructions of “discriminate,” this construction does
not require that an employer’s action be motivated by
a discriminatory animus directed at the disability.
Rather, any failure to provide reasonable
accommodations for a disability is necessarily
“because of a disability”—the accommodations are
only deemed reasonable (and, thus, required) if they
are needed because of the disability—and no proof of
a particularized discriminatory animus is exigible.’ ”
(quoting Higgins v. New Balance Athletic Shoe, Inc.,
194 F.3d 252, 264 (1st Cir. 1999) ) ); Smith, 180 F.3d
at 1178 n.12 (“The purpose of a burden shifting
approach [first established in McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d
668 (1973)] is a bit different in an ADA Failure to
Accommodate case. In such a case, the Congress has
already determined that a failure to offer a reasonable
accommodation to an otherwise qualified disabled
employee is unlawful discrimination. See 42 U.S.C.
employment action is not an element of a failure to accommodate
claim.”); see also U.S. Equal Emp. Opportunity Comm’n, ENF’T
GUIDANCE: REASONABLE ACCOMMODATION AND UNDUE HARDSHIP
UNDER THE AMERICANS WITH DISABILITIES ACT (2002), available
at
https://www.eeoc.gov/policy/docs/accommodation.html
(stating under the heading “Burdens of Proof” that “[o]nce the
plaintiff has shown that the accommodation s/he needs is
‘reasonable,’ the burden shifts to the defendant/employer to
provide case-specific evidence proving that reasonable
accommodation would cause an undue hardship in the particular
circumstances,” with deafening and telling silence regarding an
adverse-employment-action requirement in plaintiff’s burden of
proof).

185a
§ 12111(b)(5)(A). . . . Thus, we use the burden-shifting
mechanism, not to probe the subjective intent of the
employer, but rather simply to provide a useful
structure by which the district court, when
considering a motion for summary judgment, can
determine whether the various parties have advanced
sufficient evidence to meet their respective traditional
burdens to prove or disprove the reasonableness of the
accommodations offered or not offered.” (second
emphasis added) ). And this confusion of the majority
likely explains why our controlling precedent has
taken a different path than the majority has on the
question of whether an adverse-employment-action
requirement is part and parcel of an ADA failure-toaccommodate claim. Needless to say, however, the
path of our precedent is binding. 4 Consequently, I
4

And, though the majority strains mightily to paint a contrary
picture, see Maj. Op. at 91315, 915–17 & n.7, this is also the path
followed in the decisions of several of our sister circuits.
Beginning with E.E.O.C. v. AutoZone, Inc., 630 F.3d 635 (7th Cir.
2010), the majority’s assertion of the “most important” point that
supposedly discounts the significance of this case is flawed. Maj.
Op. at 914–15. Specifically, the majority’s contention that this
case ostensibly “provides no analysis,” id., for its conclusion that
no adverse-employment-action requirement is embodied in an
ADA failure-to-accommodate claim bespeaks the same ADAclaims confusion that should be familiar to us now. That is, the
majority’s assertion stems from its failing to recognize that
AutoZone’s determination is based on that panel’s explicit
awareness that an adverse-employment-action requirement is a
feature of an ADA disparate-treatment claim, not a failure-toaccommodate claim. See AutoZone, 630 F.3d at 638 n.1 (“The
district court correctly identified the components of the
reasonable accommodation test. . . . When applying the facts to
the law, however, the court appears to have mistakenly applied
an element of the disparate treatment test as part of its
evaluation of reasonable accommodation. . . . No adverse

186a
employment action is required to prove a failure to
accommodate.” (citation omitted) ). As we have seen, this
distinction between the two types of ADA claims is critical. And,
yet, it is a principal source of confusion in cases outside of our
circuit—and also—underneath our own tent—in the majority’s
handicraft.
Going beyond AutoZone, the majority’s strained efforts lead it
to distinguish and discount other cases of our sister circuits
principally on the basis that, in electing to omit an adverseemployment-action element from their recitation of the requisite
elements of an ADA failure-to-accommodate claim, these cases
have not actually come to grips with—or opined on—“whether
there was an adverse employment action” component “at issue”
in an ADA failure-to-accommodate claim. Maj. Op. at 916 n.7. As
I point out with even greater force and certainty infra in
discussing our own precedent, I am disinclined to conclude that
the cadre of thoughtful federal judges who signed off on these
circuit decisions would cavalierly tolerate the serious risk that,
by omitting an ostensibly essential element (i.e., an adverseemployment-action element) from their listings of the requisite
elements of a failure-to-accommodate claim, they would mislead
the public and their lower courts regarding the state of the
relevant ADA law. I am much more inclined to presume that,
when the judges comprising these circuit panels omitted an
adverse-employment-action element from their listings of
requisite elements of a failure-to-accommodate claim, they
intended to do so. That is, they intended to accurately represent
to the public and their lower courts the nature of the relevant
ADA law—viz., an adverse-employment-action element is not
part of an ADA failure-to-accommodate claim. Moreover,
contrary to the majority’s suggestion, some of these circuit panels
did not just rely on a recitation of requisite elements, at least
standing alone, to communicate their views regarding the
absence of an adverse-employment-action element from an ADA
failure-to-accommodate claim. See, e.g., E.E.O.C. v. LHC Grp.,
Inc., 773 F.3d 688, 703 n.6 (5th Cir. 2014) (“[W]e note that
although their methods of proof are related, ‘[a] failure-toaccommodate claim under the ADA is distinct from a claim of
disparate treatment.’ . . . A failure-to-accommodate claim
provides a mechanism to combat workplace discrimination even

187a
when the employee in question has not suffered adverse
employment action.” (quoting Windhauser v. Bd. of Supervisors
for Louisiana State Univ. & Agric. & Mech. Coll., 360 F. App’x.
562, 565 (5th Cir. 2010) ) ); Lucas v. W.W. Grainger, Inc., 257
F.3d 1249, 1255 (11th Cir. 2001) (“An employer unlawfully
discriminates against a qualified individual with a disability
when the employer fails to provide ‘reasonable accommodations’
for the disability—unless doing so would impose undue hardship
on the employer.” (quoting 42 U.S.C. § 12112(b)(5)(A); 29 C.F.R.
§ 1630.9(a) ) ). And this includes the cases from the Third Circuit,
which reasons that an employer’s failure to provide a reasonable
accommodation is categorically, without more, a species of
adverse employment action. See, e.g., Colwell v. Rite Aid Corp.,
602 F.3d 495, 504 (3d Cir. 2010) (“Adverse employment decisions
in this context include refusing to make reasonable
accommodations for a plaintiff’s disabilities.” (quoting Williams
v. Phila. Hous. Auth. Police Dep’t, 380 F.3d 751, 761 (3d Cir.
2004) ) ); Williams, 380 F.3d at 771 (noting that “a failure to
make a reasonable accommodation for a disabled and qualified
employee constitutes discrimination under the ADA” and, as
applied, that “[i]f a trier of fact concludes that Williams was
disabled, however, it could also find that the failure to continue
Williams’ paid employment as a member of the radio or training
unit was a failure to reasonably accommodate and accordingly
constituted an adverse employment action under the ADA”
(emphasis added) ); cf. Brennan, supra, at 511 (though
recognizing that courts like the Third Circuit do not require
plaintiffs to establish an adverse employment action apart from
an employer’s failure to provide a reasonable accommodation,
expressing disapproval of this approach because it imports the
disparate treatment concept of an adverse employment action
into the realm of a failure-to-accommodate claim, which is “like
trying to fit a square peg into a round hole”). Indeed, when
federal district courts are included, one commentator has opined
that, “[w]hen courts have been faced with the issue of whether
an adverse employment action is needed to establish a prima
facie failure to accommodate claim,” “the majority” has concluded
that it is “not” needed. Brennan, supra, at 507; see id. at 509
(noting that “the vast majority of courts correctly appreciate that
the failure to accommodate is itself an act of discrimination that
violates the ADA”). Therefore, we should not be persuaded by the

188a
must respectfully reject the majority’s divergent
efforts.
In attempting to explain the unmistakable and
telling absence of any mention of an adverseemployment-action element in our prior recitation of
the requisite elements of a failure-to-accommodate
claim, the majority says the following: “[I]t may well
have been that what we were doing is simply setting
forth the failure-to-accommodate requirements of
§ 12112(b)(5)(A), not all the elements of an ADA claim
based on failure to accommodate.” Maj. Op. at 913. I
am not persuaded; nor should you be.
The majority need not speculate about what we
could have been doing in our prior, binding cases;
their plain text tells us what we were doing. For
example, in Smith, we expressly described what the
plaintiff must show “[t]o survive summary judgment
on an ADA claim of failure to accommodate.” 180 F.3d
at 1179. Most significantly, in clear language, we
stated the elements of an employee’s “prima facie
case.” Id. That is, Smith detailed “all the elements of
an ADA claim based on failure to accommodate,” Maj.
Op. at 913; it was not simply informing the reader
that discrimination under the ADA includes a failure
to accommodate, see § 12112(b)(5)(A). 5 If, as the
majority’s strained efforts to convince us that most courts
subscribe to its (errant) view.
5

In our en banc decision in Smith, we “invok[ed] the familiar
burden shifting approach” of McDonnell Douglas, recognizing
that this “approach has been specifically adopted [sic] to ADA
claims for failure reasonably to accommodate the disabled
employee.” 180 F.3d at 1178. If, as the majority contends, the
McDonnell Douglas “framework enables the plaintiff to prove her
claim in its entirety,” Maj. Op. at 909, it would be reasonable to

189a
majority would have it, an adverse-employmentaction requirement is an essential element of a
plaintiff’s failure-to-accommodate ADA claim, it
defies logic that the Smith panel would not have
included that requirement in its statement of the
prima facie case. But it did not do so. See 180 F.3d at
1179. And the reason is patent: under our controlling
precedent, an adverse employment action is not a
required element of an ADA failure-to-accommodate
claim.6
Bartee’s analysis forcefully suggests a similar
conclusion. There, it is very significant that we
juxtaposed the elements of an ADA discrimination
claim based on a disparate-treatment theory with the
elements of such a claim based on a failure-toaccommodate theory. See 374 F.3d at 912 n.4. And we
indicated that the element in the former of an adverse
employment action (i.e., the employer’s discharge of
expect—as I maintain—that the adapted version of this
framework that Smith employed also permitted the employee in
that case to prove in its entirety his failure-to-accommodate
claim. And, yet, the Smith court’s recitation of the requisite
elements of a prima facie case of a failure-to-accommodate claim
made no mention of an adverse-employment-action element.
Why? The answer should be quite clear by now—because, under
our precedent, there is no such element in a failure-toaccommodate claim.
6

Lest there be any doubt that Smith intended its discussion to
be comprehensive, it bears noting that the panel went on to
discuss the employer’s proof burden if the employee successfully
established its prima facie case and what the employee
ultimately needed to demonstrate to survive an employer’s
summary judgment motion. Smith, 180 F.3d at 1179. In this
extended discussion, there is no mention of an adverseemployment-action element.

190a
the employee because of his disability) was satisfied in
the employee’s “prima facie failure to accommodate
claim” by the employer’s failure to reasonably
accommodate the employee’s disability by placing him
in a different job. Id. Under these circumstances, it
would strain credulity to contend—as the majority, in
effect, does—that, while conducting this failure-toaccommodate analysis that expressly elides an
adverse-employment-action element, the Bartee panel
nevertheless tacitly understood that any statement of
all of the requisite elements of a failure-toaccommodate claim necessarily must include an
adverse-employment-action element. We should not
accept such an implausible contention.
An appellate court that effectively declares that it is
delineating the elements of “a prima facie failure to
accommodate claim,” as we have—Bartee, 374 F.3d at
912 n.4; see Smith, 180 F.3d at 1179—and then
excludes (as the majority would have it) an ostensibly
essential element of that claim (i.e., an adverseemployment-action requirement) would be running
the serious risk that the lower courts and the public,
if not the parties, would be misled about the contours
of the law. And I am not inclined to believe that my
colleagues in our previous failure-to-accommodate
cases would have been so cavalier. Therefore, I
respectfully decline to be moved by the majority’s
misguided efforts to find meaning from silence.

191a
For the foregoing reasons, I respectfully dissent. I
would reverse the district court’s judgment and
remand for a new trial. 7

7

Even if the question of whether an ADA failure-toaccommodate claim includes an adverse-employment-action
element were actually an open one in this circuit (which it is not),
I would have little reason to endorse the majority’s textual
analysis—that is, the majority’s suggestion that § 12112(a)’s
language regarding “other terms, conditions, and privileges of
employment” is a “shorthand” for an adverse-employment-action
requirement. Maj. Op. at 908. The majority’s assertion to this
effect only rests on a thin reed of authority from outside of our
circuit. For example, contrary to the majority’s intimation, the
Eighth Circuit in Kelleher did not scrutinize at all the meaning
of the other-terms-conditions-privileges language, but instead
predicated its analysis on the district court’s and the parties’
agreement that the ADA disparate-treatment and failure-toaccommodate claims at issue could be conflated and addressed
as one claim. Kelleher v. Wal-Mart Stores, Inc., 817 F.3d 624, 631
& n.4 (8th Cir. 2016) (“Kelleher included her disability
discrimination claim and her ‘failure to continue to
accommodate’ claim as Counts 1 and 2, respectively, in her first
amended complaint, but the district court addressed those claims
as a single failure to accommodate claim. On appeal, Kelleher
also treats them as a single claim, and we will do the same.”
(emphasis added) ). As we have seen, however, such an
agreement regarding the conflation of the two claims was
misguided because these claims have distinct elements; in
particular, the disparate-treatment claim has an adverseemployment-action requirement and the failure-to-accommodate
claim does not. As for the D.C. Circuit’s Marshall decision, the
court does make an observation seemingly helpful to the
majority’s position: “As the language of § 12112(a) makes clear,
for
discrimination
(including
denial
of
reasonable
accommodation) to be actionable, it must occur in regard to some
adverse personnel decision or other term or condition of
employment.” Marshall v. Fed. Exp. Corp., 130 F.3d 1095, 1099
(D.C. Cir. 1997). But the court makes this observation without
citation to further authority or even further discussion, and it

192a

does so—not in the context of resolving the merits of an ADA
failure-to-accommodate claim—but, rather, in connection with
rendering a holding regarding administrative exhaustion. See id.
at 1098–99. In sum, this thin reed of marginally relevant
authority has little power to persuade and, more specifically,
would not make me inclined to endorse the majority’s
“shorthand” theory—i.e., its view that § 12112(a)’s language
regarding “other terms, conditions, and privileges of
employment” is a shorthand for an adverse-employment-action
requirement.

193a
APPENDIX D
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
_________
LAURIE EXBY-STOLLEY,
Plaintiff,
v.
BOARD OF COUNTY COMMISSIONERS, WELD COUNTY,
COLORADO,
Defendant/s.
_________
Civil Action No. 13-cv-01395-WYD-NYW
_________
October 12, 2016
_________
FINAL JUDGMENT
_________
THIS MATTER came before the Court and a jury of
ten duly sworn to try the matter on September 30,
2016, the Honorable Wiley Y. Daniel, Senior United
States District Judge, presiding. On October 11, 2016,
the jury returned its verdict as follows:
Verdict Form
We, the Jury, being duly impaneled and sworn to try
the above-entitled case, unanimously find the
following answers to the questions submitted by the
Court:

194a
I. ADA FAILURE TO ACCOMMODATE CLAIM
1. Has Plaintiff proven by a preponderance of the
evidence that she had a disability, as defined in the
instructions?
Answer: Yes
If your answer to Question 1 is “yes”, proceed to
Question 2. If your answer to Question 1 is “no”, skip
the remaining questions in this section as you have
found for the Defendant on this claim, and proceed to
Section II where you will sign and date the verdict
form.
2. Has Plaintiff proven by a preponderance of the
evidence that she is a qualified individual with a
disability, as defined in the instructions?
Answer: Yes
If your answer to Question 2 is “yes”, proceed to
Question 3. If your answer to Question 2 is “no”, skip
the remaining questions in this section as you have
found for the Defendant on this claim, and proceed to
Section II where you will sign and date the verdict
form.
3. Has Plaintiff proven by a preponderance of the
evidence that she was discharged from employment or
suffered another adverse employment action by
Defendant?
Answer: No
If your answer to Question 3 is “yes”, proceed to
Question 4. If your answer to Question 3 is “no”, skip
the remaining questions in this section as you have
found for the Defendant on this claim, and proceed to

195a
Section II where you will sign and date the verdict
form.
4. Has Plaintiff proven by a preponderance of the
evidence that her disability was a substantial or
motivating factor that prompted Defendant to take
that action?
Answer:
If your answer to Question 4 is “yes”, proceed to
Question 5. If your answer to Question 4 is “no” , skip
the remaining questions in this section as you have
found for the Defendant on this claim, and proceed to
Section II where you will sign and date the verdict
form.
5. Do you find that Plaintiff should be awarded
compensatory damages for emotional distress or
mental anguish she experienced as a result of
Defendant’s failure to accommodate her disability?
Answer:
If your answer to Question 5 is “yes”, in what
amount?
$
IT IS THEREFORE
ORDERED that judgment is hereby entered in favor
of defendant Board of County Commissioners of Weld
County, and against plaintiff, Laurie Exby-Stolley, on
Plaintiff’s claim under the Americans with
Disabilities Act (A.D.A.). It is further
ORDERED that plaintiff’s complaint and action are
dismissed with prejudice. It is further

196a
ORDERED that defendant shall have its costs by the
filing of a Bill of Costs with the Clerk of this Court
within fourteen (14) days of entry of judgment, and
pursuant to the procedures set forth in Fed. R. Civ. P.
54(d)(1) and D.C.COLO.LCivR 54.1.
DATED at Denver, Colorado this 12th day of
October, 2016.
FOR THE COURT:
JEFFREY P. COLWELL, CLERK

/s/ Robert R. Keech
Robert R. Keech
Deputy Clerk

APPROVED AS TO FORM:

/s/ Wiley Y. Daniel
WILEY Y. DANIEL
SENIOR UNITED STATES DISTRICT JUDGE

197a
APPENDIX E
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________
LAURIE EXBY-STOLLEY,
Plaintiff-Appellant,
v.
BOARD OF COUNTY COMMISSIONERS, WELD COUNTY,
COLORADO,
Defendant-Appellee.
_________
No. 16-1412
_________
Filed: December 18, 2018
_________
ORDER
_________
Before TYMKOVICH, Chief Judge, BRISCOE,
LUCERO, HARTZ, HOLMES, MATHESON,
BACHARACH, PHILLIPS, McHUGH, MORITZ,
EID, and CARSON, Circuit Judges.*

*

The Honorable Paul J. Kelly did not vote on the poll, but as a
member of the original hearing panel he has elected to sit on the
en banc panel. See 10th Cir. R. 35.5.

198a
_________
This matter is before the court on the appellant’s
Petition for Rehearing En Banc. We also have a
response from the appellee, and a motion from the
Colorado Plaintiff Employment Lawyers Association,
et al., seeking leave to file an amicus curiae brief.
As an initial matter, and upon consideration, the
motion seeking leave to file an amicus curiae brief on
rehearing is granted. The brief submitted on
November 2, 2018 shall be shown filed effective the
date of this order.
The Petition and response were circulated to all
active judges on the court. Upon that review a poll was
called, and a majority voted to rehear this matter en
banc. Accordingly, the Petition is GRANTED. See Fed.
R. App. P. 35(a); see also 10th Cir. R. 35.6 (noting the
effect of the grant of en banc rehearing is to vacate the
judgment and to restore the case on the docket).
We have en banced the entire case, but we request
the parties to address specifically the following
question in supplemental memorandum briefs:
Whether an adverse employment action is a
requisite element of a failure-to-accommodate
claim under the Americans with Disabilities
Act (“ADA”), 42 U.S.C. §§ 12101–213.
The appellant’s supplemental brief shall be filed on or
before January 18, 2019 and shall be limited to 25
pages in length in a 13 or 14 point font. In addition,
within 2 business days of the electronic filing 16 hard
copies must be received in the Office of the Clerk. On
or before Tuesday February 19, 2019 the appellee

199a
shall file a memorandum response brief subject to the
same limitations. Like the appellant’s brief, 16 hard
copies must be received in the clerk’s office within 2
business days.
Within 14 days of service of the memorandum
response brief the appellant may file a reply. The
reply shall be limited to 10 pages in length. Like the
primary supplemental briefs, 16 hard copies of the
reply must be received in the clerk’s office within 2
business days.
The court anticipates setting this matter for hearing
on the May 2019 oral argument calendar. That
calendar is currently set for the week of May 6-10,
2019. In light of that setting, motions for extension of
time are strongly discouraged. The parties will be
advised of the exact date and time for the hearing
when that calendar is set.
Entered for the Court
/s/ Elisabeth A. Shumaker, Clerk
ELISABETH A. SHUMAKER, Clerk

200a
APPENDIX F
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________
LAURIE EXBY-STOLLEY,
Plaintiff-Appellant,
v.
BOARD OF COUNTY COMMISSIONERS, WELD COUNTY,
COLORADO,
Defendant-Appellee.
UNITED STATES OF AMERICA; COLORADO PLAINTIFF
EMPLOYMENT LAWYERS ASSOCIATION; NATIONAL
DISABILITY RIGHTS NETWORK; NATIONAL
EMPLOYMENT LAWYERS ASSOCIATION,
Amici Curiae.
_________
Filed: December 16, 2020
_________
No. 16-1412
(D.C. No. 1:13-CV-03195-WYD-NYW)
(D. Colo.)
_________
ORDER
_________
Before HARTZ, KELLY, and HOLMES, Circuit
Judges.
_________

201a
This matter is before the court on DefendantAppellee’s Unopposed Motion for Stay Pending
Petition for Writ of Certiorari to the United States
Supreme Court, which asks us to stay the mandate in
this appeal pending the filing and review of a petition
for writ of certiorari in the United States Supreme
Court. The mandate issued on November 19, 2020.
Accordingly, and upon careful consideration, the
motion is (1) construed as a motion to recall and stay
the mandate, and (2) granted in part as follows.
The mandate is hereby recalled, and reissuance of
the mandate shall be stayed for 120 days. Within 30
days of the date of this order, and every 30 days
thereafter, Defendant-Appellee shall file a status
report to apprise this court of the status of its efforts
to seek certiorari review in the Supreme Court.
Entered for the Court,
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT, Clerk

202a
APPENDIX G
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
_________
LAURIE EXBY-STOLLEY,
Plaintiff,
v.
BOARD OF COUNTY COMMISSIONERS, WELD COUNTY,
COLORADO,
Defendant/s.
_________
Senior Judge Wiley Y. Daniel
_________
Civil Action No. 13-cv-01395-WYD-NYW
_________
October 11, 2016
_________
JURY INSTRUCTIONS 14, 15, 16, 23
_________
***
INSTRUCTION NO. 14
The Plaintiff has brought this lawsuit under the
Americans with Disabilities Act, also called the ADA.
The ADA provides that no covered entity shall
discriminate against a qualified individual on the
basis of disability in regard to job application
procedures, the hiring, advancement, or discharge of

203a
employees, employee compensation, job training, and
other terms, conditions, and privileges of employment.
The phrase “discriminate against a qualified
individual on the basis of disability” includes not
making reasonable accommodations to the known
physical or mental limitations of an otherwise
qualified individual with a disability who is an
applicant or employee, unless such covered entity can
demonstrate that the accommodation would impose
an undue hardship on the operation of the business of
such covered entity.
Discrimination includes denying employment
opportunities to an employee who is an otherwise
qualified individual with a disability, if such denial is
based on the need of such covered entity to make
reasonable accommodation to the physical or mental
impairments of the employee or applicant.
INSTRUCTION NO. 15
Under the ADA, it is unlawful for an employer to
discharge, lay off, or fail to promote or otherwise
discriminate against an employee because of that
employee’s disability if the employee is qualified to do
the job with a reasonable accommodation by the
employer of the employee’s disability.
INSTRUCTION NO. 16
In order for Plaintiff to prevail on her claim that
Defendant failed to reasonably accommodate her
disability, Plaintiff must prove each of the following
facts by a preponderance of the evidence:
1. That Plaintiff had a “disability,” as defined
in these instructions;

204a
2. That Plaintiff was a “qualified individual,”
as defined in these instructions;
3. That Plaintiff was discharged from
employment or suffered another adverse
employment action by Defendant; and
4. That Plaintiff’s disability was a substantial
or motivating factor that prompted
Defendant to take that action.
Plaintiff contends Defendant should have
reasonably accommodated Plaintiff by reassigning
Plaintiff to another position. Reassignment may
constitute a reasonable accommodation under certain
circumstances, but Defendant is not required to create
or re-establish a job where one would otherwise not
exist. In addition, Defendant is not required to
promote an employee with a disability as an
accommodation. To show that lateral reassignment to
another job would have been a reasonable
accommodation, Plaintiff must prove the job was
vacant or available and Plaintiff was qualified for the
vacant job to which Plaintiff requested reassignment.
Plaintiff contends Defendant should have
reasonably accommodated Plaintiff by requiring
another employee to perform those duties of Plaintiff’s
job that Plaintiff could not perform because of
Plaintiff’s disability. Reallocation of marginal job
duties can sometimes constitute a reasonable
accommodation. However, Defendant does not have
to transfer any of the Plaintiff’s essential job duties to
another employee to perform. Essential job duties are
those duties that the person holding the job would
have to perform in order to be considered qualified for

205a
the position. If you conclude Plaintiff, in effect, is
arguing that another employee should have been
required to perform an essential function or functions
of Plaintiff’s job, then the accommodation that
Plaintiff sought was not a reasonable accommodation.
If, however, Plaintiff only sought the reallocation of
marginal job duties to another employee, and if you
further find that it would have been reasonable for the
employer to require another employee to perform
these marginal duties without imposing an excessive
burden on the employer or that employee, then you
may conclude that the specified accommodation was a
reasonable one.
Plaintiff contends Defendant should have
reasonably accommodated Plaintiff by modifying the
Plaintiff’s work schedule. You must decide first
whether Plaintiff would have been able to perform the
essential functions of the job with a modified work
schedule. Essential job duties are those duties the
person holding the job would have to perform in order
to be considered qualified for the position. Second,
you must determine whether it would have been
reasonable to require Defendant, under all of the
circumstances, to modify Plaintiff's work schedule. In
that regard, an employer’s duty to reasonably
accommodate a disabled employee does not require
the employer to excessively burden other employees.
Also, while an employer may be required to modify
work schedules to accommodate a disabled employee,
an employer is not required to wait an indefinite
period of time for the employee to be able to perform
the essential functions of the job.
The fact Defendant may have offered certain
accommodations to Plaintiff in the past, as a

206a
temporary experiment or as an act of compassion
toward the employee does not mean that the same
accommodations must be forever extended to Plaintiff
as a matter of law, or that those accommodations are
necessarily reasonable under the ADA. Otherwise, an
employer would be reluctant to offer benefits or
concessions to disabled employees for fear that, by
once providing the benefit or concession, the employer
would forever be required to provide that
accommodation. The fact an accommodation that
Plaintiff argues for has been provided by Defendant in
the past to Plaintiff or to another disabled employee,
does not necessarily mean the particular
accommodation is a reasonable one. Instead, you
must determine its reasonableness under all the
evidence in the case.
While Defendant is required to provide reasonable
accommodations allowing Plaintiff to perform the
essential functions of the job, Defendant does not have
to provide the particular accommodation Plaintiff
prefers or requests.
There may be more than one reasonable
accommodation, and if Plaintiff refused to accept an
accommodation offered by Defendant that would have
allowed Plaintiff to perform the essential functions of
the job, then Plaintiff has failed in carrying Plaintiff’s
burden of demonstrating Defendant refused to offer
Plaintiff a reasonable accommodation.
***
INSTRUCTION NO. 23
An adverse employment action constitutes a
significant change in employment status, such a

207a
hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing a significant change in benefits.
***

